The Department of Health and Human Services
                     and
          The Department of Justice
Health Care Fraud and Abuse Control Program
      Annual Report for Fiscal Year 2013




               February 2014
                                 TABLE OF CONTENTS


                                                                        Page

Executive Summary                                                       1
Introduction                                                            3
Monetary Results                                                        5
Program Accomplishments                                                 7

      Department of Health and Human Services
            Office of Inspector General                                 46
            Centers for Medicare & Medicaid Services                    61
            Administration on Community Living                          77
            Office of the General Counsel                               80
            Food and Drug Administration Pharmaceutical Fraud Program   83

      Department of Justice
            United States Attorneys                                     86
            Civil Division                                              88
            Criminal Division                                           90
            Civil Rights Division                                       94


Appendix: Federal Bureau of Investigation                               99
          Return on Investment Calculation                              102
          Total HCFAC Funding                                           103

Glossary of Terms                                                       104




                                      GENERAL NOTE

                               All years are fiscal years unless
                                 otherwise noted in the text.
                                               EXECUTIVE SUMMARY


The Health Insurance Portability and Accountability Act of 1996 (HIPAA) established a national
Health Care Fraud and Abuse Control Program (HCFAC or the Program) under the joint
direction of the Attorney General and the Secretary of the Department of Health and Human
Services (HHS) 1, acting through the Inspector General, designed to coordinate Federal, state and
local law enforcement activities with respect to health care fraud and abuse. In its seventeenth
year of operation, the Program’s continued success confirms the soundness of a collaborative
approach to identify and prosecute the most egregious instances of health care fraud, to prevent
future fraud and abuse, and to protect program beneficiaries.

Monetary Results

During Fiscal Year (FY) 2013, the Federal government won or negotiated over $2.6 billion in
health care fraud judgments and settlements2, and it attained additional administrative
impositions in health care fraud cases and proceedings. As a result of these efforts, as well as
those of preceding years, in FY 2013, approximately $4.3 billion was deposited with the
Department of the Treasury and the Centers for Medicare & Medicaid Services (CMS),
transferred to other Federal agencies administering health care programs, or paid to private
persons during the fiscal year. Of this $4.3 billion, the Medicare Trust Funds3 received transfers
of approximately $2.85 billion during this period, and over $576 million in Federal Medicaid
money was similarly transferred separately to the Treasury as a result of these efforts. The
HCFAC account has returned over $25.9 billion to the Medicare Trust Funds since the inception
of the Program in 1997.

Enforcement Actions

In FY 2013, the Department of Justice (DOJ) opened 1,013 new criminal health care fraud
investigations involving 1,910 potential defendants. Federal prosecutors had 2,041 health care
fraud criminal investigations pending, involving 3,535 potential defendants, and filed criminal
charges in 480 cases involving 843 defendants. A total of 718 defendants were convicted of
health care fraud-related crimes during the year. Also in FY 2013, DOJ opened 1,083 new civil
health care fraud investigations and had 1,079 civil health care fraud matters pending at the end
of the fiscal year. In FY 2013, Federal Bureau of Investigation (FBI) health care fraud
investigations resulted in the operational disruption of 425 criminal fraud organizations and the


1
    Hereafter, referred to as the Secretary.
2
The amount reported as won or negotiated only reflects Federal recoveries and therefore does not reflect state
Medicaid monies recovered as part of any global, Federal-State settlements.
3
Also known as the Medicare Hospital Insurance (Part A) Trust Fund and the Supplemental Medical Insurance (Part
B) Trust Fund.


                                                         1
dismantlement of the criminal hierarchy of more than 115 criminal enterprises engaged in health
care fraud.

In FY 2013, HHS’ Office of Inspector General (HHS-OIG) investigations resulted in 849
criminal actions against individuals or entities that engaged in crimes related to Medicare and
Medicaid; and 458 civil actions, which include false claims and unjust-enrichment lawsuits filed
in Federal district court, civil monetary penalties (CMP) settlements, and administrative
recoveries related to provider self-disclosure matters. HHS-OIG also excluded 3,214 individuals
and entities. Among these were exclusions based on criminal convictions for crimes related to
Medicare and Medicaid (1,132) or to other health care programs (311); for patient abuse or
neglect (180); and as a result of licensure revocations (1,324). HHS-OIG also issued numerous
audits and evaluations with recommendations that, when implemented, would correct program
vulnerabilities and save program funds.

Impact of Sequestration

Due to sequestration in 2013, there were fewer resources for DOJ and HHS to fight fraud and
abuses against Medicare, Medicaid, and other healthcare programs. A total of $30.6 million was
sequestered from the HCFAC program in FY 2013.




                                               2
                                           INTRODUCTION


                         ANNUAL REPORT OF
             THE ATTORNEY GENERAL AND THE SECRETARY
                DETAILING EXPENDITURES AND REVENUES
      UNDER THE HEALTH CARE FRAUD AND ABUSE CONTROL PROGRAM
                        FOR FISCAL YEAR 2013

                                          As Required by
                            Section 1817(k)(5) of the Social Security Act

                                   STATUTORY BACKGROUND


The Social Security Act Section 1128C(a), as established by the Health Insurance Portability and
Accountability Act of 1996 (P.L. 104-191, HIPAA or the Act), created the Health Care Fraud
and Abuse Control Program, a far-reaching program to combat fraud and abuse in health care,
including both public and private health plans.

As was the case before HIPAA, amounts paid to Medicare in restitution or for compensatory
damages must be deposited in the Medicare Trust Funds. The Act requires that an amount
equaling recoveries from health care investigations – including criminal fines, forfeitures, civil
settlements and judgments, and administrative penalties – also be deposited in the Trust Funds.

The Act appropriates monies from the Medicare Hospital Insurance Trust Fund to an expenditure
account, called the Health Care Fraud and Abuse Control Account (the Account), in amounts that
the Secretary and Attorney General jointly certify as necessary to finance anti-fraud activities.
The maximum amounts available for certification are specified in the Act. Certain of these sums
are to be used only for activities of the HHS-OIG, with respect to the Medicare and Medicaid
programs. In FY 2006, the Tax Relief and Health Care Act (TRHCA) (P.L 109-432, §303)
amended the Act so that funds allotted from the Account are “available until expended.”
TRHCA also allowed for yearly increases to the Account based on the change in the consumer
price index for all urban consumers (all items; United States city average) (CPI-U) over the
previous fiscal year for fiscal years for 2007 through 2010. 4 In FY 2010, the Patient Protection
and Affordable Care Act, as amended by the Health Care and Education Reconciliation Act,
collectively referred to as the Affordable Care Act (P.L. 111-148, ACA) extended permanently
the yearly increases to the Account based upon the change in the consumer price index for all
urban consumers or CPI-U.




4
 The CPI-U adjustment in TRHCA did not apply to the Medicare Integrity Program (MIP). Section 6402 of the
ACA indexed Medicare Integrity Program funding to inflation starting in FY 2010.
                                                     3
In FY 2013, the Secretary and the Attorney General certified $295.1 million in mandatory
funding for appropriation to the Account. Additionally, Congress appropriated $309.1 million in
discretionary funding. A detailed breakdown of the allocation of these funds is set forth later in
this report. HCFAC appropriations generally supplement the direct appropriations of HHS and
DOJ that are devoted to health care fraud enforcement and funded approximately three-fourths of
HHS-OIG’s appropriated budget in FY 2013. (Separately, the FBI received $128.1 million from
HIPAA which is discussed in the Appendix.)

Under the joint direction of the Attorney General and the Secretary, the Program’s goals are:

(1)    to coordinate Federal, state and local law enforcement efforts relating to health care fraud
       and abuse with respect to health plans;

(2)    to conduct investigations, audits, inspections, and evaluations relating to the delivery of
       and payment for health care in the United States;

(3)    to facilitate enforcement of all applicable remedies for such fraud;

(4)    to provide education and guidance regarding complying with current health care law; and

(5)    to establish a national data bank to receive and report final adverse actions against health
       care providers and suppliers.

The Act requires the Attorney General and the Secretary to submit a joint annual report to the
Congress which identifies both:

(1)    the amounts appropriated to the Trust Funds for the previous fiscal year under various
       categories and the source of such amounts; and

(2)    the amounts appropriated from the Trust Funds for such year for use by the Attorney
       General and the Secretary and the justification for the expenditure of such amounts.

This annual report fulfills the above statutory requirements.

Additionally, this report fulfills the requirement in the annual discretionary HCFAC
appropriation (Public Law 112-74 “Consolidated Appropriations Act of 2012”) that this report
“include measures of the operational efficiency and impact on fraud, waste, and abuse in the
Medicare, Medicaid, and CHIP programs for the funds provided by this appropriation.”




                                                 4
                                         MONETARY RESULTS

As required by the Act, HHS and DOJ must detail in this Annual Report the amounts deposited
to the Medicare Trust Funds and the source of such deposits. In FY 2013, approximately $4.3
billion was deposited with the Department of the Treasury and CMS, transferred to other Federal
agencies administering health care programs, or paid to private persons during the fiscal year.
The following chart provides a breakdown of the transfers/deposits:
                           Total Transfers/Deposits by Recipient FY 2013
Department of the Treasury
 Deposits to the Medicare Trust Funds, as required by HIPAA
      Gifts and Bequests                                                                                  $95
      Amount Equal to Criminal Fines                                                             $708,406,030
      Civil Monetary Penalties                                                                    $14,483,916
      Asset Forfeiture                                                                            $30,166,006
      Penalties and Multiple Damages                                                           $1,363,761,885
      Subtotal                                                                                 $2,116,817,933

Centers for Medicare & Medicaid Services
 HHS-OIG Audit Disallowances – Recovered - Medicare                                               $61,717,799
 Restitution/Compensatory Damages                                                                $677,300,987
        Subtotal*                                                                                $739,018,786

Grand Total of Amounts Transferred to the Medicare Trust Funds                                 $2,855,836,718

Restitution/Compensatory Damages to Federal Agencies
TRICARE                                                                                            $41,597,410
Department of Veterans Affairs                                                                     $40,896,098
HHS-OIG Cost of Audits, Investigations and Compliance Monitoring                                    $9,888,585
Office of Personnel Management                                                                     $43,286,981
Other Agencies                                                                                     $10,065,851

Centers for Medicare and Medicaid Services
Federal Share of Medicaid                                                                        $576,540,583
HHS-OIG Audit Disallowances – Recovered - Medicaid                                               $431,249,581
       Subtotal                                                                                $1,153,525,089
Relators= Payments**                                                                             $324,194,039
   TOTAL ***                                                                                   $4,333,555,846
* Restitution, compensatory damages, and recovered audit disallowances include returns to both the Medicare
Hospital Insurance (Part A) Trust Fund and the Supplemental Medical Insurance (Part B) Trust Fund.
**These are funds awarded to private persons who file suits on behalf of the Federal government under the qui tam
provisions of the False Claims Act, 31 U.S.C. ' 3730(b).
***State funds are also collected on behalf of state Medicaid programs; only the Federal share of Medicaid funds
transferred to CMS are represented here.




                                                        5
The above transfers include certain collections, or amounts equal to certain collections, required
by HIPAA to be deposited directly into the Medicare Trust Funds. These amounts include:

(1)    Gifts and bequests made unconditionally to the Trust Funds, for the benefit of the Account
       or any activity financed through the Account;

(2)    Criminal fines recovered in cases involving a Federal health care offense, including
       collections under section 24(a) of Title 18, United States Code (relating to health care
       fraud);

(3)    Civil monetary penalties in cases involving a Federal health care offense;

(4)    Amounts resulting from the forfeiture of property by reason of a Federal health care
       offense, including collections under section 982(a)(7) of Title 18, United States Code; and

(5)    Penalties and damages obtained and otherwise creditable to miscellaneous receipts of the
       general fund of the Treasury obtained under sections 3729 through 3733 of Title 31,
       United States Code (known as the False Claims Act, or FCA), in cases involving claims
       related to the provision of health care items and services (other than funds awarded to a
       relator, for restitution or otherwise authorized by law).




                                                 6
                                       PROGRAM ACCOMPLISHMENTS
   EXPENDITURES

   In the seventeenth year of operation, the Secretary and the Attorney General certified
   $295.1 million in mandatory funding as necessary for the Program. Additionally, Congress
   appropriated $309.2 million in discretionary funding. Sequestration reductions, as required by
   law, were taken against the mandatory and discretionary HCFAC accounts. The following chart
   gives the allocation by recipient:

                        FY 2013 ALLOCATION OF HCFAC APPROPRIATION
Organization                             Mandatory    Discretionary    Funds                                Total
                                         Allocation 5  Allocation    Sequester                            Allocation
Department of Health and Human
Services
Office of Inspector General 6            197,109,153     29,614,462 (11,503,999)                          215,219,616
Office of the General Counsel               8,887,870             0                                         8,887,870
Administration for Community Living       10,548,259              0                                        10,548,259
Food and Drug Administration                3,377,220             0                                         3,377,220
Centers for Medicare & Medicaid Services  12,005,774    249,941,882 (12,598,773)                          249,348,883
Unallocated Funding                         1,914,767             0  (1,914,767)                                    0
 Subtotal                                233,843,043    279,556,344 (26,017,539)                          487,381,848
Department of Justice
United States Attorneys                              31,400,000        10,610,752                          42,010,752
Civil Division                                       18,972,139         8,113,000                          27,085,139
Criminal Division                                     1,580,000         6,594,000                           8,174,000
Civil Rights Division                                 2,376,000         1,741,493                           4,117,493
Nursing Home and Elder Justice Initiative             1,000,000                 0                           1,000,000
Justice Management Division                             200,000                 0                             200,000
Department of Justice - Other                         5,761,684         2,555,217        (4,618,552)        3,698,349
Subtotal                                             61,289,823        29,614,462        (4,618,552)       86,285,733
TOTAL7                                              295,132,866       309,170,806      (30,636,091)       573,667,581




   5
       In FY 2007, mandatory funds became available until expended. Discretionary funding is two-year funding.
   6
    Total includes $0.8 million in FY 2013 HCFAC mandatory funding. In addition, HHS-OIG obligated $17.3 million
   in funds received as “reimbursement for the costs of conducting investigations and audits and for monitoring
   compliance plans” as authorized by section 1128C(b) of the Social Security Act, 42 U.S.C. § 1320a-7c(b).
   7
    Amounts only represent those that are provided by statute, and do not include other mandatory sources or
   discretionary appropriated sources provided through Departments’ annual appropriations.




                                                             7
ACCOMPLISHMENTS

Overall Recoveries

During this fiscal year, the Federal government won or negotiated approximately $4.33 billion in
judgments and settlements, and it attained additional administrative impositions in health care
fraud cases and proceedings. The Medicare Trust Funds received transfers of approximately
$2.85 billion during this period as a result of these efforts, as well as those of preceding years; and
another $576 million in Federal Medicaid money was transferred to the Treasury separately as a
result of these efforts. 8

In addition to these enforcement actions, numerous audits, evaluations and other coordinated
efforts yielded recoveries of overpaid funds, and prompted changes in Federal health care
programs that reduce vulnerability to fraud.

The return-on-investment (ROI) for the HCFAC program over the last three years (2011-2013) is
$8.1 returned for every $1.00 expended. This is $2.7 higher than the average ROI for the life of
the HCFAC program since 1997. Due to the fact that the annual ROI can vary from year to year
depending on the number of cases that are settled or adjudicated during that year, DOJ and HHS
use a three-year rolling average ROI for results contained in the report. Additional information
on how the ROI is calculated can be found in the Appendix.

Departmental Collaboration

Health Care Fraud Prevention & Enforcement Action Team (HEAT)

The Attorney General and the Secretary maintain regular consultation at both senior and staff
levels to accomplish the goals of the HCFAC Program. On May 20, 2009, Attorney General
Holder and Secretary Sebelius announced the Health Care Fraud Prevention & Enforcement
Action Team (HEAT), a new effort with increased tools and resources, and a sustained focus by
senior level leadership to enhance collaboration between the Departments of Health and Human
Services and Justice. With the creation of the new HEAT effort, DOJ and HHS pledged a cabinet-
level commitment to prevent and prosecute health care fraud. HEAT, which is jointly led by the
Deputy Attorney General and HHS Deputy Secretary, is comprised of top level law enforcement
agents, prosecutors, attorneys, auditors, evaluators, and other staff from DOJ and HHS and their
operating divisions, and is dedicated to joint efforts across government to both prevent fraud and
enforce current anti-fraud laws around the country. The Medicare Fraud Strike Force teams are a
key component of HEAT.

The mission of HEAT is:

    o To marshal significant resources across government to prevent waste, fraud and
      abuse in the Medicare and Medicaid programs and crack down on the fraud

8
  Note that some of the judgments, settlements, and administrative actions that occurred in FY 2013 will result in
transfers in future years, just as some of the transfers in FY 2013 are attributable to actions from prior years.
                                                          8
       perpetrators who are abusing the system and costing us all billions of dollars.

   o To reduce skyrocketing health care costs and improve the quality of care by ridding
     the system of perpetrators who are preying on Medicare and Medicaid beneficiaries.

   o To highlight best practices by providers and public sector employees who are
     dedicated to ending waste, fraud, and abuse in Medicare.

   o To build upon existing partnerships between DOJ and HHS, such as our Medicare
     Fraud Strike Force Teams, to reduce fraud and recover taxpayer dollars.

Since its creation in May 2009, HEAT has focused on key areas for coordination and
improvement. HEAT members are working to identify new enforcement initiatives and areas for
increased oversight and prevention to increase efficiency in areas such as pharmaceutical and
device investigations. DOJ and HHS have expanded data sharing and improved information
sharing procedures in order to get critical data and information into the hands of law enforcement
to track patterns of fraud and abuse, and increase efficiency in investigating and prosecuting
complex health care fraud cases. The departments established a cross-government health care
fraud data intelligence sharing workgroup to share fraud trends, new initiatives, ideas, and success
stories to improve awareness across the government of issues relating to health care fraud.

Both departments also have developed training programs to prevent honest mistakes and help stop
potential fraud before it happens. This includes CMS compliance training for providers, HHS-
OIG’s HEAT Provider Compliance Training initiative, and on-going meetings at U.S. Attorneys’
Offices (USAOs) with the public and private sector, and increased efforts by HHS to educate
specific groups – including elderly and immigrant communities – to help protect them. In
addition, DOJ conducts, with the support of HHS, a Medicare Fraud Strike Force training
program designed to teach the Strike Force concept and case model to prosecutors, law
enforcement agents, and administrative support teams.

To achieve the mission and objectives of HEAT, the Attorney General and the Secretary
promoted several HEAT initiatives during the fiscal year:

   •   In October 2012, Medicare Fraud Strike Force operations in seven cities led to charges
       against 91 individuals – including doctors, nurses and other licensed medical professionals
       – for their alleged participation in Medicare fraud schemes involving approximately
       $429.2 million in false billing. The coordinated nationwide takedown encompassed
       indictments charging more than $230 million in home health care fraud; more than
       $100 million in mental health care fraud and more than $49 million in ambulance
       transportation fraud; and millions more in other frauds. HHS also suspended or took other
       administrative action against 30 health care providers.

   •   In May 2013, a nationwide takedown by Medicare Fraud Strike Force operations in eight
       cities resulted in charges against 89 individuals, including doctors, nurses and other
       licensed medical professionals, for their alleged participation in Medicare fraud schemes

                                                 9
           involving approximately $223 million in false billings. The defendants charged were
           accused of various health care fraud-related crimes, including conspiracy to commit health
           care fraud, violations of the anti-kickback statutes and money laundering. The charges
           were based on a variety of alleged fraud schemes involving various medical treatments
           and services, primarily home health care, but also mental health services, psychotherapy,
           physical and occupational therapy, durable medical equipment (DME) and ambulance
           services. This coordinated takedown was the sixth national Medicare fraud takedown in
           Strike Force history.

Healthcare Fraud Prevention Partnership (HFPP)

The Healthcare Fraud Prevention Partnership (HFPP) is the groundbreaking public/private
partnership between the government and private sector insurance payers. The purpose of the
partnership is to exchange data and information between the partners to help improve capabilities
to fight fraud, waste and abuse in the health care industry. Current partners include federal (HHS-
OIG, DOJ, FBI, CMS), states, private plans and associations. The Partnership's first information
sharing study included exchanging codes and code combinations frequently associated with fraud,
waste or abuse, as well as fraud schemes and descriptions. Additional studies are underway and
the Partnership is poised for the procurement of the data-exchange entity, the Trusted Third Party
(TTP), as well as expansion to new partners.

The HFPP is a demonstrated example of effective departmental collaboration between HHS and
DOJ, working together to create a strong partnership with the states and private payers to detect
fraud, waste, and abuse.

During FY 2013, the many significant HCFAC Program accomplishments included the following:

Medicare Fraud Strike Force

The first Medicare Fraud Strike Force (Strike Force) was launched in March 2007 as part of the
South Florida Initiative, a joint investigative and prosecutorial effort against Medicare fraud and
abuse among Durable Medical Equipment (DME) suppliers and Human Immunodeficiency Virus
(HIV) infusion therapy providers in South Florida. The Strike Force teams use advanced data
analysis techniques to identify high-billing levels in health care fraud hot spots so that interagency
teams can target emerging or migrating schemes along with chronic fraud by criminals
masquerading as health care providers or suppliers. Based on the success of these efforts and
increased appropriated funding for the HCFAC program from Congress and the Administration,
DOJ and HHS expanded the Strike Force to include teams of investigators and prosecutors in a
total of nine locations – Miami, FL; Los Angeles, CA; Detroit, MI; Houston, TX; Brooklyn, NY;
South Louisiana (South Louisiana and New Orleans, LA) 9; Tampa, FL; Chicago, IL; and Dallas,
TX.

Each Medicare Fraud Strike Force team combines the data analysis and administrative action
capabilities of CMS, the investigative resources of the FBI and HHS-OIG, and the prosecutorial
9
    While the Strike Force in southern Louisiana started in Baton Rouge, LA, it now operates in New Orleans as well.
                                                           10
resources of the Criminal Division’s Fraud Section and the USAOs. Strike Force
accomplishments from cases prosecuted in all nine cities during FY 2013 include 10:

     •   137 indictments, informations and complaints involving charges filed against 345
         defendants who allegedly collectively billed the Medicare program more than $1.1 billion;

     •   234 guilty pleas negotiated and 34 jury trials litigated, with guilty verdicts against 48
         defendants; and

     •   Imprisonment for 229 defendants sentenced during the fiscal year, averaging more than 52
         months of incarceration.

In the six and a half years since its inception, Strike Force prosecutors filed more than 788 cases
charging more than 1,727 defendants who collectively billed the Medicare program more than
$5.5 billion; 1,137defendants pleaded guilty and 148 others were convicted in jury trials; and
1087 defendants were sentenced to imprisonment for an average term of approximately 47
months. 11

Although multiple factors may be in play, there has been a measurable decrease in Medicare
reimbursements for certain medical services that have also been targeted by the Medicare Strike
Force. For instance:

         Miami: Medicare Payments for DME. The Strike Force initially started in Miami
         precisely to respond to an epidemic of a particular type of fraud involving claims for
         DME. The law enforcement activity response to DME fraud in the Miami area was
         overwhelming. Hundreds of defendants were charged and convicted of DME fraud by the
         Miami Medicare Fraud Strike Force. Law enforcement prosecution of DME fraud, while
         diminished from its height, continues.

         During this same time period, CMS implemented an aggressive and multifaceted strategy
         to address DME fraud, waste, and abuse without any loss of access or quality for Medicare
         beneficiaries. In 2009, CMS began to require DME suppliers to become accredited and
         possess a surety bond of at least $50,000. Based upon these new requirements, 10,533
         DME suppliers were revoked between October 2009 and December 2009. In addition to
         those revoked, approximately 1,500 more suppliers voluntarily terminated their enrollment
         between September 2009 and December 2009, likely to avoid facing revocation actions
         until they could procure a surety bond or obtain accreditation. 12 Also in 2009, CMS
         developed the DME Stop Gap Plan. This two year project enhanced detection and
         prevention in seven high risk states, including Florida, and resulted in the implementation
         of claims processing edits that denied millions in claims, and the revocation or
         deactivation of hundreds of providers. Finally, on January 1, 2011, CMS implemented the

10
   The accomplishments figures presented in the bullets include all reported Strike Force cases handled by DOJ
Criminal Division attorneys and AUSAs in the respective USAOs during FY 2013.
11
   These statistics are for the period of May 7, 2007, through September 30, 2013.
12
   These are national statistics. Miami-specific statistics are not presently available.
                                                        11
         competitive bidding program for DME in nine areas, including Miami. Competitive
         bidding plays an important part in the oversight of the DME benefit. As a new payment
         methodology and process, DME competitive bidding was devised due to concerns about
         program integrity. The revisions to program administration and payment established by
         competitive bidding have resulted in program integrity changes.

         Law enforcement activity combined with various measures taken by CMS, which
         themselves were prompted by enforcement activity, appear to have contributed to even
         further declines in Medicare payments for DME in Miami over time, as indicated by the
         chart below. Payments by Medicare for DME in Miami-Dade County 13 alone hit an all-
         time high in the third-quarter of 2006, when payments exceeded $73 million, those
         payments have decreased over time, and in the first-quarter of 2013 payments were under
         $15 million




13
   The charts included in this section were prepared by HHS-OIG’s Consolidated Data Analysis Center (CDAC),
which has data available starting in the first quarter of 2006 through the first-quarter of 2013. Core-Based Statistical
Areas (CBSAs) are defined by the U.S. Census Bureau. The OIG’s CBSA definitions use the smaller metropolitan
division if it exists; the CBSA metro division or CBSA is identified on each chart. The OIG Miami-Miami Beach-
Kendall, FL CBSA includes Miami-Dade County.
                                                          12
        Miami: Medicare Payments for Home Health. The Miami Medicare Fraud Strike
        Force began to focus on home health care fraud in 2009. On June 23, 2009, the Strike
        Force indicted the first large home health care case, United States v. Zambrana et al. The
        Zambrana case led law enforcement to discover how criminals operating home health care
        companies in South Florida were cheating Medicare. To qualify for home health care,
        which involves a nurse or other skilled medical professional providing services in a
        beneficiary’s home, a beneficiary must be homebound. Medicare makes additional
        payments, known as outlier payments, to home health providers that supply services to
        beneficiaries who incur unusually large costs. Criminals in South Florida took advantage
        of the outlier payment system by falsely claiming that almost every service qualified for
        an outlier payment. During calendar year 2009, Medicare paid over $976 million to home
        health agencies in the Miami area. More than half of these home health payments --
        $558 million -- were for “outliers.” Since 2009, the Miami Strike Force has charged over
        202 defendants, and convicted 191 for their roles in falsely billing Medicare over $570
        million for home health care services.

        Following the issuance of a report by the Inspector General for HHS describing the
        scheme, 14 CMS put into effect a limit on the percentage of outlier payments that each
        home health agency can claim to address abuses of these payments. The CMS field office
        also ran a home health special project in Miami in 2009 and 2010 to identify beneficiaries that
        were not homebound. As a result of this project, 32 home health agencies had their payments
        suspended, additional automated payment edits saved $9.6 million, and $5.5 million in costs
        were avoided as a result of the payment suspensions. On July 30, 2013, CMS implemented a
        temporary enrollment moratorium on new HHAs in Miami-Dade and certain bordering
        counties to further the fight against fraud in this area.

        The coordination between the Strike Force and CMS appears to have contributed to a
        dramatic decline in payment for home health care in Miami and throughout Florida. In
        2009, claims to Medicare for home health services in Florida were $3.4 billion, and
        Medicare paid approximately $2.9 billion for home health care services. Just two years
        later, in 2011, billings to Medicare had dropped precipitously to $2.3 billion, a difference
        of $1.1 billion. Payments by Medicare had dropped to $2.4 billion, a difference of
        approximately $500 million. Payments have essentially flat-lined since that time.




14
  In December 2009, the Inspector General for HHS issued a report entitled “Aberrant Medicare Home Health
Outlier Payment Patterns in Miami-Dade County and Other Geographic Areas in 2008.” (OEI-04-08-00570).
Among other findings, the report concluded that Miami-Dade County accounted for more home health outlier
payments in 2008 than the rest of the United States combined.
                                                   13
           Detroit: Medicare Payments for Home Health. The first large home health care
           prosecution in Detroit commenced in January 2010 with the indictment of thirteen
           individuals who participated in a home health care fraud at Patient Choice Home Health
           Care and All American Home Health Care. Since that time, prosecution of home health
           care fraud in Detroit has led to the charging of 84 individuals who in aggregate submitted
           approximately $150 million in allegedly fraudulent home health care claims to Medicare.
           To date, the Detroit Strike Force has obtained the conviction of 47 of those individuals.
           The Strike Force has also coordinated with CMS to ensure that payments are cut off at the
           earliest possible time. For example, in May 2012, simultaneous with a Detroit Strike
           Force takedown of home health care fraudsters, CMS suspended payments to 18
           associated home health agencies. As shown in the following chart, Medicare payments for
           home health care services have declined steadily since 2009. 15




15
     The OIG CBSA for Detroit includes only Wayne County.
                                                      14
Nationwide: Medicare Payments for Community Mental Health Center (CMHC).
Strike Force and CMS activity targeting CMHC fraud began in 2008, accelerated in 2010
and culminated in prosecutions in Miami in 2010 and 2011, the suspension of CMHC
providers in Baton Rouge and Houston in 2011, and the prosecution of owners and
operators of CMHCs in Baton Rouge and Houston in 2012. The enforcement activity was
purposefully aimed at the CMHCs that billed Medicare the most, and were paid the most.
The actions correspond to a national decline in CMHC billing to Medicare that has
persisted to the present time as indicated in the chart below. Total payments by Medicare
to CMHCs, which peaked in 2008 at more than $70 million per quarter, are now well
under $10 million per quarter, a savings to the Trust Fund exceeding $60 million per
quarter.




                                       15
Based on these examples, Strike Force and HEAT prevention and enforcement operations appear
to have had a real and lasting impact on Medicare payments.

Examples of successful cases initiated or concluded in districts where Strike Force prosecution
teams were operational during FY 2013, as well as other successful cases are provided below.
Summaries of additional successful prosecutions and settlements follow, organized by fraud type.

Phase 1: Miami (Southern District of Florida)

   •   In June 2013 in the Southern District of Florida, the chief executive officer (CEO) of a
       state-licensed psychiatric hospital and three other hospital executives were convicted at
       trial in connection with a $67 million Medicare fraud scheme. This was the first Strike
       Force case involving charges against executives of a licensed hospital. According to trial
       evidence, the defendants and their co-conspirators paid illegal bribes and kickbacks to
       patient brokers in order to obtain Medicare beneficiaries as patients. The defendants then
       caused the submission of fraudulent Medicare claims for treatments for which these
       beneficiaries were not eligible. To cover up the fraudulent claims, employees of the
       hospital falsified patient charts and even administered unnecessary psychotropic
       medications to make it appear as if Medicare beneficiaries attending the hospital needed
       intensive mental health services. A fifth defendant, a patient recruiter, had pled guilty

                                               16
    prior to trial. On September 10, 2013, a federal district judge sentenced the CEO to 25
    years in prison for her leading role in the fraud, and two other executives to 15 years and
    12 years in prison, respectively for their conduct.

•   Between October 2012 and July 2013, 11 individuals were convicted, including one at
    trial, and thirteen were sentenced for their role in a $63 million health care fraud scheme.
    On July 17, 2013, a psychiatrist and six additional therapists were also charged in the case,
    bringing the total number of defendants charged in the case to twenty. According to court
    documents, the defendants caused the submission of fraudulent claims to Medicare and
    Medicaid through a company that operated community mental health centers in Miami,
    FL, and North Carolina. The company paid kickbacks to the owners and operators of
    assisted living facilities in order to obtain Medicare beneficiaries for purported partial
    hospitalization program (PHP) services that were unnecessary, and, in many instances, not
    provided. The scheme operated from 2004 through 2011, and billed Medicare and Florida
    Medicaid $63.4 million of which they paid $28.1 million. All of the sentenced defendants
    received prison time, ranging from 168 months to 24 months; eight individuals received
    over five years in prison for their conduct. In addition, defendants were ordered to pay
    restitution in excess of $28 million.

•   Twelve defendants have been sentenced related to a $56 million health care fraud scheme.
    Health Care Solutions Network, Inc. (HCSN), operated community mental health centers
    (CMHCs) in Florida (HCSN-FA) and North Carolina (HCSN-NC). These CMHCs
    allegedly provided partial hospitalization program (PHP) services to individuals suffering
    from mental illness. The clinical director of the PHP at HCSN-FL submitted claims to
    Medicare under her personal Medicare provider number for individual therapy she
    purportedly provided, while knowing that HCSN-FL was simultaneously billing for PHP
    services for the same patients. In addition the defendants paid illegal kickbacks to owners
    and operators of Miami-Dade County Assisted Living Facilities (ALF) in exchange for
    referring patients to the HCSN-FL PHP. Many of the ALF referral patients were
    ineligible for PHP services because they suffered from mental retardation, dementia, and
    Alzheimer's disease. To date, co-conspirators have been sentenced to a combined 70 years
    of incarceration and ordered to pay $186 million in joint and several restitution.

•   In April 2013, the owner of a mental health clinic in Miami, FL and three other
    participants in a $50 million fraud were sentenced to 30 years in prison, 25 years in prison,
    262 months in prison, and 1 year probation following their August 2012 trial convictions.
    The defendants caused the submission of over $50 million in false and fraudulent claims
    to Medicare for purported PHP services at a fraudulent clinic. The defendants paid patient
    recruiters to refer ineligible Medicare beneficiaries to the clinic for services that were
    never provided or were not reimbursable under applicable Medicare rules. In December
    2012, the former clinical director of the facility was sentenced to 100 months in prison and
    ordered to pay $5.6 million in restitution for his role in the offense.

•   From October 2012 through January 2013, nine defendants were sentenced and one
    defendant was convicted at trial in connection with a Medicare fraud scheme involving
                                             17
    over $205 million in fraudulent billing through a mental health care corporation and
    related companies. The corporation purported to operate community mental health centers
    at seven different locations throughout South Florida and Orlando, which purported to
    provide PHP services. A related company purported to provide diagnostic sleep disorder
    testing. According to court documents, the corporation paid kickbacks to the owners and
    operators of assisted living facilities, half-way houses, and patient brokers in exchange for
    delivering ineligible patients for treatment. In some cases, the patients received a portion
    of the kickbacks. Throughout the conspiracy, millions of dollars in kickbacks were paid in
    exchange for Medicare beneficiaries to attend treatment programs at the centers; the
    companies would then bill Medicare for these medically unnecessary services. To obtain
    the cash required to support the kickbacks, the co-conspirators laundered millions of
    dollars of payments from Medicare.

    All of the sentenced defendants received a prison sentence, ranging in time from 120
    months to 36 months. Additionally, defendants were ordered to pay up to $87.4 million in
    restitution.

•   In April 2013, a co-owner of Ideal Home Health, Inc., was sentenced to 14 years of
    imprisonment and ordered to pay $30 million in restitution after pleading guilty to charges
    of conspiracy to commit health care fraud and conspiracy to pay health care kickbacks.
    Ideal Home Health purportedly provided skilled nursing services and home health aide to
    Medicare beneficiaries. According to the indictment, the co-owner offered and paid
    kickbacks and bribes to recruiters and its own employees for recruiting Medicare
    beneficiaries for the purpose of billing Medicare for home health services that were not
    medically necessary and not provided.

•   In October 2012, the owner of a home health agency in Miami was sentenced to 10 years
    in prison and ordered to pay $26 million in restitution, joint and several, after pleading
    guilty to charges of conspiracy to commit health care fraud. The agency, Willsand Home
    Health Services, Inc. (Willsand), purportedly provided home health care and physical
    therapy services to Medicare beneficiaries. According to court documents, the owner paid
    kickbacks to patient recruiters for enrolling Medicare beneficiaries to be placed at
    Willsand and signed false documents stating that they received home health care services.
    He also paid kickbacks to physicians in return for signing false prescriptions for these
    patients. From approximately January 2006 through November 2009, Willsand submitted
    more than $40 million in claims to Medicare for home health services it purportedly
    provided to beneficiaries when, in fact, the patients were not homebound and/or had no
    medical necessity for the services.

•   In February 2013, the co-owner and operator of three Miami, Florida-based pharmacies
    was sentenced to 168 months in prison, ordered to forfeit over $23 million, and ordered to
    pay a $100,000 fine on his December 2012 guilty plea to conspiracy to pay health care
    kickbacks and conspiracy to commit health care fraud. According to court documents,
    from 2007 to September 2012, the defendant paid illegal kickbacks to guarantee a stream


                                             18
       of beneficiary information, which was used to submit false and fraudulent claims by the
       pharmacies to Medicare and Medicaid.

Phase 2: Los Angeles (Central District of California)

   •   On October 4, 2012, the U.S. District Court for the Central District of California unsealed
       an indictment charging four defendants with conspiracy to commit health care fraud,
       health care fraud, and conspiracy to obstruct a federal auditor. The charges stemmed from
       a Medicare fraud scheme regarding purported ambulance transportation services involving
       Alpha Ambulance. According to the indictment, the defendants conspired to defraud
       Medicare by providing ambulance services to ineligible Medicare beneficiaries. From
       June 2008 to July 2012, Alpha submitted Medicare claims totaling approximately
       $49.3 million for purported ambulance transportation and related services, and Medicare
       paid Alpha approximately $13.3 million on those claims. In addition, the indictment
       alleges that the defendants obstructed a Medicare audit of Alpha’s false and fraudulent
       claims by altering patient files and records that otherwise showed ambulance
       transportation services provided by Alpha were not medically necessary, and therefore not
       reimbursable by Medicare.

   •   A former officer of Fendih Medical Supply, Inc., a medical supply company, was
       sentenced in September 2013 to serve 51 months in prison for his role in a fraud scheme
       that resulted in $1.5 million in fraudulent claims to Medicare. In addition, a physician
       was sentenced to 27 months in prison for his role in the scheme. In April 2013, a jury in
       Los Angeles federal court found the two defendants, as well as another health care
       professional, guilty of conspiracy to pay and receive kickbacks and of conspiracy to
       commit health care fraud. Trial evidence showed that the owner of the DME company
       fraudulently billed Medicare for DME that was either never provided to its Medicare
       beneficiaries or was not medically necessary. The defendant physician provided
       medically unnecessary power wheelchair prescriptions in exchange for cash kickbacks.
       This fraud scheme caused the submission of approximately $1.5 million in false and
       fraudulent claims to Medicare, of which about $1 million was paid.

   •   In July 2013 in the Central District of California, the owner and operator of a DME supply
       company was convicted in connection with an $11 million Medicare fraud scheme. The
       evidence at trial revealed that the defendant submitted false and fraudulent prescriptions
       for DME by using street-level patient recruiters to find senior citizens with Medicare and
       Medi-Cal benefits at swap meets and other public places. The recruiters, who were paid
       about $600 per beneficiary, would convince the seniors to accept power wheelchairs and
       other DME that they did not need.

Phase 3: Detroit (Eastern District of Michigan)

   •   In August 2013, a Michigan oncologist/hematologist was charged with health care fraud in
       wide-ranging and dangerous fraudulent billing scheme. According to the original
       complaint and subsequent indictment, the doctor alleged provided chemotherapy and other
                                               19
       medical treatments to patients who did not need the treatments, including patients who
       were in remission and did not need chemotherapy, and directed his staff to falsify medical
       documents to justify the treatments. The allegations raised serious health concerns,
       particularly given the physical effect of chemotherapy and some of the other treatments
       the doctor administered to his patients. At the time of arrest, the doctor was treating 1,200
       patients. The Criminal Division’s Fraud Section, working with the U.S. Attorney’s Office
       for the Eastern District of Michigan, undertook a massive and aggressive effort to make
       sure that victim witnesses received all necessary support in finding new medical care.
       Between August 2010 and August 2013, the doctor’s business, billed Medicare
       $225 million and was paid $91 million. In addition, private insurer Blue Cross/Blue
       Shield also paid the doctor $78 million on claims submitted by the practice.

   •   In May 2013, two health center owners were sentenced on their October 2012 guilty pleas
       in connection with an over $13 million Medicare fraud scheme. One owner was sentenced
       to 100 months in prison and $5.4 million in restitution, while the other was sentenced to
       12 months and one day in prison, and over $500,000 in restitution. The two defendants
       were also ordered to forfeit $40,717. According to plea documents, the two defendants
       submitted claims through their health clinics for infusion therapy treatments which were
       never rendered.

   •   From May 2013 to July 2013, 2 defendants were sentenced and or pled guilty for their
       involvement in a $13.8 million home health care Medicare fraud scheme. According to
       court documents, from June 2009 through September 2011 four companies conspired to
       defraud Medicare through falsifying documents and submitting fraudulent claims. The
       two sentenced defendants, the owner/administrator of a home health care company and a
       physical therapy assistant, were given 30 month and 60 month prison terms, and ordered
       to pay $1.7 million and $1.3 million in restitution, respectively.

   •   Between December 2012 and April 2013, four individuals— two owners, a marketer and a
       registered nurse pled guilty for their involvement in a $24.7 million home health care
       fraud scheme. According to court documents, the conspirators attempted to defraud
       Medicare by submitting claims for home health services that were medically unnecessary
       and/or not provided. The owners oversaw and ran the schemes at multiple home health
       agencies. The marketer sold the Medicare information of hundreds of Medicare
       beneficiaries, and the registered nurse fabricated notes and other documentation to give
       Medicare the impression that she had provided necessary home health care services. In
       reality, the home health care billed was not needed and/or not provided.

Phase 4: Houston (Southern District of Texas)

   •   In June 2013, the owner of a DME supply company was sentenced to 97 months in prison
       and ordered to pay $2.5 million in restitution as the result of a December 2012 conviction
       in connection with a $6.7 million Medicare fraud scheme. According to court documents
       and trial evidence, the defendant used his company’s Medicare provider number to submit


                                                20
       claims to Medicare for DME that was medically unnecessary, and in some cases, never
       provided.

   •   In March 2013, a physician was sentenced to 63 months in prison and ordered to pay over
       $2.9 million in restitution on his December 2012 conviction of conspiracy to commit
       health care fraud and several counts of false statements relating to heath care matters. Trial
       evidence showed that the defendant signed plans of care for Medicare beneficiaries who
       were not under his care and about whose conditions he had no knowledge. Overall,
       approximately $17.3 million was paid by Medicare for fraudulent home health care
       services.

   •   In March 2013, the owner/operator of an ambulance transport company was convicted on
       conspiracy to commit health care fraud and health care fraud, in connection with a
       $1.7 million Medicare fraud scheme. Trial evidence showed that the defendant and others
       conspired to enrich themselves by falsifying patient records in order to bill Medicare for
       ambulance services that were medically unnecessary and not provided.

Phase 5: Brooklyn (Eastern District of New York)

   •   In October 2012, nine defendants, including the owner and operator of a fraudulent
       physical therapy clinic in Brooklyn and its medical director, were charged with
       participating in a $13 million Medicare fraud scheme. The indictment alleged that the
       defendants operated a physical therapy clinic in Brooklyn, recruited patients to visit the
       clinic through the payment of kickbacks and bribes, and billed Medicare for services that
       were unnecessary and often never provided at all. Between the time of indictment and
       September 30, 2013, four defendants had pled guilty to participating in the scheme.

   •   Between October 2012 and July 2013, two physicians and three owners and operators of a
       fraudulent “medical” clinic pled guilty in connection with an over $12.6 million Medicare
       fraud scheme. According to plea documents, these individuals in fact provided a variety of
       spa services, such as massages, facials, lunches, and dancing classes to Medicare
       beneficiaries in an effort to induce those beneficiaries into allowing their Medicare
       numbers to be billed for medical services that were never provided and were not medically
       necessary.

   •   In December 2012, a board-certified colorectal surgeon was sentenced to 30 months in
       prison, ordered to pay over $1 million in restitution and forfeit over $1 million on his June
       2012 jury conviction on health care fraud and false statements relating to health care
       matters in connection with a $22.6 million Medicare scheme. Trial evidence
       demonstrated that from January 2008 to January 2010, the doctor defrauded Medicare and
       private insurance companies by billing for surgeries, specifically hemorrhoidectomies, and
       related medical services that he never provided.




                                                21
Phase 6: South Louisiana (Middle and Eastern Districts of Louisiana)

   •   In May 2013, five individuals were indicted in the Eastern District of Louisiana for their
       role in a home health scheme that billed Medicare $51 million. The indictment charges an
       owner, two doctors and two recruiters with conspiracy to commit health care fraud,
       conspiracy to pay or receive health care kickbacks and health care fraud. The conduct
       involves billings by three, related home health agencies in Louisiana which obtained
       patients through paying patient recruiters and billed by services that were not medically
       necessary and, sometimes, not provided.

   •   In October 2012, in the Middle District of Louisiana, an executive of a Mississippi
       corporation that purportedly provided durable medical equipment to Medicare
       beneficiaries was sentenced to 72 months in prison and ordered to pay $3 million in
       restitution on his October 2011 guilty plea in connection with a $9.1 million Medicare
       fraud scheme. According to court documents, the defendant admitted that from October
       2004 through October 2010, he and others conspired to defraud Medicare through the
       submission of false and fraudulent claims, and by concealing the submission of those
       claims and the receipt and transfer of the fraud proceeds. The proceeds were diverted to
       their own personal use or benefit of others.

   •   In March 2013, two New Orleans residents, the owner of a home health care company and
       the director of nursing for the same company, were convicted after a six day trial for their
       involvement in a scheme that fraudulently billed Medicare $17.1 million between 2005
       and 2011. According to trial evidence, the defendants paid recruiters to obtain Medicare
       beneficiary information. The owner paid medical doctors to sign referrals and
       certifications for home health services that were not medically necessary, and the nurse
       falsified and directed others to falsify certification evaluations and other forms to make it
       appear that the home health services were medically necessary. The owner was sentenced
       to 180 months, and the director of nursing was sentenced to 60 months.

Phase 7: Tampa (Middle District of Florida)

       Two defendants were indicted on May 7, 2013 on a charge of conspiracy to commit
       money laundering involving the proceeds of a health care fraud scheme. According to
       documents filed in the case, the defendants and others conspired to engage in financial and
       monetary transactions of health care fraud proceeds from Renew Therapy Center of Port
       St. Lucie LLC (Renew Therapy), a comprehensive outpatient rehabilitation facility. From
       November 2007 through August 2009, Renew Therapy submitted approximately
       $10.5 million in fraudulent claims for reimbursement to Medicare for therapy services that
       were not legitimately prescribed and not legitimately provided to Medicare
       beneficiaries. As a result of those fraudulent claims, Medicare deposited approximately
       $6.2 million into a Renew Therapy bank account, approximately $1,847,222 of which was
       moved through bank accounts and business entities that the defendants controlled. The
       defendants pled guilty on Oct. 23, 2013 and Oct. 24, 2013.


                                                22
Phase 8: Dallas (Northern District of Texas)

    •   In February 2013, the husband and wife owners/operators of a home health care agency
        were each sentenced to 37 months in prison and ordered to pay over $850,000 on their
        December 2011 guilty pleas to conspiracy to commit health care fraud. According to court
        documents, the couple along with a second couple owned a home health care agency that
        provided care to Medicare and Medicaid beneficiaries. The couple admitted to conspiring
        with others to defraud Medicare by submitting fraudulent claims home health services on
        behalf of patients who were ineligible for the services. They also falsified documentation
        indicating that patients were home bound and eligible for home health services, when in
        fact they were ineligible, and paid kickbacks to a patient recruiter to recruit Medicare
        patients so that the agency could increase its Medicare billing and revenue.

•       In October 2012, the owner and operator of a home health services company pled guilty to
        conspiracy to commit health care fraud, in connection with a home health care scheme that
        billed over $350 million to Medicare and $24 million to Texas Medicaid. According to the
        court documents, the defendant admitted to directing others to recruit Medicare
        beneficiaries from Dallas, Texas neighborhoods for home health services they did not
        need and for which they did not qualify.

Phase 9: Chicago (Northern District of Illinois)

•       In September 2013, the owner of numerous outpatient surgery centers and other
        healthcare-related businesses in Illinois and Indiana, pleaded guilty in the U.S. District
        Court for the Northern District of Illinois to honest services fraud and tax fraud. The
        charges stem from a healthcare bribery scheme that included the defendant paying cash to
        physicians in exchange for the physician referring his patients to or conducting surgeries
        at the defendant’s outpatient surgery centers, rather than at a hospital or competitor
        surgery center. The indictment, returned by the grand jury in June 2012, alleges that the
        defendant paid hundreds of thousands of dollars to different physicians, in exchange for
        the referrals the physicians made to the defendant’s facilities, and that the bribery
        arrangement was not disclosed to the patients, thereby depriving patients of the right to the
        honest services of their physician. The indictment further alleged that, to obtain cash to
        pay bribes to doctors, the defendant engaged in a tax fraud scheme with another individual
        that consisted of the defendant giving Individual A over $2 million in checks written from
        defendant’s healthcare businesses, which were deducted as business expenses, in
        exchange for which Individual A gave the defendant cash in an amount approximately
        equal to about 70% of the value of the checks.

•       On October 3, 2012, a grand jury returned an indictment charging a Chicago-area
        dermatologist, with defrauding Medicare and private health insurance companies by
        submitting false claims for hundreds of patients resulting in millions of dollars of losses.
        The doctor falsely diagnosed patients with actinic keratosis, or sun-induced skin lesions
        that have the potential to become cancerous, and then billed Medicare, Blue Cross Blue
        Shield of Illinois, Aetna, and Humana for treatments that were ineffective and falsely
                                                  23
        documented. Between 2003 and 2010, the doctor allegedly falsely documented patients’
        charts to support medically unnecessary, cosmetic treatments that he ordered. In some
        instances, he falsely documented the removal of more than 1,000 lesions from patients
        over several years of treatment, according to the indictment. Trial is scheduled for
        February 2014.

•       In September 2013, the owner of numerous outpatient surgery centers and other
        healthcare-related businesses in Illinois and Indiana, pleaded guilty in the U.S. District
        Court for the Northern District of Illinois to honest services fraud and tax fraud. The
        charges stem from a healthcare bribery scheme that included the defendant paying
        physicians cash in exchange for the physician referring his patients to or conducting
        surgeries at the defendant’s outpatient surgery centers, rather than at a hospital or
        competitor surgery center. The indictment, returned by the grand jury in June 2012,
        alleges that the defendant paid hundreds of thousands of dollars to different physicians, in
        exchange for the referrals the physicians made to the defendant’s facilities, and that the
        bribery arrangement was not disclosed to the patients, thereby depriving patients of the
        right to the honest services of their physician. The indictment further alleged that, to
        obtain cash to pay bribes to doctors, the defendant engaged in a tax fraud scheme with
        another individual that consisted of the defendant giving Individual A over $2 million in
        checks written from defendant’s healthcare businesses, which were deducted as business
        expenses, in exchange for which Individual A gave the defendant cash in an amount
        approximately equal to about 70% of the value of the checks.

        This case is one of the first in which a healthcare bribery scheme has been charged as
        honest services fraud under 18 U.S.C. §§ 1341 and 1346, premised upon the defendant (as
        a third-party) causing a breach of the physician’s duty of care and disclosure to a
        patient. Also representing a departure from ordinary charging theories in healthcare fraud
        cases, the indictment included Travel Act allegations, see 18 U.S.C. § 1951, premised on
        the defendant causing the travel of patients across state lines and the use of the interstate
        mail with intent to facilitate commercial bribery in violation of Illinois law. The
        defendant’s sentencing is scheduled for January 2014.

    •   In 2013, five of ten defendants charged in two separate indictments with conspiracy to
        violate the Medicare anti-kickback statute pled guilty, including a Doctor who admitted to
        receiving approximately $324,000 in cash kickbacks in exchange for Medicare patients
        referrals to Grand Home Health Care, Inc. In all, ten individuals, including the owners of
        two home health care agencies and three physicians, were charged in two indictments with
        conspiracy to violate the Medicare anti-kickback statute. The charges stemmed from
        kickback schemes in which the owners of the two home health care agencies paid cash
        kickbacks to physicians and other health care professionals in exchange for the referral of
        Medicare patients. According to the indictments, from 2005 through 2011, the owners of
        Grand Home Health Care, Inc. paid over $1.1 million in cash kickbacks to approximately
        twenty doctors, nurses, social workers, and other health care professionals in exchange for
        the referral of Medicare patients to Grand. During this period, Medicare paid Grand more
        than approximately $8.3 million on claims for patients illegally referred to Grand in

                                                 24
       exchange for kickbacks. During this same time period, the owner of Romyst Home
       Health, Inc. paid approximately $500,000 in cash kickbacks to several doctors in exchange
       for the referral of Medicare patients to Romyst. Medicare paid Romyst more than
       approximately $11.7 million on claims for patients illegally referred to Romyst in
       exchange for kickbacks.

In addition to the Medicare Strike Force matters listed above, our respective Departments
successfully pursued the following matters, which are grouped by subject below:

Pharmaceutical and Device Manufacturers and Related Individuals

   •   In May 2012, Abbott Laboratories pleaded guilty and in October 2012 was sentenced to
       pay $1.5 billion (including a criminal fine and forfeiture totaling $700 million and federal
       and state civil settlements totaling $800 million) to resolve criminal and civil liability
       arising from the company’s off-label promotion of the prescription drug, Depakote. In
       particular, Abbott pleaded guilty to misbranding Depakote by promoting the drug to
       control agitation and aggression in elderly dementia patients and to treat schizophrenia
       when neither of these uses was FDA approved. In an agreed statement of facts filed in the
       criminal action, Abbott admitted that from 1998 through 2006, the company maintained a
       specialized sales force trained to market Depakote in nursing homes for the control of
       agitation and aggression in elderly dementia patients, despite the absence of credible
       scientific evidence that Depakote was safe and effective for that use. Moreover, this
       settlement resolved FCA allegations that Abbott misled doctors about the safety and
       efficacy of Depakote for off-label indications, encouraged physicians to circumvent
       regulations designed to prevent the use of unnecessary drugs in nursing homes, and paid
       kickbacks to doctors and long-term care pharmacies to prescribe and/or recommend
       Depakote. As part of this resolution, Abbott also is now subject to court-supervised
       probation and reporting obligations for Abbott’s CEO and Board of Directors.

   •   In December 2012, Amgen Inc. paid $762 million to resolve criminal and civil FCA
       liability arising from the improper marketing of certain drugs and biologics. The company
       pleaded guilty to a misdemeanor and paid $150 million combined criminal fine and
       forfeiture for misbranding the anemia drug Aranesp. In addition, the company paid
       $612 million to resolve FCA allegations that Amgen (1) promoted Aranesp and two other
       drugs that it manufactured, Enbrel and Neulasta, for off-label uses and doses that were not
       approved by the FDA and not properly reimbursable by federal insurance programs; (2)
       offered illegal kickbacks to a wide range of entities in an effort to influence health care
       providers to select its products for use, regardless of whether they were reimbursable by
       federal health care programs or were medically necessary; and (3) engaged in false price
       reporting practices involving several of its drugs. As part of the criminal and civil
       resolutions, Amgen also executed a Corporate Integrity Agreement (CIA) with HHS-OIG.

   •   In May 2013, Ranbaxy Laboratories Limited (Ranbaxy) and its subsidiary, Ranbaxy
       USA, Inc., paid a total of $500 million to resolve criminal and civil liability relating to
       the manufacture and distribution of certain adulterated drugs made at two of Ranbaxy’s

                                                25
    manufacturing facilities in India. The settlement included $350 million to resolve FCA
    allegations that Ranbaxy manufactured, distributed, and sold drugs whose strength, purity,
    or quality differed from the drug’s specifications or that were not manufactured according
    to the FDA-approved formulation. In addition, Ranbaxy USA pleaded guilty to three
    felony Food, Drug, and Cosmetic Act (FDCA) counts, and four felony counts of
    knowingly making material false statements to the FDA. Under the plea agreement, the
    company will pay $150 million in fines and forfeitures.

•   In July 2013, Wyeth Pharmaceuticals Inc. pleaded guilty and paid a total of $490.9 million
    to resolve its criminal and civil liability arising from the unlawful marketing of the
    prescription drug Rapamune for uses not approved as safe and effective by the FDA. In
    particular, Wyeth pleaded guilty to a criminal information charging it with a misbranding
    violation under the FDCA. The resolution included a criminal fine and forfeiture totaling
    $233.5 million. In addition, Wyeth paid $257.4 million to resolve FCA allegations that it
    promoted Rapamune for unapproved uses, some of which were not medically accepted
    indications and, therefore, were not covered by Medicare, Medicaid and other federal
    health care programs. These unapproved uses included non-renal transplants, conversion
    use (switching a patient from another immunosuppressant to Rapamune) and using
    Rapamune in combination with other immunosuppressive agents not listed on the label.

•   In December 2012, Sanofi-Aventis U.S., Inc. and Sanofi-Aventis U.S. LLC, subsidiaries
    of international drug manufacturer Sanofi (collectively, Sanofi), agreed to pay
    $109 million to resolve FCA allegations that they provided physicians with free units of
    Hyalgan, a knee injection, to induce them to purchase and prescribe the product in
    violation of the Anti-Kickback Statute. The settlement also resolved allegations that
    Sanofi submitted false average sales price (ASP) reports for Hyalgan that failed to account
    for the free units distributed contingent on Hyalgan purchases. The Government alleged
    that the false ASP reports, which were used to set reimbursement rates, caused
    Government programs to pay inflated amounts for Hyalgan.

•   In October 2012, Boehringer Ingelheim Pharmaceuticals Inc. paid $95 million to resolve
    FCA allegations relating to the improper promotion of the stroke-prevention drug
    Aggrenox, the chronic obstructive pulmonary disease (COPD) drugs Atrovent and
    Combivent, and the hypertension drug Micardis. Boehreinger promoted each of the drugs
    for uses that were not medically accepted indications and were not covered by federal
    health care programs. Specifically, the settlement resolves allegations that Boehreinger
    promoted Aggrenox for certain cardiovascular events such as myocardial infarction and
    peripheral vascular disease; that Combivent was marketed for use prior to another
    bronchodilator in treating COPD; and that Micardis was marketed for treatment of early
    diabetic kidney disease. As part of the resolution, Boehreinger entered into a CIA with
    HHS/OIG.

•   In December 2012, Wyeth Pharmaceuticals Inc. (acquired by Pfizer in October 2009)
    agreed to a $55 million civil disgorgement settlement to resolve civil FDCA allegations
    that it illegally introduced and caused the introduction into interstate commerce of a
                                            26
    misbranded drug, Protonix, between February 2000 and June 2001. Protonix is a proton
    pump inhibitor (“PPI”) that was used by physicians to treat various forms of gastro-
    esophageal reflux disease (“GERD”). Wyeth sought and obtained approval from the FDA
    to promote Protonix for short-term treatment of erosive esophagitis–a condition associated
    with GERD that can only be diagnosed with an invasive endoscopy. However, Wyeth
    allegedly promoted Protonix for all forms of GERD, including symptomatic GERD, which
    is far more common and can be diagnosed without an endoscopy.

•   In May 2013, C.R. Bard, Inc. paid $48.26 million to resolve FCA allegations that it paid
    illegal kickbacks in the form of grants and rebates to doctors and/or hospitals to solicit
    business from those providers in violation of the Anti-kickback Statute. The hospitals
    purchased Bard’s brachytherapy seeds, the doctors surgically implanted the seeds in
    prostate cancer patients, and the hospitals then falsely billed Medicare for those seeds in
    claims the government alleged were rendered false by Bard’s illegal kickback conduct. As
    part of the resolution, Bard also paid $2.2 million to pursuant to a Non-Prosecution
    Agreement to resolve a related criminal investigation.

•   In December 2012, Healthpoint Ltd. agreed to pay $48 million to resolve allegations that
    it caused false claims to be submitted to Medicare and Medicaid for an unapproved drug,
    Xenaderm, which was ineligible for reimbursement by those programs. The complaint
    alleged that Healthpoint’s business strategy was to market new prescription drug products
    modeled after drug products that were on the market before October 1962, in order to
    avoid the time, effort, and expense of obtaining FDA approval. The complaint further
    alleged that at no time prior to its introduction of Xenaderm into the market did
    Healthpoint complete any double-blind placebo-controlled clinical studies that established
    the safety and effectiveness of Xenaderm. Notwithstanding the lack of FDA approval, the
    government alleges, Healthpoint actively promoted Xenaderm as a prescription drug that,
    unlike non-prescription skin ointments such as Vaseline, was “Medicaid reimbursed” and
    thus cost nursing homes nothing to administer to Medicaid patients.

•   In March 2013, Par Pharmaceutical Companies Inc. (Par) pleaded guilty and paid a total
    of $45 million to resolve its criminal and civil FCA liability arising from the company’s
    promotion of its prescription drug Megace ES for uses not approved as safe and effective
    by the FDA and not covered by federal health care programs. In particular, Par pleaded
    guilty to a criminal misdemeanor for misbranding Megace® ES and paid a fine and
    forfeiture totaling $22.5 million. Moreover, Par paid an additional $22.5 million to
    resolve civil allegations that, by promoting the sale and use of Megace® ES for uses that
    were not FDA-approved and not covered by federal health care programs, Par caused false
    claims to be submitted to these programs. The government further alleged that Par
    deliberately and improperly targeted sales to elderly nursing home residents with weight
    loss, whether or not such patients suffered from AIDS, and launched a long-term care
    sales force to market to this population. As part of the criminal and civil resolution, Par
    entered into a CIA with HHS-OIG.



                                            27
•   In May 2013, ISTA Pharmaceuticals, Inc. pleaded guilty and paid a total of $33.5 million
    to resolve its criminal and civil FCA liability arising from the company’s promotion of its
    prescription drug, Xibrom. In particular, ISTA pled guilty to conspiring to introduce a
    misbranded drug into interstate commerce and conspiracy to pay illegal remuneration in
    violation of the federal Anti-Kickback Statute. Under the terms of the plea agreement,
    ISTA paid $18.5 million, including a criminal fine of $16,125,000 for the conspiracy to
    introduce misbranded Xibrom into interstate commerce, $500,000 for the conspiracy to
    violate the Anti-Kickback Statute, and $1,850,000 in asset forfeiture associated with the
    misbranding charge. In addition, ISTA also paid $15 million to resolve FCA allegations
    that ISTA promoted the sale and use of Xibrom for certain uses that were not FDA-
    approved and not covered by the federal health care programs, including prevention and
    treatment of cystoid macular edema, treatment of pain and inflammation associated with
    non-cataract eye surgery, and treatment of glaucoma.

•   In April 2013, Amgen Inc. paid $24.9 million to settle FCA allegations that it violated the
    Anti-Kickback Statute. In particular, the government alleged that Amgen paid kickbacks
    to long-term care pharmacy providers Omnicare Inc., PharMerica Corporation and
    Kindred Healthcare Inc. in return for implementing “therapeutic interchange” programs
    that were designed to switch Medicare and Medicaid beneficiaries from a competitor drug
    to Aranesp. The government alleged that the kickbacks took the form of performance-
    based rebates that were tied to market-share or volume thresholds. The government further
    alleged that, as part of the therapeutic interchange program, Amgen distributed materials
    to consultant pharmacists and nursing home staff encouraging the use of Aranesp for
    patients who did not have anemia associated with chronic renal failure.

•   In July 2013, a bio-pharmaceutical company based in Ventura County, California paid
    $14.99 million to settle FCA allegations that it knowingly paid unlawful remuneration to
    oncology practice groups and doctors in order to induce them to prescribe a cancer-
    treatment drug to beneficiaries of federally funded health care programs, in violation of
    the Anti-Kickback Statute. The remuneration included directing data purchase agreements
    for prescription information to the oncology practice groups.

•   In December 2012, Victory Pharma, Inc. (Victory) paid $11.4 million to resolve federal
    civil and criminal liability arising from its marketing of the pharmaceutical products
    Naprelan, Xodol, Fexmid, and Dolgic. Under the agreement, Victory entered into a
    deferred prosecution agreement and paid a criminal forfeiture of $1.4 million to resolve
    federal Ant-Kickback Statute allegations, and paid $9.9 million to resolve federal FCA
    allegations. The settlement resolves allegations that Victory engaged in a scheme to
    promote its drugs by paying kickbacks to doctors to induce them to write prescriptions for
    Victory’s products, including tickets to sporting events; concerts and plays; spa, golf and
    ski outings; dinners at expensive restaurants. The settlement also resolves allegations that
    Victory improperly used paid preceptorships to induce doctors to prescribe Victory’s
    products.



                                             28
   •   In July 2013, Mallinckrodt, Inc., a pharmaceutical manufacturer, agreed to pay
       $3.5 million to settle allegations that it made improper payments to physicians and, as a
       result, caused the submission of false claims to Medicare and Medicaid for various drugs.

Hospitals

   •   Fifty-five hospitals located throughout 21 states paid a total of over $34 million to resolve
       FCA liability related to claims for kyphoplasty, a minimally-invasive procedure used to
       treat spinal compression fractures. In many cases, kyphoplasty can be performed safely
       and effectively as an outpatient procedure without any need for a more costly inpatient
       hospital admission. The settlements resolve allegations that the hospitals knowingly billed
       Medicare for medically unnecessary admissions for kyphoplasty procedures in order to
       increase their profits and circumvent lower outpatient reimbursement rates.

   •   In August 2013, Shands Teaching Hospital & Clinics Inc., Shands Jacksonville Medical
       Center Inc. and Shands Jacksonville Healthcare Inc. (collectively, Shands Healthcare),
       paid the government and the state of Florida a total of $26 million to settle FCA
       allegations that six of its health care facilities submitted false claims to Medicare,
       Medicaid and other federal health care programs for inpatient procedures that should have
       been billed as outpatient services.

   •   In April 2013, Intermountain Health Care Inc. paid $25.5 million to settle claims that it
       violated the Stark Statute and the FCA by engaging in improper financial relationships
       with referring physicians. These improper financial relationships included employment
       agreements under which the physicians received bonuses that improperly took into
       account the value of some of their patient referrals and office leases and compensation
       arrangements between Intermountain and referring physicians that violated other
       requirements of the Stark Statute. These issues were disclosed to the government by
       Intermountain.

   •   In December 2012, American Sleep Medicine, LLC (ASM), agreed to pay $15.3 million
       to resolve allegations that it violated the FCA. ASM operates 19 sleep diagnostic centers
       throughout the United States. ASM allegedly submitted claims to Medicare and other
       federal health care programs for sleep diagnostic services that were not eligible for
       payment because the diagnostic tests were performed by individuals who lacked the
       required license, certification, or credentials. Between January 2004 and December 2011,
       ASM submitted nearly 20,000 claims for reimbursement. In addition to the monetary
       agreement, ASM entered into a CIA with HHS/OIG.

   •   In July 2013, Sound Inpatient Physicians Inc., a nationwide hospitalist firm, paid $14.5 million
       to settle allegations that it overbilled Medicare and other federal health care programs. The
       agreement resolves allegations that the firm upcoded Evaluation & Management services
       rendered to inpatients. The parent company bills on behalf of the providers for the professional
       services, while the physicians are being paid a flat salary.

                                                 29
•   In May 2013, Adventist Health System/West, dba Adventist Health, and its affiliated
    hospital, White Memorial Medical Center, paid $14.1 million to settle FCA allegations
    that Adventist Health violated the Anti-Kickback Statute and Stark Statute by improperly
    compensating physicians who referred patients to the White Memorial facility by
    transferring assets, including medical and non-medical supplies and inventory, at less than
    fair market value.

•   In January 2013, Cooper University Hospital agreed to pay $12.5 million to settle
    allegations that it created a fraudulent advisory board in an effort to induce referrals to its
    cardiology department. The hospital recruited local outside primary care physicians and
    non-invasive cardiologists to serve on a sham advisory board. The physicians were paid
    approximately $18,000 a year to attend four meetings. However, these meetings were
    largely marketing affairs and there was little evidence of any services being provided by
    the physician members. In addition to the monetary settlement, the hospital enacted and
    agreed to maintain a number of corporate reforms designed to enhance accountability,
    training, and other aspects of its compliance operations.

•   In June 2013, the Chief Financial Officer of a hospital in California was sentenced to 8
    months of home confinement and ordered to pay $10.6 million in restitution after pleading
    guilty to charges of conspiracy to pay kickbacks for patient referrals and other related
    crimes. According to court documents, the CFO oversaw the issuance of checks to
    companies owned by co-conspirators for the referral of recruited beneficiaries admitted to
    the hospital. The hospital executed sham “consultant” contracts with these companies to
    conceal the kickback payments. The hospital then billed Medicare and Medi-Cal for
    hospital stays and related services provided to the recruited beneficiaries, including
    admissions that were medically unnecessary. Medicare and Medicaid paid the hospital
    more than $10.5 million in reimbursement for these false claims.

•   In November 2012, Morton Plant Health Care, Inc. and its affiliated hospitals, all part of
    the BayCare Health System, paid the United States $10.1 million to settle FCA allegations
    of improperly billing for certain interventional cardiac and vascular procedures as
    inpatient care when those services should have been billed as less costly outpatient care or
    as observational status.

•   In November 2012, Freeman Health System paid $9.3 million to resolve FCA allegations
    that it knowingly provided incentive pay to physicians in a manner that violated the Stark
    Law. In particular, the government alleged that Freeman provided incentive pay to 70
    physicians employed at clinics operated by the health system based on the revenue
    generated by the physicians’ referrals for certain diagnostic testing and other services
    performed at the clinic.

•   In July 2013, Dubuis Health System and Southern Crescent Hospital for Specialty Care,
    Inc. (Southern Crescent) paid $8 million to settle allegations that they knowingly kept
    patients hospitalized beyond the time considered to be medically necessary in order to

                                               30
    increase their Medicare reimbursement and to maintain Southern Crescent’s classification
    as a long-term acute care facility.

•   In July 2013, Beth Israel Deaconess Medical Center (BIDMC) paid $5.3 million to settle
    civil allegations that it violated the FCA by improperly admitting patients and then billing
    for inpatient stays with respect to services that should have been provided in an outpatient
    setting, resulting in overpayment by Medicare for unnecessary hospital stays.

•   In February 2013, St. Joseph’s Medical Center paid $4.9 million to resolve the hospital’s
    civil liability to the United States under the FCA for admitting patients to the hospital
    unnecessarily from 2007 to 2009. More specifically, the hospital voluntarily disclosed
    that it admitted patients for short stays (typically one or two days) that were not warranted
    by the patient's medical condition, and thereby generated a larger reimbursement than was
    medically necessary for each patient.

•   In April 2013, St. Vincent Healthcare and Holy Rosary Healthcare (collectively, the
    Hospitals) agreed to pay $3.9 million to resolve allegations under the Stark law. These
    Montana Hospitals self-disclosed that, between July 2003 and December 2010, they paid
    certain employed physicians incentive compensation that was based, in part, on the
    volume or value of referrals made to the Hospitals. More specifically, the physician
    formula for compensation included inappropriate revenue related to such designated
    health services as EKG and EMG services at the Hospitals. In addition, the Hospitals
    identified numerous arrangements or contracts it held with independent physicians or
    physician groups that the Government contended violated the Stark Law. These
    arrangements or contracts included violations relative to expired or unsigned contracts,
    unwritten agreements, untimely payment of rent under lease terms, and potential
    deviations from fair market value rental charges.

•   In January 2013, EMH Regional Medical Center (EMH) paid $3.8 million and North Ohio
    Heart Center Inc. (NOHC) paid $541,870 to resolve allegations that they submitted false
    claims for medically unnecessary cardiac procedures. In particular, the government
    alleged that between 2001 and 2006, EMH and NOHC performed angioplasty and stent
    placement procedures on patients who had heart disease but whose blood vessels were not
    sufficiently occluded to require the particular procedures at issue.

•   In July 2013, University Medical Center (UMC), doing business as University of
    Louisville Hospital, paid $2.8 million to settle FCA allegations that it may have violated
    federal law concerning the relationships it had with certain health care providers.
    University of Louisville Hospital operates a separate fast track unit within the emergency
    department to address non-urgent care. This in-house immediate care center, FirstCare, is
    staffed by UMC-employed physician assistants (PAs) and nurse practitioners (NPs) under
    the direction of the Department of Emergency Medicine physicians – who in turn operate
    as University Emergency Medicine Associates (UEMA). From January 1, 2006 through
    December 31, 2010, the salaries and benefits paid to FirstCare PAs and NPs were claimed
    on UMC cost reports filed with Medicare. At the same time, UEMA physicians generally
                                             31
       treated the FirstCare PAs and NPs as their own employees including, to various degrees,
       billing and collecting from Medicare for their professional services. The United States
       contended that UMC provided an improper benefit to UEMA in violation of the FCA and
       other federal law.

   •   In October 2012, Wyoming Medical Center (WMC) paid $2.7 million arising from the
       alleged submission of fraudulent claims to Medicare. More specifically, the settlement
       resolved allegations that WMC submitted higher-paying inpatient reimbursement claims
       to Medicare for (a) procedures that had been performed in an outpatient setting, (b)
       hospital stays where there was no record of a physician ordering inpatient-level care, and
       (c) services provided to patients who did not meet requirements for inpatient admission.
       The United States also settled allegations that WMC prolonged inpatient hospital
       admissions without medical necessity in order to qualify patients for Medicare-covered,
       long-term care at a skilled nursing facility. In addition to the settlement agreement, WMC
       agreed to enter into a 5-year CIA with HHS-OIG.

Physicians

   •   In February 2013, an individual and his two companies (identified as Wasserman), paid
       $26.1 million to resolve FCA allegations that he and his company violated the Anti-
       Kickback Statute by accepting free pathology services from Tampa Pathology Lab
       (“TPL”) for biopsy specimens they sent to the lab. The government also alleged that
       Wasserman billed Medicare for medically unnecessary skin repair procedures and for
       evaluation and management services that he did not perform. In addition to paying the
       settlement amount, the individual agreed to a five-year voluntary exclusion from
       participation in any federal health care programs as part of the resolution.

   •   In July 2013, the United States District Court for the District of Columbia granted the
       United States’ motion for partial summary judgment against a Doctor and his two
       companies, Ishtiaq Malik M.D., P.C. and Advanced Nuclear Diagnostics, for submitting
       false nuclear cardiology claims to federal and state health care programs and awarded over
       $17 million in damages and penalties. The United States alleged that the doctor and his
       companies violated the FCA by double-billing multi-day nuclear stress test studies, billed
       for services that were already included in the payment for these tests, and billing for
       services not rendered.

   •   In December 2012, a California physician was sentenced for his role in a hospital fraud
       scheme to 1 year and 1 day in prison and ordered to pay $11 million in restitution. He
       previously pleaded guilty to conspiracy to receive kickbacks. According to court
       documents, Tustin Hospital paid marketers to recruit patients and drive them from “Skid
       Row” around Los Angeles, past other hospitals, to be admitted to its facility. The
       physician admitted these patients and then he and the hospital billed Medicare for in-
       patient services, even if the services were not medically necessary. The physician
       admitted that many of the recruited patients had been coached to recite false symptoms,
       and that he falsified medical records to justify the admission of some patients. On
                                               32
    average, he admitted approximately 60 patients per month to the hospital, even though
    some did not require hospitalization.

•   In July 2013, Jackson Cardiology Associates (JCA) and its owner paid $4 million to
    resolve FCA allegations that JCA’s owner and certain JCA cardiologists performed
    medically inappropriate cardiac procedures, including invasive catheterizations at
    Allegiance Health. Specifically, the government alleged that JCA’s owner ordered
    catheterizations for patients based on findings from nuclear stress tests that he improperly
    read as positive. The government found that three-quarters of these patients had no
    significant heart blockages. These catheterizations involve snaking a hollow tube into the
    heart through an incision in the patient’s groin.

•   In August 2013, Imagimed LLC and its former owners and former chief radiologist paid
    $3.57 million to resolve FCA allegations that they submitted false claims for magnetic
    resonance imaging (MRI) services. In particular, the government alleged that the
    defendants submitted claims to Medicare, Medicaid and TRICARE for MRI scans
    performed with a contrast dye without the direct supervision of a qualified physician.
    Since a potential adverse side effect of contrast dye is anaphylactic shock, federal
    regulations require that a physician supervise the administration of contrast dye when it is
    used for an MRI. The government also alleged that Imagimed submitted claims for
    services referred to Imagimed by physicians with whom Imagimed had improper financial
    relationships in violation of the Stark Law and the Anti-Kickback Statute.

•   In June, 2013, an oncologist and his wife paid $3.1 million to resolve FCA allegations that they
    jointly defrauded Medicare, Tricare, and other federal programs by overbilling for medication
    and services and/or billing for medication and services not provided.

•   In December 2012, an Illinois physician was sentenced to 10 years in prison and ordered
    to pay $2.9 million in restitution after being convicted on charges of health care fraud and
    fraud of visas, permits, or other documents. The physician was the manager and co-owner
    of House Call Physicians, LLC, a suburban home health care provider. According to court
    documents, the physician directed House Call Physicians to bill Medicare for: (a) services
    that were not medically necessary, including uncomfortable nerve conduction tests; (b)
    services purportedly provided by physicians when, in fact, they were performed by
    physician assistants; and (c) services performed by a podiatrist with a suspended license.
    Two other defendants were sentenced to 6 months and 18 months of incarceration,
    respectively. The two were also, respectively, fined $20,000 and ordered to pay $791,095
    in restitution. After completing his sentence, the physician, a Canadian citizen who was
    not authorized to work in the United States, will be surrendered to the Department of
    Homeland Security for a deportability determination.

•   In November 2012, a Michigan physician was sentenced to 5 years of incarceration and
    ordered to pay $2.9 million in restitution after being convicted on charges of health care
    fraud and conspiracy to commit health care fraud. The physician was an
    obstetrician/gynecologist who served as a general practitioner for three clinics operating in
                                              33
    the same location: Blessed Medical Clinic, Alpha and Omega Medical Clinic, and Manuel
    Medical Clinic. According to evidence presented at trial, the physician joined a
    conspiracy to bill Medicare for medically unnecessary neurological tests. Some of the
    tests involved sending an electrical current through the arms and legs of the patients.
    Clinic employees, who lacked any meaningful training, administered the diagnostic tests.
    Patients were recruited with prescriptions for controlled substances, cash payments, and
    fast food.

•   In July 2013, Northwestern University agreed to pay $2.93 million to resolve FCA
    allegations of grant fraud by one of its cancer center physician researchers. The physician
    was the principal investigator on several National Institutes of Health (NIH) grants related
    to cancer research. Instead of using the funds as the grants required, he allegedly spent the
    money on family trips, meals, and hotels for himself and friends. He also charged
    “consulting fees” to the grants which went to unqualified friends and family members,
    including his brother and cousin. Northwestern additionally allowed the researcher to
    subcontract work under the grants without following NIH guidelines. A civil suit against
    the individual doctor is proceeding.

•   In April 2013, the owner of Winnetka Medical Group, a cosmetic health care clinic, pled
    guilty to health care fraud and was sentenced to 42 months in prison and was ordered to
    make full restitution. The defendant billed Medicare, Anthem Blue Cross, and Blue
    Shield of California for three unusual and high-paying procedures, even though he lacked
    the equipment necessary to perform them. The defendant even billed Medicare for 26
    patients who were already dead on the date he claimed to have performed the procedures.
    In total, the defendant submitted approximately $7.5 million in fraudulent claims to
    Medicare and was paid over $3 million.

•   In May 2013, Las Vegas Urology, LLP agreed to pay $1 million to settle allegations that it
    submitted false claims to federal health care programs. An investigation of the practice’s
    billing and medical records showed that it had billed for intra-abdominal pressure testing
    that had never been performed and upcoded its billings for cystourethroscopies,
    consultations, and ultrasound tests. In addition to the settlement agreement, the practice
    has entered into a three-year CIA with HHS/OIG.

•   In January 2013, a Missouri psychotherapist was sentenced to 36 months’ imprisonment
    and ordered to pay $1 million in restitution for health care fraud. The defendant also
    agreed to surrender his psychotherapy license. Between September 17, 2008 and April 5,
    2012, the defendant submitted Medicare and Medicaid claims for daily or near daily
    psychotherapy services to 19 beneficiaries for which he was paid $1.3 million. Although
    the defendant provided some services for most of the beneficiaries, he admitted that he
    never saw them more than once a week. The defendant further admitted that he forged, or
    caused another person to forge, the signatures of five the beneficiaries on patient sign-in
    sheets in order to obtain payments.



                                             34
Other Health Care Providers

   •   In May 2013, U.S. Renal Care, Inc. paid $7.3 million to resolve FCA allegations that
       Dialysis Corporation of America, which U.S. Renal acquired in June 2010, submitted false
       claims to Medicare for more Epogen, an intravenous drug commonly given to dialysis
       patients, than it actually administered.

   •   In October 2012, Westchester County Health Care Corporation (WCHCC) agreed to pay
       $7 million to resolve alleged FCA violations. WCHCC operates the freestanding mental
       health facility Westchester Behavioral Health Center (BHC). WCHCC allegedly
       submitted false certifications to Medicaid stating that claims for services at BHC complied
       with applicable regulations. However, WCHCC allegedly knew or should have known
       that: (1) many of the claims lacked the required supporting documentation, and (2) many
       of the services either did not meet the minimum duration requirements and/or were
       provided by staff who lacked proper certification. BHC also allegedly billed Medicaid for
       psychiatric services without creating or maintaining treatment plans and progress notes.

   •   In October 2012, the owner/operator of a halfway house was sentenced to 4 years and 3
       months of imprisonment and ordered to pay $2.4 million in restitution after pleading
       guilty to charges of conspiracy to receive and pay health care kickbacks. According to
       court documents, the owner/operator accepted kickbacks to send Medicare beneficiaries
       who resided at the half-way house to American Therapeutic Corporation (ATC) for partial
       hospitalization services. Investigators believe that these services were not medically
       necessary and were not provided at ATC. ATC then billed Medicare for these services.

   •   In October 2012, the owner of Gideon’s Gate, a provider of tutoring and day care services,
       was sentenced to 6 years and 8 months of incarceration and ordered to pay more than
       $1.9 million in restitution after pleading guilty to health care fraud charges. The owner
       admitted that she executed a scheme to file more than 2,400 illegitimate reimbursement
       claims for psychological services that she never performed. The owner conspired with
       another defendant, who owned the company Primeway. Primeway’s owner had a welfare-
       to-work contract to train Medicaid recipients to become certified nursing assistants.
       Primeway’s owner provided the Medicaid recipients' personal identifiers to the owner of
       Gideon’s Gate, who then back billed these recipients to Medicaid for mental health
       services that were not rendered. The owner of Primeway previously pleaded guilty to
       charges of receiving an illegal kickback from a health care program and was sentenced to
       5 years of probation and assessed a $2,000 fine.

Pharmacies

   •   From August, 2011 through July, 2013, twenty-six defendants have been convicted for
       their roles in a widespread scheme to defraud Medicare and Medicaid of nearly
       $58 million. According to the indictment, a licensed pharmacist owned or controlled 26
       pharmacies in Michigan. The pharmacist concealed his ownership and control over many
       of his pharmacies through the use of straw owners. He offered and paid kickbacks, bribes,
                                               35
    and other inducements to providers in exchange for them writing fraudulent prescriptions
    for patients with Medicare, Medicaid, and private insurance and directing the patients to
    fill their prescriptions at one of his pharmacies. In September 2013, the pharmacist was
    sentenced to 17 years in prison and ordered to pay $18.9 million in restitution, joint and
    several. His co-conspirators were sentenced between February and May 2013 to a
    combined 19 years in prison and ordered to pay more than $8.4 million in restitution, joint
    and several. Nineteen additional defendants are awaiting sentencing.

•   In June 2013, Omnicare, Inc. paid $17.2 million to settle FCA allegations that it paid
    kickbacks to obtain pharmacy contracts in violation of the federal Anti-Kickback statute.
    The settlement addressed false claims allegedly made to the Medicaid programs of
    Missouri, Illinois, and Florida.

•   In October 2012, RxAmerica LLC., a wholly owned subsidiary of CVS Caremark
    Corporation, paid $5.25 million to resolve FCA allegations that it made false submissions
    to CMS regarding prices for certain generic prescription drugs used for Plan Finder, a
    web-based tool offered by CMS to assist participants to choose a Part D plan that
    minimized their out-of-pocket costs by estimating prescription drug prices for each
    Medicare Part D plan that the beneficiary considered for enrollment. As a result of the
    false submissions, the government alleged that RxAmerica received Medicare Part D
    payments for claims for the covered drugs at prices that in some cases were significantly
    higher than the pricing data RxAmerica submitted to CMS for use on Plan Finder.

•   In November 2012, two HHS-OIG Most Wanted Fugitives were captured and later pled
    guilty to charges related to health care fraud. In April 2013, the first was sentenced to 4
    years and 9 months of incarceration and ordered to pay $4.4 million in restitution, joint
    and several, while the second sentenced to 2 years and 6 months of incarceration and
    ordered to pay $845,000 in restitution. The two owned and operated pharmacies in
    Miami. According to court records, the two owners/operators and their co-conspirators
    were involved in a Medicare scheme in which kickbacks and bribes were paid to patient
    recruiters and beneficiaries for prescriptions that were then used to submit fraudulent
    claims to Medicare. An employee, who also participated in the scheme, was sentenced to
    3 years and 10 months of incarceration and ordered to pay $4.4 million in restitution, joint
    and several.

•   In August 2013, National Respiratory Services (NRS), a mail-order/closed door pharmacy
    which supplied compounded inhalation drugs to patients, pled guilty to health care fraud
    for billing for compounded medications as if they were non-compounded, commercially
    manufactured FDA-approved drugs. The compounded medications were most often sub-
    potent, super-potent, and in some cases non-sterile. As a result of the conduct, the
    government paid NRS over $2 million dollars. The two NRS pharmacists, the minority
    owner, and the majority owner pled guilty to a FDA misbranding violation and were
    sentenced to one year probation. The vice-president of operations pled guilty to felony
    misbranding, felony adulteration, health care fraud, and mail fraud. The defendants must
    pay restitution jointly and severally in the amount of $2 million.
                                             36
Clinics

   •      In May 2013, a captured HHS-OIG Most Wanted Fugitive was sentenced to 9 years and 1
          month of incarceration and ordered to pay more than $26 million in restitution, joint and
          several, after pleading guilty to charges of conspiracy to commit health care fraud and
          money laundering. According to court documents, as an employee of a provider of
          physical therapy services, he signed his name on patient files as the provider of such
          services, including blank treatment data forms, progress notes, and daily physical therapy
          records. However, he was not licensed, trained, or otherwise qualified to provide physical
          therapy to patients. This individual was arrested by Nigerian authorities in 2011 and
          extradited back to the United States in June 2012 to face health care fraud charges.

   •      In November 2012, a Miami man was sentenced to 12 years and 7 months of incarceration
          and ordered to pay $11 million in restitution after pleading guilty to charges of conspiracy
          to commit health care fraud and to pay health care kickbacks, health care fraud, payment
          of health care kickbacks, and money laundering. The man was the president and co-owner
          of Research Center of Florida, Inc., a purported medical clinic. He paid more than
          $2.3 million to fraudulent companies controlled by outside patient recruiters who paid
          cash to Medicare beneficiaries to attend Research Center as purported patients. Between
          October 2003 and November 2004, Research Center submitted claims to Medicare for
          nearly $21 million, almost exclusively for the purported treatment of HIV-positive
          Medicare beneficiaries and for the administration of prescription drugs. Co-conspirators
          were previously sentenced to 6 years and 6 months and 5 years and 10 months of
          incarceration, respectively, and ordered to pay $14 million in restitution, joint and several,
          for their roles in the scheme. Two other defendants were sentenced to 3 years and 10
          months and 6 years and 6 months of incarceration, respectively, and ordered to pay
          $10.9 million in joint and several restitution.

   •      In June 2013, the part-owner and medical biller for the Advanced Clinics was sentenced to
          serve twelve months and one day in federal prison for her role in a health care fraud
          scheme. The defendant was also ordered to pay a $1.89 million fine, restitution of
          $120,689 and a refund of $1 million. The majority of patients of the Advanced Clinics
          were injured United States Postal Service workers receiving medical benefits under the
          U.S. Department of Labor, Office of Workers’ Compensation Program (DOL-OWCP).
          The defendant fraudulently billed DOL-OWCP for services not rendered, double billed,
          and unbundled billing codes to obtain higher reimbursements. The defendant personally
          received over $4.4 million from the Advanced Clinics.

   •      In July 2013, Health Guard Inc. and its owner, a unlicensed diagnostic technician, pled
          guilty to health care fraud, and currently awaits sentencing. Patients went to Health Guard
          Inc. for medical tests that were not performed or were medically unnecessary. Patients
          were moved between other commonly owned health care clinics to Health Guard Inc. to
          repeatedly perform the same unnecessary tests. Five other clinics and their owners have
          already been sentenced for the same activity. If the patients refused the diagnostic tests at

                                                   37
    Health Guard Inc., prescriptions for narcotic drugs were withheld. Thereafter, bills for the
    unnecessary services were submitted to Medicare and Medicaid.

•   In March 2013, the medical director of a clinic in Long Beach, California, was sentenced
    to 42 months’ imprisonment and ordered to pay $2.9 million in restitution for issuing
    bogus prescriptions that led to fraudulent Medicare claims of over $3 million. The doctor
    and his co-schemers recruited Medicare patients for office visits that typically included
    unnecessary tests and procedures. The medical director, who was a doctor, also generated
    fraudulent prescriptions for medical equipment, power wheel chairs and enteral nutritional
    supplies, prescriptions that were sold to medical supply companies that used the fraudulent
    documents to bill Medicare for millions of dollars of unnecessary and undelivered medical
    supplies. Nearly all of the wheelchair prescriptions signed by the doctor were written for
    people who could walk. As a result of the fraudulent conduct involving the defendant and
    his co-schemers, $5.6 million in fraudulent claims were submitted to Medicare, which
    paid approximately $2.97 million. The defendant was convicted following a jury trial in
    March 2012.

•   In July 2013, the owner of two “false front” healthcare clinics operating in Houston, Texas
    and Euless, Texas was sentenced to 120 months imprisonment and ordered to pay over
    $2 million in restitution, jointly and severally with four codefendants. Along with the
    owner, the clinics were operated by the codefendants who were unlicensed physicians and
    physician’s assistants. These unlicensed employees traveled to Medicare beneficiaries
    homes to conduct medical examinations. In addition to conducting medical examinations,
    the unlicensed employees would falsify orders for medical testing in order to make the
    patient files look legitimate. These tests were never ordered and never administered. The
    owner of the clinic purchased fake results and subsequently billed Medicare for millions
    of dollars in phony home visits and fake medical tests.

•   In May 2013, a Florida woman was sentenced to 10 years in prison following her
    conviction for conspiracy to commit health care fraud through several physical and
    occupational therapy clinics she owned in the Miami area. The owner of the clinics
    defrauded the Medicare Part A program by falsely billing over $20 million in therapy
    services that were never rendered. As part of the scheme, patients were recruited and paid
    kickbacks for allowing their Medicare eligibility to be misused. Clinic employees would
    rotate the patients, many of whom lived hours away from Miami, through the various
    clinics in an effort to spread out the fraudulent billing and avoid detection. Eight other
    employees and therapists at the clinics were convicted and received sentences ranging
    from two to five years of imprisonment. Collectively, the defendants were ordered to
    repay almost $14 million in restitution. The owner of the clinics forfeited approximately
    $200,000 in cash, along with various real properties and personal items seized at the time
    of her arrest.




                                             38
Medical Equipment Suppliers

   •   In November 2012, Orthofix International NV paid $30 million to settle FCA allegations
       that it paid illegal kickbacks to spinal surgeons to induce them to use the company’s
       products. In particular, the government alleged that Blackstone Medical Inc., a subsidiary
       of Orthofix, paid kickbacks to spinal surgeons in a number of forms, including sham
       consulting agreements, sham royalty arrangements, sham research grants, travel and
       entertainment. As part of the settlement, Orthofix entered into a CIA with HHS/OIG.

   •   In May 2013, an owner/operator of several durable medical equipment (DME) companies
       in Nevada was sentenced to 4 years and 3 months of incarceration and ordered to pay over
       $12 million in restitution after pleading guilty to charges of health care fraud and tax
       evasion. According to the indictment, the owner/operator paid marketers in Southern
       California to obtain patients for her various DME companies. The marketers provided
       patients with money in exchange for their Medicare information, which was used to bill
       Medicare for items not provided. The owner/operator also forged or caused to be forged
       prescriptions and falsified or caused to be falsified certificates of medical necessity to
       make it appear as if a physician had ordered a product for her customers. She then
       submitted and caused to be submitted false claims to Medicare for DME that was not
       medically necessary, was not provided to her customers, and was not prescribed by a
       physician.

   •   In March 2013, a California DME company owner and operator was sentenced to 156
       months imprisonment and ordered to pay $8.2 million in restitution, jointly and severally,
       after a jury convicted her of multiple counts of health care fraud and anti-kickback
       violations. At trial, the government presented evidence that the defendant paid marketers
       to recruit Medicare beneficiaries to seek expensive DME, such as motorized wheel chairs,
       that they did not need. The defendant or the marketers she relied on, often paid doctors to
       write the fraudulent prescriptions. The defendant would then submit the false claims to
       Medicare. Over the course of the scheme, defendant submitted over $16 million in
       fraudulent claims to Medicare, of which Medicare paid over $8 million. Other defendants
       included a marketer, who was sentenced to 41 months imprisonment, as well as a
       cooperating marketer who received a time served sentence and a cooperating doctor who
       received a 36-month period of probation.

   •   In July 2013, TranS1, Inc. (now known as Baxano Surgical, Inc.) paid $6 million to
       resolve FCA allegations that the company caused health care providers to submit false
       claims to federal health care programs for surgical procedures involving the company’s
       AxiaLIF System. Specifically, the settlement resolves allegations that TranS1 (1)
       improperly counseled physicians and hospitals to inflate reimbursement by using incorrect
       and inaccurate codes intended for more invasive spine fusion surgeries; (2) provided
       improper remuneration in violation of the Anti-Kickback Statute; and (3) promoted
       unapproved uses that were not covered by federal health care programs.



                                               39
  •   In April 2013, the owner/operator of a DME company in New York was sentenced to 12
      years of imprisonment and ordered to pay $4.4 million in restitution for her role in a
      scheme to defraud Medicare by billing for DME that she did not provide. Through the
      DME company, the owner/operator and her husband fraudulently billed the accounts of
      nursing home residents from over 15 New York area nursing homes for DME that was
      never ordered or provided. According to court documents, the owner/operator entered
      these nursing homes falsely presenting herself in many roles, including physician, nurse
      practitioner, and wound care expert. She then stole original medical records, as well as
      altered and manufactured records, in an effort to justify medical billing. Investigators
      believe that her husband fled the country and remains a fugitive.

  •   In June 2013, the owner/operator of a DME company in Louisiana was sentenced to
      8 years and 1 month of incarceration and ordered to pay $2.5 million in restitution after
      being convicted on charges of health care fraud. According to the indictment, the
      owner/operator submitted approximately $467,000 in claims to Medicare for DME
      purportedly prescribed by a doctor in Houston, Texas. However, the doctor never
      prescribed any of the DME for which he billed Medicare. He also submitted more than
      $6.7 million in claims to Medicare for DME that was not medically necessary, and in
      some cases, was never provided.

  •   In June 2013, a DME business owner was sentenced to 70 months of imprisonment and
      ordered to pay $1.9 million in restitution, after pleading guilty to conspiracy to commit
      health care fraud and aggravated identity theft. According to court documents, the DME
      company owner created several different companies and submitted more than 1,500 false
      and fraudulent claims to Medicare for DME including power wheelchairs, power pressure
      reducing air mattresses and knee orthosis. The defendant submitted claims using the
      identities of Medicare beneficiaries for DME that was not medically necessary.

  •   In October 2012, the co-owner of a Florida DME company was sentenced to 11 years and
      3 months of incarceration and ordered to pay $1.7 million in restitution, joint and several,
      after pleading guilty to charges of conspiracy to commit health care fraud. The DME
      company, MA Medical Supply, Inc., paid beneficiaries for allowing them to use their
      information to create false and fraudulent prescriptions for DME and medical services that
      were either not rendered or were unnecessary. From January 2006 through July 2011, MA
      Medical Supply submitted $4 million in false and fraudulent claims to Medicare. In
      addition, the co-owner and his co-conspirators caused the submission of false and
      fraudulent claims and prescriptions to Medicare through several pharmacies. From
      approximately April 2009 through January 2012, Medicare paid more than $16 million to
      these pharmacies based on claims for medical benefits, primarily prescription drugs,
      which, in turn, were never actually received by the beneficiaries.

Nursing Homes

  •   In March 2013, Grace Healthcare LLC and its affiliate Grace Ancillary Services LLC
      (collectively, “Grace”) paid $2.7 million, plus interest, to resolve FCA allegations that
                                               40
       they knowingly submitted or caused the submission of false claims to Medicare and
       Medicaid for medically unreasonable and unnecessary rehabilitation therapy. In
       particular, the government alleged that in ten nursing home facilities where Grace
       provided physical, occupational, and speech therapy, Grace pressured therapists to
       increase the amount of therapy provided to patients in order to meet targets for Medicare
       revenue that were set without regard to patients’ individual therapy needs and could only
       be achieved by billing for a large amount of therapy per patient.

   •   In February 2013, Fairfax Nursing Center, Inc. and its owners paid $700,000 to resolve
       FCA allegations that they provided excessive, medically unnecessary, or otherwise non-
       reimbursable physical, occupational, and speech therapy services to 37 Medicare
       beneficiaries.

Home Health Providers

   •   In April 2013, a Miami man was sentenced to 168 months for his role as one of the owners
       of a Miami-Dade home health agency which submitted approximately $45 million in false
       claims to Medicare, causing Medicare to pay the agency approximately $30 million.
       Almost all of these claims were for providing twice daily insulin injections to purportedly
       homebound diabetic patients. The investigation revealed that the agency used the services
       of dozens of patient recruiters who were paid $1,500 per month for each patient that they
       provided to the agency. Investigation revealed that almost all of these patients were not
       homebound and many of them were not insulin dependent diabetics. During the course of
       this investigation, a total of thirty two defendants pled guilty and four were found guilty
       after trial. These defendants included patient recruiters, office employees, and registered
       nurses.

   •   In December 2012, a Miami man was sentenced to 120 months in prison for his role in a
       home health care fraud scheme in which he submitted and caused the submission of
       approximately $5.3 million in false claims to Medicare. The defendant recruited
       individuals so that he could secretly control three separate home health agencies in Miami-
       Dade County. The defendant would purchase the companies for cash, and within a few
       weeks of purchasing the companies he used stolen Medicare beneficiary information to
       submit claims for services that were never actually rendered to Medicare beneficiaries.
       The defendant was a former drug trafficker who served nine years in prison from 1999
       through 2006.

   •   Nine defendants were sentenced in April and May of 2013 for their roles in a home health
       care fraud scheme. According to court records, the president of Safe Home Health Care
       Agency, Inc., a Miami-based business that purportedly provided home health services to
       Medicare beneficiaries, and several co-conspirators allegedly offered and paid kickbacks
       and bribes to patient recruiters in return for referring beneficiaries to Safe Home to serve
       as patients. Beneficiaries also received kickbacks for agreeing to serve as patients of Safe
       Home. Safe Home received $9.5 million in reimbursements from these false claims. The

                                                41
    nine defendants were sentenced to a combined 16 years and 2 months in prison and
    ordered to pay more than $5.8 million in restitution, joint and several.

•   In February 2013, two owners of a home health company, Alliance Home Health, each
    received a sentence of 37 months and were ordered to pay over $800,000 in restitution for
    a conviction on one count of conspiracy to commit health care fraud. They were also
    permanently excluded from the program. Another owner also received the same sentence
    in August 2012, and a marketer for the company received a 27 month sentence. The
    owners of Alliance and the marketer sought out Medicare beneficiaries for home health
    care, regardless of homebound status and paid the beneficiaries $100 each month to use
    Alliance services.

•   In July 2013, a New Jersey physician and the founder and owner of Visiting Physicians of
    South Jersey, a provider of home-based physician services for seniors, was sentenced to
    24 months in prison and ordered to pay more than $1 million in restitution and forfeiture
    for charging Medicare for lengthy visits that her elderly patients did not receive. The
    physician admitted to lying in Medicare billings about the amount of face-to-face time she
    spent with her elderly and disabled patients, which led to her receiving at least $511,068 in
    criminal profits. The physician was, for the period January 1, 2008 through October 14,
    2011, the highest billing home health care provider of all of the 24,000 doctors in New
    Jersey.

•   In April and June 2013, respectively, a Florida woman and a registered nurse were
    sentenced after pleading guilty to conspiring to pay and receive illegal health care
    kickbacks and paying kickbacks in connection with the a home health agency they
    operated. The woman was sentenced to 70 months imprisonment and ordered to pay more
    than $5 million in restitution, jointly and severally. The registered nurse was sentenced to
    97 months imprisonment and ordered to pay more than $22,000 in restitution, jointly and
    severally. According to court documents, the defendants paid kickbacks to patient
    recruiters to obtain Medicare beneficiaries to serve as patients of a home health agency
    they operated. The defendants also paid bribes to doctors who prescribed the home health
    services for the beneficiaries. In a little more than two years of operation, Medicare paid
    the defendant’s home health agency more than $11 million dollars, most of which was tied
    to kickbacks. In addition to these two defendants, seven patient recruiters were convicted
    in this indictment.

•   In August 2013, the owner of a network of Michigan health care companies was sentenced
    to 4 years in prison, paid a $1 million civil FCA settlement, and agreed to a 20-year
    exclusion from federal health care programs in connection with pervasive kickback and
    upcoding schemes at his physical therapy clinics, medical offices, and home health care
    agency. This sentence followed the convictions and sentencings of eight other
    individuals: two physicians, three physician assistants, two practice administrators, and a
    biller, who participated in these schemes. According to court documents in the criminal
    case and a parallel civil case against 25 defendants, the defendants paid or received illegal
    kickbacks in exchange for referring Medicare and Medicaid patients for physical therapy,
                                             42
       electrodiagnostic testing, and home health care services. The illegal payments were made
       in cash and checks disguised as bonuses, mileage reimbursements, and payments for
       medical director and consulting services that were never performed. At least one of the
       affiliated health care companies also allegedly engaged in upcoding by fraudulently billing
       for high-level office visits, among other things. To date, the Government has obtained
       over 7 years in total prison sentences in these cases, collected $1.1 million in related civil
       settlements, and OIG has imposed 40 years in total exclusions from federal health care
       programs.

   •   In July 2013, the president of a D.C.-based home health care provider was sentenced to 8
       months incarceration, to be followed by 4 months home detention, after pleading guilty to
       one count of falsification of records in connection with an HHS audit. The defendant’s
       company, which provided home healthcare services, was asked by auditors to produce
       plans of care for 62 patients who had received home health care services from her
       company. In total, Medicare and D.C. Medicaid had paid nearly $1.9 million in federal
       funds to the defendant’s company for the services these patients had already supposedly
       been provided. The company lacked the requisite plans of care for these individuals.
       Rather than admitting that the company lacked the necessary documentation, the
       defendant and employees of the company devised and implemented a plan to fabricate the
       plans of care. After creating plans of care for the patients who had already received this
       nearly $1.9 million in services, the defendant and others had a doctor sign the plans and
       then the documents were backdated to dates prior to the services. This doctor, who was the
       medical director, was sentenced to two years of probation after pleading guilty to one
       count of making a false writing in connection with this audit.

Other Medicare/Medicaid Matters

   •   In December 2012, Orthofix, Inc. pled guilty to a one count felony information charging
       obstruction of a health care audit. In addition, the company agreed to a $42 million civil
       and criminal global resolution in connection with a number of practices, including
       falsification of certificates of medical necessity and kickbacks. The case also resulted in a
       number of criminal convictions of Orthofix employees, six of whom were sentenced or
       charged during FY 2013, including three Territory Managers, a Vice President of Sales,
       and a Regional Manager. A Virginia physician was also indicted in June 2013 for making
       false declarations to a grand jury in Boston. Her trial has not yet been scheduled.

   •   In January 2013, American Sleep Medicine LLC paid $15.3 million to resolve FCA
       allegations that it billed Medicare, TRICARE, and the Railroad Retirement Medicare
       Program for sleep diagnostic services that were not eligible for payment. In particular, the
       government alleged that although federal regulations require that initial sleep studies must
       be conducted by technicians who are licensed or certified by a state or national
       credentialing body as sleep test technicians, American Sleep submitted claims for
       diagnostic testing services that were performed by technicians who lacked the required
       credentials or certifications.


                                                43
   •   In April 2013, the California Rural Indian Health Board Inc., a nontribal entity and grantee
       of the HHS Substance Abuse and Mental Health Services Administration, agreed to a
       settlement worth over $5.1 million to resolve an FCA lawsuit filed by the United States.
       The lawsuit involved the entity’s administration of a grant to provide services to Native
       American tribes. The United States alleged that the entity eliminated the substance abuse
       screening and assessment required of certain program applicants, and instructed the
       service providers to pay for prohibited expenses with the federal grant funds. The entity
       agreed to pay $532,000 and relinquish federal grant funds valued at over $4.6 million.

   •   In December 2013, two Regional Vice-Presidents employed with Humana Inc. will be
       sentenced for their roles in a kickback scheme involving Humana’s Medicare Advantage
       and prescription drug plan. As a result of their conduct, each received a kickback payment
       of approximately $2 million dollars. The two defendants entered guilty pleas to violation
       of the Travel Act and the state commercial bribery statute in January and February 2013,
       respectively. Each defendant has been ordered to pay $100,000 in restitution to Humana
       and $900,000 in forfeiture.

   •   In January 2013, a California university paid $925,000 to resolve allegations that its
       medical center sought Medicare reimbursement for liver transplants and related services
       when its liver transplant program failed to comply with federal requirements regarding
       surgeon staffing.

Hospice Providers

   •   In March 2013, Hospice of Arizona L.C., along with a related entity, American Hospice
       Management LLC, and their parent corporation, American Hospice Management Holdings
       LLC, paid $12 million to resolve FCA allegations that they submitted or caused the
       submission of false claims to the Medicare program for ineligible hospice services. In
       particular, the government alleged that Hospice of Arizona and its related entities engaged
       in certain practices that resulted in the admission of ineligible patients or inflated bills,
       including pressuring staff to find more patients eligible for Medicare, adopting procedures
       that delayed and discouraged staff from discharging patients from hospice when they were
       no longer appropriate for such services, and not implementing an adequate compliance
       program that might have addressed these problems. As part of the settlement, American
       Hospice Management Holdings has agreed to enter into a CIA with HHS-OIG.

Other Schemes

   •   In November 2012, a Washington, D.C., woman was sentenced to 6 years and 3 months of
       incarceration and ordered to pay $3.1 million in restitution after being convicted of
       charges related to health care fraud. According to the indictment, the woman was part
       owner and chief executive officer of the Health Advocacy Center, Inc. (HAC), which
       purportedly was an advocate for improving health care delivery to the community. She
       was also the owner of Sheridan Rehabilitative and Wellness Centers, Inc., which
       purportedly provided rehabilitative services to the mentally and physically disabled
                                                44
community. Around October 2002, HAC entered into an agreement with DC Medicaid to
provide health care services to District of Columbia Medicaid beneficiaries. The woman’s
employees transported many of these patients to HAC, where they often slept, watched
television, and occasionally received drug and alcohol counseling. From these visits, the
woman submitted more than $6 million in claims to DC Medicaid for manual therapy
services, despite the fact that: 1) she did not maintain progress notes and related
documentation for the purported manual therapy and other services, 2) she frequently
billed for services for which HAC lacked the medical equipment to perform, and 3) she
frequently billed for more than 24-hours of services for a single patient in a given day.




                                       45
                 DEPARTMENT OF HEALTH AND HUMAN
                            SERVICES
                                     Office of Inspector General

A certain portion of the funds appropriated under HIPAA are, by law, set aside for Medicare and
Medicaid activities of HHS/OIG. 13 In FY 2013, the Secretary and the Attorney General jointly
allotted $197 million to HHS/OIG. Additionally, Congress appropriated $30 million in
discretionary funding for HHS/OIG HCFAC activities. Of these amounts, over $11 million was
sequestered in FY 2013 and thus unavailable to OIG to fight fraud and abuse in Medicare and
Medicaid.

In FY 2013, HHS/OIG investigations resulted in 849 criminal actions against individuals or
entities that engaged in crimes related to Medicare and Medicaid; and 458 civil actions, which
include false claims and unjust-enrichment lawsuits filed in Federal district court, civil monetary
penalties (CMP) settlements, and administrative recoveries related to provider self-disclosure
matters. In addition, during FY 2013, HHS/OIG excluded a total of 3,214 individuals and
entities, the details of which are below.

In FY 2013, HHS/OIG continued to staff and support Medicare Strike Force operations worked in
conjunction with DOJ Criminal Division’s Fraud Section, local USAOs, the FBI, and State and
local law enforcement agencies. HHS/OIG has assigned agents to Strike Forces in Miami, New
York City, Houston, Tampa, Detroit, Los Angeles, South Louisiana, Dallas, and Chicago.
HHS/OIG has supported Strike Force operations by providing investigative, analytic, and forensic
resources. These Strike Forces have effectively investigated and prosecuted individuals and
entities that do not provide legitimate health care services, but exist solely for the purpose of
defrauding Medicare and other Government health care programs. The continued support of
Medicare Strike Force operations is a top priority for HHS/OIG.

Program Savings

Frequently, investigations, audits, and evaluations reveal vulnerabilities or incentives for
questionable or fraudulent practices in agency programs or administrative processes. As required
by the Inspector General Act, HHS/OIG makes recommendations to agency managers to address
these vulnerabilities. In turn, agency managers recommend legislative proposals or other
corrective actions that, when enacted or implemented, close loopholes and reduce improper
payments or conduct. The savings from these joint efforts toward program improvements can be
substantial. For FY 2013, potential savings from legislative and administrative actions that were

13
  In addition to the funds made available to OIG from the HCFAC account under HIPAA, Congress has provided
funds to OIG specifically for oversight of the Medicaid program. The Deficit Reduction Act of 2005 (DRA, P.L.
109-171), and the Supplemental Appropriations Act of 2008 (Pub. L. 110-252) at § 7001(b) each appropriated
funding for Medicaid-related oversight efforts. Therefore, OIG’s Medicaid activities cited throughout this report
may have drawn from these funding sources, in addition to HCFAC.

                                                       46
supported by HHS/OIG recommendations were estimated by third parties, such as the
Congressional Budget Office or actuaries within HHS, to be $19.4 billion – $18.54 billion in
Medicare savings and $834 million in savings to the Federal share of Medicaid.

Additional information about savings achieved through such policy and procedural changes may
be found in the HHS/OIG fall Semiannual Report to Congress, on-line at http://oig.hhs.gov.

Exclusions

One important mechanism for safeguarding the care provided to program beneficiaries is through
exclusion of providers and suppliers who have engaged in the abuse or neglect of patients or fraud
from participation in Medicare, Medicaid, and other Federal health care programs. During
FY 2013, HHS/OIG excluded a total of 3,214 individuals and entities. Among these were
exclusions based on criminal convictions for crimes related to Medicare and Medicaid (1,132) or
to other health care programs (311); for patient abuse or neglect (180); or as a result of licensure
revocations (1,324). This list of conduct is not meant to be exhaustive, but identifies the most
prevalent causes underlying HHS/OIG’s exclusions of individuals or entities in FY 2013.
Exclusion actions by HHS/OIG included:

•   Florida – In February 2013, the owner and operator of a pain clinic, was excluded for a
    minimum period of 50 years based on his conviction for conspiracy to possess with intent to
    distribute oxycodone and oxymorphone and conspiracy to commit health care fraud. From
    November 2007 to about September 2011, he owned and operated the pain clinic for the
    purpose of obtaining false prescriptions for these drugs for beneficiaries of the Medicare,
    Medicaid, and private insurance plans and he would offer inducements to beneficiary
    recruiters so they would bring beneficiaries to his pain clinic. The court sentenced the
    owner/operator to more than 16 years of incarceration and ordered him to pay $15 million in
    restitution.

•   Pennsylvania – In January 2013, an osteopath was excluded for a minimum period of 20 years
    based on his drug trafficking conviction. Between September 2000 and March 2010, the
    osteopath and others distributed controlled substance prescription diet drugs outside of
    professional practice. This included more than 1.5 million doses of a substance that contained
    phendimetrazine and more than 2.5 million doses of a substance that contained phentermine.
    The court sentenced him to 2 years and 10 months of incarceration. The Pennsylvania State
    Board of Osteopathic Medicine revoked his license to practice.

•   Kansas – In December 2012, a licensed practical nurse was excluded for a minimum period of
    10 years based on her conviction on charges of consumer product tampering and adulteration
    of a drug. During the course of her employment, the nurse would steal morphine from a
    particular patient at the facility where she worked. To conceal her behavior, she added tap
    water to the patient’s medication bottle and then placed the bottle back on the medication cart
    to dispense to the patient. The court sentenced her to 3 years of incarceration. In addition, the
    Kansas State Board of Nursing permanently revoked her license to practice nursing.


                                                 47
•   Florida – In August 2013, a chiropractor, was excluded for a minimum period of 40 years
    based on his convictions for health care fraud, conspiracy to illegally distribute and dispense
    and cause to be distributed and dispensed schedule III and IV controlled substances, and
    aiding and abetting transactional money laundering. The chiropractor billed and caused bills
    to be sent to Medicare, Medicaid, and private insurers for services that were rendered by him
    or his staff as though they were medical doctors. In actuality, he used the name of a medical
    doctor to fraudulently bill for services that were never performed or provided by the medical
    doctor. In addition, he used the names and DEA numbers of medical doctors to illegally
    prescribe controlled substances to patients with no legitimate doctor-patient relationship. As a
    result of these crimes, the chiropractor was sentenced to 15 years and 8 months of
    incarceration and ordered to pay more than $2 million in restitution. The Florida Board of
    Chiropractic Medicine ordered the voluntary relinquishment of his license to practice.

•   Louisiana – In August 2013, an individual who was the owner, manager, and technician of
    several medical clinics was excluded for a minimum period of 25 years based on his
    conviction. The owner and his co-conspirators were involved in a scheme to defraud
    Medicare and Medicaid through fraudulent billing for diagnostic tests that were not medically
    necessary or not performed. Based on this scheme, he was convicted on charges of
    conspiracy to commit health care fraud and conspiracy to commit money laundering and was
    sentenced to 4 years and 1 month of incarceration and ordered to pay more than $6 million in
    restitution, joint and several. The owner was also excluded from participation in Medicaid by
    the Louisiana Department of Health and Hospitals.

•   Kentucky – In August 2013, a registered nurse was excluded for a minimum period of 20
    years based on her reckless homicide conviction. The nurse entered the room of a patient
    with a cigarette lighter, which started a fire on the patient’s bedding. Because he was in a
    complete vegetative state, the patient was unable to escape and he died as a result. The court
    sentenced the nurse to 5 years of incarceration. In addition, the Kentucky State Board of
    Nursing revoked her license to practice.

•   Florida – In August 2013, a medical doctor was excluded for a minimum period of 10 years
    based on his conviction for conspiracy to knowingly and willfully dispense and cause to be
    dispensed schedule IV controlled substances. From about January 2004 to about February
    2008, the doctor conspired with others to dispense controlled substances that involved a
    mixture and substance containing methadone. Investigators believe that the use of these
    substances resulted in one or more deaths. The doctor was sentenced to 12 months of
    incarceration followed by 12 months of home detention.

Other Administrative Enforcement Actions – Civil Monetary Penalties

HHS/OIG has the authority to impose civil monetary penalties (CMPs) against providers and
suppliers who knowingly submit false claims to the Federal government, who participate in
unlawful patient referral or kickback schemes, who fail to appropriately treat or refer patients at
hospital emergency rooms, or who engage in other activities prescribed in statute. HHS/OIG has
continued to pursue its affirmative enforcement actions under these authorities. Examples
                                                48
include:

•   South Carolina – In January 2013, Heritage Medical Partners agreed to pay $170,260 to
    resolve allegations that, from April 2008 through December 2008, Heritage violated the CMP
    Law by requesting that its 5,474 patients who were Medicare beneficiaries pay a $50
    administrative fee. Heritage told these Medicare beneficiaries that “the Federal Government
    (Medicare) continue[s] to increase the amount of paperwork we’re required to fill out to
    assure you receive the benefits to which you’re entitled” and that Heritage instituted the fee as
    partial compensation for the time the “physician and staff spend assuring [patients] receive
    prescription renewals quickly [and] maximum benefits from Medicare. . .” HHS/OIG alleged
    that a portion of the $50 constituted payment for Medicare services that are covered and
    reimbursed by Medicare and constituted a request for payment other than copayments or
    coinsurance, which violated Medicare assignment regulations. Heritage agreed to return the
    money it collected to patients and pay a penalty to HHS/OIG.

•   Illinois – In November 2012, ForTec Medical, Inc.; ForTec Litho, LLC; ForTec Litho Florida,
    LLC; ForTec Litho Central, LLC; and ForTec Litho NY, LLC (collectively, ForTec), agreed to
    pay $126,249 to resolve their liability under the CMPL for offering remuneration in exchange
    for referrals. From 2006 through 2011, ForTec allegedly provided customers, including
    physicians, with an all-expense paid trip to the Masters Golf Tournament in Augusta, Georgia.
    Invitations to these trips were extended to physicians based on their use of ForTec’s products
    and services and the potential for additional business from those physicians.

•   New Mexico – In December 2012, University of New Mexico Hospital (UNMH) agreed to
    pay $30,000 to resolve its liability under the patient dumping statute. UNMH allegedly failed
    to provide an adequate medical screening examination and failed to stabilize a suicidal patient
    when it did not prevent the suicidal patient from hanging himself in the hospital. The patient
    came to the emergency room experiencing suicidal ideations and was placed in an observation
    room, but he was not provided a medical screening examination for 7 hours. During this time,
    the patient used his shoelaces to hang himself from an air vent in the observation room. The
    patient was found still alive by a security employee. UNMH then treated and admitted the
    patient. UNMH self-reported the incident to the State.

•   Illinois – In October 2012, University of Chicago Medical Center (UCMC) agreed to pay
    $50,000 to resolve its liability under the patient dumping statute. UCMC allegedly failed to
    provide appropriate medical screening and stabilizing treatment within its capabilities to a
    male patient who arrived at their emergency department complaining of severe jaw pain as a
    result of a physical assault. The results of a CT scan taken by UCMC revealed injuries that he
    needed corrective surgery. However, UCMC did not provide further treatment and discharged
    the patient with instructions to go to another hospital for further care.

•   Massachusetts – In May 2013, Trustees of Tufts College and Tufts University School of
    Dental Medicine (TUSDM) agreed to pay $841,120 for allegedly violating the CMP Law.
    TUSDM submitted claims to Medicare for various services from four of their clinics.
    However, HHS/OIG alleged that these claims were improper because the services were
                                                 49
    provided by dentists who were not credentialed by Medicare or the services were not
    supported by sufficient medical record documentation.

•   Georgia – In May 2013, C.F. Health Management, Inc., d/b/a Gainesville Pain Management
    (GPM), and its physician agreed to pay $1.5 million for allegedly violating the Civil Monetary
    Penalties Law. HHS/OIG alleged that GPM submitted false or fraudulent claims by: (1)
    inappropriately using certain modifiers to submit claims for payment for multiple units when
    only a single unit may be billed per patient encounter, and (2) inappropriately billing for
    certain services when less expensive services were actually provided.

•   Pennsylvania – In July 2013, Bravo Health Pennsylvania, Inc. (Bravo), agreed to pay
    $225,000 to resolve its liability under the CMP provisions applicable to a Medicare
    Advantage organization. HHS/OIG alleged that patient medical records Bravo provided to
    HHS/OIG were intentionally altered prior to their submission or resubmission. Specifically,
    Bravo allegedly added apparent diagnoses notations or signatures to the patient medical
    records.

Audits and Evaluations

Every year, HHS/OIG conducts a substantial number audits and evaluations that disclose
questionable or improper conduct in Medicare and Medicaid, and recommends corrective actions
that, when implemented, return misspent funds and prevent future wasteful or improper payments.
Among those completed in FY 2013 were:

Preventing and Detecting Medicaid Fraud

Medicaid Fraud Control Units (MFCU) are key partners in the fight against fraud, waste, and
abuse in State Medicaid programs. HHS/OIG is responsible for overseeing MFCUs’ activities.
As part of this oversight, HHS/OIG conducts periodic reviews of all Units and prepares public
reports based on these reviews.

•   HHS/OIG found that from FYs 2009 to 2011, the New Hampshire Unit reported recoveries of
    $14 million, filed criminal charges against 25 defendants, and obtained 15 convictions. The
    overall number of cases opened and closed by the Unit decreased. The Unit attributed the
    overall decrease primarily to staffing limitations; for all 3 years, the Unit’s staffing levels
    were below the number of staff that the Unit requested and HHS/OIG approved.
    Additionally, although the Unit reported that its best source of fraud referrals was the State’s
    Surveillance and Utilization Review Subsystem (SURS), the Unit noted that the number of
    referrals from SURS was low. HHS/OIG recommended that the New Hampshire Unit seek to
    expand staff sizes to reflect the number of staff approved in the Unit’s budget, ensure that it
    maintains an adequate workload through referrals from SURS, ensure that case files contain
    documented supervisory reviews, and establish annual training plans for each professional
    discipline.



                                                 50
•   HHS/OIG found that from FYs 2009 through 2011, the Louisiana Unit reported recoveries of
    $95 million, obtained 192 convictions and 86 civil judgments or settlements, and received
    1,043 referrals. Provider fraud referrals to the Unit increased, and the Unit received patient
    abuse and neglect referrals from a variety of sources. In addition, HHS/OIG found that the
    Unit had not updated its memorandum of understanding (MOU) with the Louisiana
    Department of Health and Hospitals (DHH) to reflect current law and practice. HHS/OIG
    recommended, among other things, that the Louisiana Unit revise its MOU with DHH to
    reflect current law and practice.

•   HHS/OIG’s analysis of collected data from FYs 2008 through 2010 shows that the South
    Carolina Unit’s caseload increased by 65 percent and that the amount of funds the Unit
    recovered nearly doubled, from $15.3 million in FY 2008 to $30.3 million in FY 2010. In
    addition, HHS/OIG found that the Unit did not report program income properly in FY 2010.
    HHS/OIG recommended, among other things, that the Unit ensure that program income is
    reported properly.

Medicaid Payments to Excluded Providers

•   HHS/OIG found that California made unallowable Medicaid payments of $1.9 million
    ($1.2 million Federal share) for items and services furnished, ordered, or prescribed by
    excluded providers. Although the amount of unallowable payments is small when compared
    with the $31.5 billion in claims paid by the State agency, no Medicaid payments may be made
    for items or services furnished, ordered, or prescribed by excluded providers. In addition,
    HHS/OIG set aside for resolution by CMS $1.1 million ($699,000 Federal share) paid by the
    State for additional items or services that may have been furnished, ordered, or prescribed by
    providers whose exclusion status could not be verified. HHS/OIG recommended, among
    other things, that California refund $1.2 million to the Federal Government for unallowable
    Medicaid payments and work with CMS to resolve the $699,000 set aside.

Medicaid Data for Program Integrity

•   HHS/OIG conducted a review to determine the status of national Transformed Medicaid
    Statistical Information System (T-MSIS) implementation. T-MSIS is designed to be a detailed
    national database of Medicaid and Children’s Health Insurance Program information to cover
    a broad range of user needs, including program integrity. HHS/OIG found that overall, as of
    January 2013, CMS and the 12 volunteer States had made some progress in implementing T-
    MSIS. However, most other States had not started implementing T-MSIS, and they reported
    varied timeframes for when they plan to begin. Further, early T-MSIS implementation
    outcomes raised questions about the completeness and accuracy of T-MSIS data upon national
    implementation. HHS/OIG recommended that CMS establish a deadline for when national T-
    MSIS data will be available; ensure that States submit required T-MSIS data; and ensure that
    T-MSIS data are complete, accurate, and timely upon T-MSIS implementation.




                                                51
Medicaid Disproportionate Share Hospital Payments

•   HHS/OIG found that New Jersey claimed Disproportionate Share Hospital (DSH) payments
    of about $100 million ($50 million Federal share) for five hospitals that did not meet Federal
    requirements for DSH payments during our audit period. Specifically, for the five hospitals,
    New Jersey calculated a Medicaid Inpatient Utilization Rate (MIUR) of less than 1 percent
    during one or more State fiscal years but claimed DSH payments for the hospitals because it
    misinterpreted Federal regulations on DSH eligibility. Under the Medicaid DSH program, a
    State is required to make DSH payments to hospitals that serve a disproportionate share of
    low-income and/or uninsured patients. For a hospital to receive DSH payments, the State
    must classify the hospital as a DSH. A State may not define or deem a hospital as a DSH
    unless the hospital has a MIUR of not less than 1 percent. HHS/OIG recommended that New
    Jersey refund $50 million to the Federal Government and ensure that all hospitals designated
    as DSHs meet Federal eligibility requirements for DSH payments.

Medicaid Inpatient Psychiatric Services

•   HHS/OIG found that Indiana claimed Federal reimbursement for Medicaid inpatient
    psychiatric service payments made to Logansport State Hospital (Logansport) that were not in
    accordance with Federal requirements for inpatient psychiatric hospital services. For States to
    claim Federal reimbursement for such payments, the hospital’s inpatient services must
    demonstrate compliance with the basic Medicare Conditions of Participation (CoPs) generally
    applicable to all hospitals and two special Medicare CoPs applicable to psychiatric hospitals.
    Logansport did not demonstrate compliance with the special Medicare CoPs at any time
    during the audit period. Therefore, none of the Federal reimbursement for Medicaid inpatient
    psychiatric service payments made to Logansport for claims with dates of service during the
    audit period was allowable. HHS/OIG recommended, among other things, that Indiana refund
    $5.8 million to the Federal Government.

Medicaid Payments for Personal Care Services

•   HHS/OIG’s first OIG Portfolio synthesized an array of audit and evaluation work addressing
    improper payments for personal care services (PCS). Eligible beneficiaries can receive PCS
    under Medicaid State plan options or waivers. PCS must be provided at home or another
    approved location, must follow a specific plan of care, and are typically performed by care
    attendants. In the past 6 years, Medicaid costs for such services increased by 35 percent,
    totaling approximately $12.7 billion in 2011. In the same period, HHS/OIG issued 23 reports
    on PCS and conducted numerous investigations involving related fraud. Based on this global
    look at the body of HHS/OIG work on PCS, HHS/OIG recommended, among other things,
    that CMS issue guidance to States regarding adequate prepayment controls and provide States
    with the data they need to identify overpayments.




                                                52
Medicaid Home Health Services

•   HHS/OIG found that New York claimed Federal Medicaid reimbursement for home health
    services claims submitted by Certified Home Health Agencies (CHHAs) in New York City
    that were not in accordance with Federal and State requirements. Specifically, for 17 claims,
    the plan of care was not reviewed every 60 days, and for 1 claim, the provider was unable to
    document that the service was provided. Pursuant to Federal regulations, home health
    services are provided to a beneficiary at the beneficiary’s place of residence and on his or her
    physician’s orders as part of a written plan of care that the physician reviews every 60 days.
    On the basis of our sample results, HHS/OIG estimated that the State improperly claimed
    $69.1 million in Federal Medicaid reimbursement during our January 1, 2007, through
    December 31, 2009, audit period. HHS/OIG recommended that New York should refund
    $69.1 million to the Federal Government and issue guidance to CHHAs in New York City on
    Federal and State requirements for physicians’ orders and plans of care.

Medicaid Family-Based Treatment Rehabilitation Services

•   HHS/OIG found that New York improperly claimed a Federal share of family-based treatment
    (FBT) rehabilitation services that did not meet Federal and State requirements. FBT
    rehabilitation services include training and assistance with daily living skills, medication
    management, socialization, counseling, family support, and health services. Of the 100 claims
    in our random sample, 84 did not comply and 58 contained more than 1 deficiency. These
    deficiencies occurred because providers did not fully comply with State regulations,
    authorizing physicians were not familiar with applicable State regulations and program
    requirements, and the State did not adequately monitor the program. HHS/OIG
    recommended, among other things, that New York should refund $27.5 million to the Federal
    Government.

Medicaid Family Planning Services

The Federal Government pays its share of a State’s medical assistance expenditures under
Medicaid on the basis of the Federal medical assistance percentage, which varies depending on
the State's relative per capita income. Family planning services are reimbursed at an enhanced
90-percent rate. Family planning services are those that prevent or delay pregnancy or otherwise
control family size. Following are the results of family planning services reviews in Arkansas
and California.

•   HHS/OIG found that Arkansas claimed expenditures that did not qualify for the 90-percent
    rate for family planning. The expenditures exceeded limits specified in the State’s infant
    delivery allocation methodology and resulted from errors in compiling the family planning
    expenditures and from errors in the computer programming used to identify infant delivery
    costs. HHS/OIG recommended, among other things, that Arkansas refund to the Federal
    Government $1.9 million in family planning Federal share and work with CMS to determine
    the allowable portion of $929,000 in family planning Federal share that it received for
    allocated sterilization costs.
                                                 53
•   HHS/OIG found that California did not always comply with Federal and State requirements
    when claiming Federal reimbursement at the 90-percent rate for family planning services.
    The rate was unallowable because the primary purpose of the visits was not family planning,
    the visits were for follow-up properly reimbursed at the regular rate, or the supporting
    documentation was insufficient. HHS/OIG also found claims that contained either no
    procedure code or a procedure code that was not approved by CMS for reimbursement at the
    90-percent rate. HHS/OIG recommended, among other things, that California refund
    $5.7 million to the Federal Government.

Medicaid School-Based Services

•   HHS/OIG found that New Hampshire did not always claim Federal Medicaid reimbursement
    for school-based transportation services submitted by schools in accordance with Federal and
    State requirements during calendar years 2006 through 2009. Of the 115 items in a random
    sample, 78 items had 1 or more transportation services that were not reimbursable. The
    deficiencies occurred because New Hampshire issued incorrect guidance to the school
    administrative units (SAUs). In addition, the State did not adequately monitor the claims for
    Medicaid school-based transportation services submitted by SAUs. HHS/OIG recommended,
    among other things, that the State refund an estimated $2.7 million to the Federal
    Government.

•   HHS/OIG found that Arizona did not always maintain required documentation to support the
    random moment time study (RMTS) methodology used to allocate school-based
    administrative costs to Medicaid and the RMTS methodology was not fully consistent with
    Federal requirements. Federal law provides for States to be reimbursed at a 50 percent
    matching rate for administrative activities that directly support identifying and enrolling
    potentially eligible children in Medicaid. HHS/OIG recommended, among other things, that
    the State refund to the Federal Government $11.7 million for unallowable school-based
    administrative costs and work with CMS to determine the allowability of $18.8 million that
    we set aside for further analysis.

Medicaid Overpayments

•   HHS/OIG found that as of December 2012, CMS reported collecting $987.5 million of the
    $1.2 billion in Medicaid overpayments that it had sustained in the 147 audit reports issued by
    OIG between fiscal years 2000 and 2009. However, CMS had not collected the remaining
    $225.6 million. The uncollected amount related to overpayments that OIG had identified in
    10 audit reports that the States had not agreed to refund. In addition, CMS could not
    document that $7.2 million that it reported as collected had been collected. HHS/OIG
    recommended, among other things, that CMS collect the remaining $225.6 million that is due
    to the Federal government.




                                                54
Detecting Fraud in Medicare

•   HHS/OIG found deficiencies in CMS’s and its contractors’ ability to identify and respond to
    potential fraud by home health agencies. The two CMS Medicare Administrative Contractors
    (MACs) in this review prevented $275 million in HHA improper payments and referred
    several instances of potential fraud, but the four Zone Program Integrity Contractors (ZPICs)
    we reviewed did not identify any HHA-specific vulnerabilities and varied substantially in
    their efforts to detect and deter fraud. Two of the ZPICs recommended administrative actions
    and referred law enforcement cases for approximately eight times the number of HHAs as the
    other two. All four ZPICs served fraud-prone geographic areas. In addition, Medicare
    inappropriately paid five HHAs with suspended or revoked billing privileges. HHS/OIG
    recommended, among other things, that CMS establish additional contractor performance
    standards for high-risk providers in fraud-prone areas (including newly enrolled HHAs).

•   One of nine MACs reviewed by HHS/OIG performed activities to detect and deter fraud by
    community mental health centers in 2010, and most of the activities were part of a CMS-led
    special project. Activities to detect and deter CMHC fraud varied substantially among ZPICs
    in 2010; one ZPIC performed almost all such activities, most of which were part of the same
    CMS-led special project. Other MACs and ZPICs performed minimal activities to detect and
    deter fraudulent CMHC billing, despite having jurisdiction over fraud-prone areas. Also,
    Medicare paid CMHCs that did not comply with its requirements after their revocations were
    effective and while their revocations were being approved. HHS/OIG recommended, among
    other things, that CMS implement additional CMHC fraud mitigation activities in all fraud-
    prone areas.

•   CMS developed a Fraud Prevention System which uses predictive analytics to provide leads
    to its benefit integrity contractors for investigation. HHS/OIG found that in the first year of
    implementation, HHS did not fully meet the requirements for reporting actual and projected
    improper payments recovered and avoided in the Medicare fee-for-service program and
    reporting HHS’s return on investment related to its use of such technologies. HHS did not
    report some of the amounts required by statute and had inconsistencies in its data; in addition,
    its methodology for calculating other reported amounts included some invalid assumptions
    that may have affected the accuracy of those amounts. HHS/OIG’s recommendations
    included that HHS should require contractors to track recoveries that result from Fraud
    Prevention System leads and that HHS revise its methodologies to calculate projected savings
    and costs avoided.

•   Recovery Audit Contractors (RAC) are designed to protect Medicare by identifying improper
    payments and referring potential fraud to CMS. HHS/OIG found that in FYs 2010 and 2011,
    RACs identified half of all claims they reviewed as having resulted in improper payments
    totaling $1.3 billion. CMS took corrective actions to address the majority of vulnerabilities it
    identified in FYs 2010 and 2011; however, it did not evaluate the effectiveness of these
    actions. As a result, high amounts of improper payments may continue. Additionally, CMS
    did not take action to address the six referrals of potential fraud that it received from RACs.
    Finally, CMS’s performance evaluations did not include metrics to evaluate RACs’
                                                 55
    performance on all contract requirements. HHS/OIG recommended, among other things, that
    CMS take action, as appropriate, on vulnerabilities that are pending corrective action and
    evaluate the effectiveness of implemented corrective actions and ensure that RACs refer all
    appropriate cases of potential fraud.

Theft of Medicare Identities

•   HHS/OIG’s review of CMS’s response to known breaches of protected health information and
    to medical identity theft involving Medicare identification numbers revealed opportunities for
    improvement. Although CMS notified Medicare beneficiaries affected by known breaches,
    HHS/OIG found that several requirements were not met. CMS has made progress in
    responding to medical identity theft by developing a compromised number database for
    contractors, but the database’s usefulness could be improved. Further, Medicare’s contractors
    do not consistently develop edits to stop payments on compromised numbers. HHS/OIG
    recommended, among other things, that CMS ensure that breach notifications meet statutory
    requirements, and improve the compromised number database.

Part C and Part D Program Integrity Activities

•   HHS/OIG’s review of the Medicare Drug Integrity Contractor (MEDIC) that has
    responsibility for preventing fraud, waste, and abuse in both Medicare Part C and Part D
    revealed that its Part C investigations and case referrals represented only a small percentage of
    its benefit integrity activities. HHS/OIG identified several problems hindering the MEDIC’s
    ability to identify and investigate fraud and abuse in Part C and Part D. HHS/OIG
    recommendations included that CMS amend its regulations to require Part C and Part D plan
    sponsors to refer potential fraud and abuse incidents to the MEDIC and authorize the MEDIC
    to directly obtain information from entities such as pharmacies, physicians, and pharmacy
    benefit managers.

Payments for Individuals Ineligible for Medicare

HHS/OIG audited Medicare payments made for patients who were not lawfully present in the
United States or were incarcerated. Unlawful presence occurs when a non-U.S. citizen remains in
the United States longer than the time authorized by U.S immigration agencies. Incarcerated
patients are people who are under arrest, are imprisoned, reside in a halfway house, or are
required to live under home detention. Medicare does not make payments for the care of
unlawfully present patients and generally does not pay for incarcerated patients.

•   HHS/OIG found that CMS’s controls were not adequate to ensure that all improper payments
    for services to unlawfully present beneficiaries were detected and recouped. Also, when CMS
    received untimely information indicating that the unlawful presence overlapped with the dates
    of service on previously paid Medicare claims, CMS did not notify Medicare’s contractors of
    this updated information. HHS/OIG recommended, among other things, that CMS ensure that
    Medicare contractors recoup the $91.6 million in improper payments and that CMS
    implement administrative policies and procedures to detect and recoup improper payments
                                                 56
    made for Medicare services when information relating to the unlawful presence is received on
    previously paid Medicare claims.

•   HHS/OIG found that CMS’s controls were not adequate to ensure that all improper payments
    for services to incarcerated beneficiaries were detected and recouped and that CMS does not
    always receive timely updates regarding incarceration information before Medicare
    contractors pay providers on behalf of incarcerated beneficiaries. In addition, when CMS’s
    data systems did not indicate until after a claim had been processed that a beneficiary was
    incarcerated; CMS’s controls were not adequate to identify and recoup the improper
    payments. HHS/OIG recommended that CMS ensure that Medicare contractors recoup the
    $33.6 million in improper payments and that CMS implement administrative policies and
    procedures to detect and recoup improper payments when incarceration information is
    received on previously paid Medicare claims.

Medicare Payment for Cancelled Surgeries

•   HHS/OIG estimated that, on the basis of sample results, Medicare made $38.2 million in Part
    A inpatient hospital payments in calendar years 2009 and 2010 for short-stay, canceled
    elective surgery admissions that were not reasonable and necessary. For 80 of the 100 claims
    in the sample, Medicare made payments totaling $346,000 for hospital inpatient claims
    involving canceled elective surgeries when a clinical condition did not exist on admission or a
    new condition did not emerge after admission that required inpatient care. Therefore, these
    inpatient claims did not satisfy Medicare’s requirements that the admissions be reasonable and
    necessary. HHS/OIG’s recommendations included that CMS adjust the 80 sampled claims
    representing overpayments of $346,000 to the extent allowed under the law and strengthen
    guidance to better explain the Medicare rule that a clinical condition requiring inpatient care
    must exist for hospitals to bill for Part A prospective payments for elective surgeries that were
    canceled.

Medicare Medical Equipment and Supplies

•   HHS/OIG found that two years after the surety bond requirement for medical equipment
    suppliers was implemented, CMS did not have accurate surety bond information for all
    suppliers. Information for thousands of bonded suppliers was missing, and surety bond
    amounts were not consistently maintained by supplier location. CMS can only collect
    $50,000 per bonded supplier, so it is unlikely going to be able to reconcile surety bond
    collections with the tens of millions of dollars in overpayments owed by suppliers. HHS/OIG
    recommended, among other things, that CMS improve oversight of supplier data to ensure
    accurate and consistent information and immediately begin using the surety bond requirement
    to recover outstanding overpayments.

Medicare Payments for Drugs

•   Herceptin (Trastuzumab) is a Medicare-covered drug used to treat breast cancer that has
    spread to other parts of the body. HHS/OIG conducted six reviews of Medicare contractors’
                                                 57
    payments for Herceptin and identified improper payments. HHS/OIG found that providers
    reported incorrect units of service on line items with unit counts that represented full multiuse
    vials, did not provide supporting documentation, billed for unallowable services, and reported
    a combination of incorrect units of service and incorrectly coded claims. The Medicare
    contractors made these incorrect payments because neither the Fiscal Intermediary Standard
    System nor the Common Working File had sufficient edits in place during our audit period to
    prevent or detect the overpayments. HHS/OIG recommended that the responsible Medicare
    contractors recover the identified overpayments, implement or update system edits that
    identify for review multiuse-vial drugs that are billed with units of service equivalent to the
    dosage on an entire vial(s), and use the results of the audits in provider education activities.

Medicare Skilled Nursing Facilities

Skilled nursing facilities (SNFs) are nursing homes that provide skilled care to Medicare patients.
SNFs are required to evaluate each patient’s needs and develop a care plan specifically for that
patient. Care plans identify problems and set specific treatment goals.

•   HHS/OIG found that Medicare paid approximately $5.1 billion for stays in which SNFs did
    not meet quality-of-care requirements. In addition, HHS/OIG found that for 37 percent of
    stays, SNFs did not develop care plans that met requirements or did not provide services in
    accordance with care plans. For 31 percent of stays, SNFs did not meet discharge planning
    requirements. Additionally, reviewers found examples of poor quality care related to wound
    care, medication management, and therapy. HHS/OIG recommended, among other things,
    that CMS strengthen its regulations on care planning and discharge planning.

•   HHS/OIG found that SNFs misreported information to Medicare; as a result, inappropriate
    payments were made. In addition, SNFs billed one-quarter of claims in error in 2009; the
    incorrect claims resulted in about $1.5 billion in inappropriate Medicare payments. For 47
    percent of claims, SNFs misreported information on the Minimum Data Set (MDS), the
    system used to classify beneficiaries into resource utilization groups (RUGs) for payment.
    Some SNFs incorrectly reported items such as therapy and activities of daily living, thereby
    placing beneficiaries into higher paying RUGs. HHS/OIG recommended, among other things,
    that CMS change the current methodology for determining how much therapy is needed to
    ensure appropriate payments.

Medicare Incentive Payments for Electronic Health Records

•   To qualify for Medicare incentive payments for the use of electronic health records (EHRs),
    professionals and hospitals must possess certified EHR technology and meaningfully use that
    certified EHR technology in accordance with requirements defined by CMS. Professionals
    and hospitals self-report data to demonstrate that they meet program requirements. HHS/OIG
    found that CMS does not verify the accuracy of professionals’ and hospitals’ self-reported
    information prior to payment because data necessary for verifications are not readily
    available. CMS also does not direct high-risk professionals and hospitals to submit supporting
    documentation for prepayment review. HHS/OIG recommended, among other things, that
                                                 58
    CMS obtain and review supporting documentation from selected professionals and hospitals
    before payment to verify the accuracy of their self-reported information.

Medicare Part C Capitation Payments

Under the Medicare Advantage (MA) program, CMS makes monthly capitated payments to MA
organizations for beneficiaries enrolled in the organizations’ health care plans. These payments
are adjusted on the basis of the health status of each beneficiary. CMS uses a model to calculate
these risk-adjusted payments. Under this model, MA organizations collect risk adjustment data,
including beneficiary diagnoses, from hospitals and other providers. CMS uses the diagnosis data
to calculate a risk score for each beneficiary, which is in turn used to adjust the monthly capitated
payments to MA organizations. HHS/OIG conducted two audits to determine the accuracy of
MA organizations’ calculation of risk scores.

•   HHS/OIG found that for CY 2007 Bravo Health Pennsylvania, Inc.’s, submissions of
    diagnoses did not always comply with Federal requirements. The risk scores calculated using
    the diagnoses that Bravo submitted for 35 of the 100 beneficiaries in the sample were valid.
    However, the risk scores for the remaining 65 beneficiaries were invalid because the
    diagnoses were not supported by adequate documentation. As a result, Bravo received
    $422,409 in overpayments from CMS. On the basis of these sample results, HHS/OIG
    estimated that Bravo was overpaid approximately $22.1 million in CY 2007. HHS/OIG
    recommended, among other things, that Bravo refund to the Federal Government $422,409 in
    overpayments identified for the sampled beneficiaries and that Bravo work with CMS to
    determine the correct contract-level adjustment for the projected $22.1 million of projected
    overpayments.

•   HHS/OIG found that for CY 2007 CIGNA Healthcare of Arizona, Inc.’s, submissions of
    diagnoses did not always comply with Federal requirements. For 60 of the 100 beneficiaries
    in our sample, the risk scores calculated using the diagnoses that CIGNA submitted were
    valid. The risk scores for the remaining 40 beneficiaries were invalid because the diagnoses
    were not supported by adequate documentation. As a result, CIGNA received $151,453 in
    overpayments from CMS. Based on these sample results, HHS/OIG estimated that CIGNA
    received approximately $28.4 million in additional overpayments for CY 2007. HHS/OIG
    recommended, among other things, that CIGNA refund to the Federal Government $151,453
    in overpayments identified for the sampled beneficiaries and that Bravo work with CMS to
    determine the correct contract-level adjustment for the projected $28.4 million of projected
    overpayments.

Medicare Part D Drugs

•   HHS/OIG found that over 1 million individual prescribers ordered drugs paid by Part D in
    2009. Prescribing patterns varied widely by specialty. Over 700 general-care physicians had
    questionable prescribing patterns. Each of these physicians prescribed extremely high
    amounts for at least one of five measures. For example, many of these physicians prescribed
    extremely high numbers of prescriptions per beneficiary, which may indicate that these
                                                59
    prescriptions are medically unnecessary. Moreover, more than half of the 736 general-care
    physicians with questionable prescribing patterns ordered extremely high percentages of
    Schedule II or III drugs, which have potential for addiction and abuse. Although some of this
    prescribing may be appropriate, such questionable patterns warrant further scrutiny.
    HHS/OIG recommended that CMS instruct the MEDIC to expand its analysis of prescribers,
    provide sponsors with additional guidance on monitoring prescribing patterns, provide
    education and training for prescribers, and follow up on prescribers with questionable
    prescribing patterns.

•   HHS/OIG found that nationwide, Part D inappropriately paid for drugs ordered by individuals
    who clearly did not have the authority to prescribe, such as massage therapists, athletic
    trainers, home contractors, interpreters, and transportation companies. This raises concerns
    about the appropriateness of Part D payments and about patient safety. In 10 States, Part D
    also inappropriately paid for drugs ordered by other individuals without the authority to
    prescribe, such as counselors, social workers, and chiropractors. Tens of thousands of these
    drugs were controlled substances. These drugs are of particular concern because they have
    potential for abuse. HHS/OIG recommended that CMS require sponsors to verify that
    prescribers have the authority to prescribe drugs, increase the MEDICS’s monitoring of
    prescribers, ensure that Medicare does not pay for prescriptions from individuals without
    prescribing authority, and follow up on the individuals without prescribing authority who
    ordered prescriptions.

Other Fraud and Abuse Prevention Activities

HHS/OIG’s HEAT Provider Compliance Training initiative (HEAT PCT), launched in 2011,
provided free, high-quality compliance training for providers, compliance professionals, and
attorneys in Strike Force cities and elsewhere, and online. Following six live presentations in
FY 2011, HHS/OIG made available online the comprehensive training materials it developed to
accompany HEAT PCT, together with sixteen video modules dividing the presentation by subject
area. HEAT PCT continues to reach the health care community with HHS/OIG’s message of
compliance and prevention via these online offerings, which in FY 2012 expanded to include a
series of twelve free, downloadable video and audio podcasts that summarize a range of
compliance topics.

HCFAC funding also supported HHS/OIG’s continued enhancement of data analysis and mining
capabilities for detecting health care fraud, including tools that allow for complex data
analysis. OIG continues to use data mining, predictive analytics, trend evaluation, and modeling
approaches to better analyze and target the oversight of HHS programs. Analysis teams use near-
time data to examine Medicare claims for known fraud patterns, identify suspected fraud trends,
and to calculate ratios of allowed services as compared with national averages, as well as other
assessments. When united with the expertise of OIG agents, auditors, and evaluators, as well as
our HEAT partners, HHS/OIG’s data analysis fosters a highly effective combination of
technologies and traditional skills to the fight against fraud, waste, and abuse.



                                               60
Industry Outreach and Guidance

Advisory Opinions

Central to the HIPAA guidance initiatives is an advisory opinion process through which parties
may obtain binding legal guidance as to whether their existing or proposed health care business
transactions run afoul of the AKS, the CMP laws, or the exclusion provisions. During FY 2013,
the HHS/OIG, in consultation with DOJ, issued 23 advisory opinions, including two
modifications of advisory opinions. A total of 299 advisory opinions have been issued during the
17 years of the HCFAC program.

Corporate and Other Integrity Agreements

Many health care providers that enter agreements with the government to settle potential
liabilities for violations of the FCA also agree to adhere to a separate CIA, Integrity Agreement,
or other similar agreement. Under these agreements, the provider or supplier commits to
establishing a program or taking other specified steps to ensure its future compliance with
Medicare and Medicaid rules. At the close of FY 2013, HHS/OIG was monitoring compliance
with 201 such agreements.

                       Centers for Medicare & Medicaid Services
In FY 2013, CMS was allocated approximately $12.5 million by HHS, and appropriated
$237.3 million in discretionary funds by Congress to support its comprehensive program integrity
strategy for Medicare, Medicaid and the Children’s Health Insurance Program (CHIP). With
these funds, CMS is working to ensure that public funds are not diverted from their intended
purpose: to make accurate payments to legitimate entities for allowable services or activities on
behalf of eligible beneficiaries of federal health care programs. CMS also performs many
program integrity activities that are beyond the scope of this report because they are not funded
directly by the HCFAC Account or discretionary HCFAC funding. Medicare Fee-for-Service
error rate measurement and activities, and Recovery Audit activities are discussed in separate
reports, and CMS will submit a combined Medicare and Medicaid Integrity Program report to
Congress later this year.

Our approach is guided by four major principles that support the strategic goal of improving
program integrity:

   1.   Prevention
   2.   Detection
   3.   Transparency and Accountability
   4.   Recovery




                                                61
1.   Prevention
Moratoria

Building on strong anti-fraud efforts already underway in the home health provider and
ambulance supplier arenas, CMS in July 2013 announced the first use of its temporary moratoria
authority granted by the Affordable Care Act. The moratoria stops the enrollment of new home
health and ambulance enrollments in Medicare, Medicaid and the Children’s Health Insurance
Program (CHIP) in three fraud “hot spot” areas of the country with demonstrated oversupply of
certain types of providers. The temporary enrollment moratoria apply to newly-enrolling home
health agencies in the Miami and Chicago metropolitan areas; and newly-enrolling ground
ambulance companies in the Houston metropolitan area.

The goal of the temporary moratoria is to fight fraud and safeguard taxpayer dollars, while
ensuring patient access to care. Under the moratoria, existing providers and suppliers can continue
to deliver and bill for services, but no new provider and supplier applications will be approved in
these areas, allowing CMS and its law enforcement partners to remove bad actors from the
program while blocking provider entry or re-entry into these already over-supplied
markets. CMS is required to re-evaluate the need for such moratoria every six months.
One Program Integrity

In FY 2013, CMS continued making improvements and changes to One Program Integrity (One
PI), CMS’ centralized portal that provides CMS contractors and law enforcement with a single
access point to Medicare data as well as analytic tools to review the data. CMS moved from an
integration contractor to a system support contractor while continuing to enhance the existing
analytic tools. One PI improves CMS’ ability to detect fraud, waste, and abuse with consistent,
reliable, and timely analytics.

One PI users have access to the CMS Integrated Data Repository (IDR) to perform data analytics.
The IDR contains a comprehensive and accurate set of Medicare provider, beneficiary and claims
data from Medicare Parts A, B, and D back to January 2006. The IDR includes claims data at
three distinct points in the claim life-cycle: at the time the claims are enumerated, the time claims
are adjudicated, and at the time the claims have payment data posted. This access allows users to
perform pre-payment analytics on historical data and develop models that can be applied in CMS’
predictive analytics system, the Fraud Prevention System. With claims available from 2006,
ZPICs will also be able to improve their analytics for post-payment detection of fraud, waste, and
abuse.
In order to streamline access for our law enforcement partners, CMS is transitioning STARS, a
healthcare fraud, waste, and abuse analytics tool to the One PI suite tools in 2013. The One PI
team is also replacing on-site instructor led training with virtual instructor led training to reduce
training costs and provide better access to training for law enforcement
Next Generation Desktop

The Next Generation Desktop (NGD) was developed to provide single access point that interacts
                                           62
with all Medicare claims processing systems and multiple other government data sources. NGD
has been adapted for law enforcement purposes, providing investigators the ability to examine all
claims associated with a specific provider tax ID or a Medicare beneficiary. CMS implemented
enhancements to the Next Generation Desktop in September 2012. These enhancements are a
result of collaboration between CMS, National Government Services (NGS), the NGD contractor,
and Medicare Administrative Contractor (MAC), with specific requests from law enforcement for
enhanced views of provider data. CMS and NGS developed tailored training material for law
enforcement partners and have conducted several 3-day training sessions in FY 2013. CMS
trained 100 individuals in FY 2013.
Compromised Number Checklist

Since January 2010, CMS has maintained a national database of compromised Medicare
beneficiary and provider ID numbers called the Compromised Number Checklist (CNC). This
database is populated by monthly submissions from CMS program integrity contractors. The
purpose of the CNC is to share compromised ID numbers and any associated corrective actions
that have been taken among CMS staff and contractors. CMS uses this national CNC database to
enhance efforts to detect and prevent fraud and abuse in Medicare.

The compromised numbers list is updated on an ongoing, real-time basis by the PSCs/ZPICs and
MEDIC.
The Command Center

CMS opened its state-of-the-art Command Center on July 31, 2012 to facilitate improvements in
health care fraud detection and investigation, drive innovation, and help reduce fraud and
improper payments in the Medicare and Medicaid programs. The Command Center provides
advanced technologies and collaborative environment for a multi-disciplinary team of experts and
decision makers to more efficiently coordinate policies and case actions, reduce duplication of
efforts, and streamline fraud investigations for more immediate administrative action.

CMS is using the Command Center to collaborate in unprecedented ways with the private sector,
law enforcement, and our State partners. The Command Center’s advanced technologies and
collaborative environment allow multi-disciplinary teams of experts and decision makers to more
efficiently coordinate policies and case actions, reduce duplication of efforts, and streamline fraud
investigations for more immediate administrative action. These collaborative activities enable
CMS to take administrative actions, such as revocations of Medicare billing privileges and
payment suspensions, more quickly and efficiently.

In FY 2013, the Command Center conducted 93 missions that included participants from CMS
and our partners, including the OIG and FBI, that are designed to lead to improvements in the
fraud prevention and detection process. Missions are facilitated collaboration sessions that bring
together experts from various disciplines to improve the processes for fraud prevention in
Medicare and Medicaid. Approximately 870 experts met since the opening of the Command
Center representing policy analysts, investigators, lab modelers, FBI, OIG, ZPICS, field office
staff, clinicians, Contracting Officer Representatives (CORs), and other CMS staff. CMS is also
                                                 63
working with other Federal agencies in the Command Center to pool resources to tackle cross-
cutting issues surrounding fraud prevention.
DME Initiatives

DME suppliers pose a high risk of fraud to the Medicare Program and CMS has undertaken an
aggressive strategy to address this risk. Through the DME Stop Gap Project, initiated in 2009,
ZPICs/PSCs have increased site visits and interviews of DME suppliers, providers, and
beneficiaries receiving DME products in high billing areas for DME supplies and products. In
FY 2013, these additional funds supported DME investigations which included site visits to, and
interviews of, suppliers, doctors and patients that were identified as potentially suspicious or high
risk.
Medicaid and CHIP Business Information Solutions (MACBIS)

The Medicaid and CHIP Business Information Solutions (MACBIS) is a CMS enterprise-wide
initiative to modernize and transform the information and data exchanges with States and other
key health reform stakeholders in order to ensure we have high performing Medicaid and CHIP
programs. This initiative creates a more robust and comprehensive information management
strategy for Medicaid and CHIP. We have designed a “transformed data state” that will, for the
first time, integrate Medicaid and CHIP program, operational, quality, and performance data.
Specifically, the data will be used to support detection of fraudulent patterns in State Medicaid
programs as well as comparative analytics across state lines. Implementation of the Transformed-
Medicaid Statistical Information System (T-MSIS) by states will be on a rolling basis with a goal
of all states submitting data by July 1, 2014. T-MSIS is an expansion of the existing CMS
Medicaid Statistical Information System (MSIS) extract process. The new T-MSIS extract format
is expected to further CMS and State’s goals for improved timeliness, reliability, and more robust
data analysis process through monthly updates and an increase in the amount of data provided.

The accomplishments for FY 2013 include:

   •   MACBIS – Implement change control process for the MACBIS program, of which
       MACPro and T-MSIS are the two main projects within. The change control process
       coordinates and manages change across both projects which provide efficiencies and
       eliminates duplication.

   •   T-MSIS – Awarded the Baltimore Data Center and Virtual Data Center Contract which
       will provide the infrastructure to accept, validate and house T-MSIS data from states from
       a short term and long term perspective. Awarded the Development and Testing contracts
       that will develop and test the receipt and control of the submitted T-MSIS files, validation
       routines for ensuring data quality and storage capacity for the T-MSIS data. In addition,
       provided project management and technical assistance to states during the on-boarding
       process for migrating from MSIS to T-MSIS.

   •   MACPro – While MACPro is being designed and developed, we implemented an interim
       technology solution to support the data collection of Medicaid and CHIP and Alternative
                                                 64
         Benefit Plan State Plan Amendments for meeting the October 1, 2013 Affordable Care
         Act mandates.

     •   Information Technology Support – Integrated MACBIS processes into CMS’s enterprise
         shared services efforts including, master data management, identity management, and
         portal development.

Outreach & Education Campaign

In FY 2013, CMS developed and implemented a multimedia outreach and education
campaign. The campaign included national television, radio, print and outreach to specific ethnic
communities where Medicare fraud is more prevalent. The advertising campaign ran from May 27
- August 11, 2013, resulted in increased awareness of how to detect and report Medicare fraud.

2.   Detection

Strengthened Program Integrity Activities in Medicare Advantage and Medicare Part D

In FY 2013, CMS enhanced its data analysis and improved coordination with law enforcement to
get a more comprehensive view of activities in the Medicare Advantage (MA) and Prescription
Drug (Part D) programs. All MA and Part D plan sponsors are required to have a comprehensive
plan to detect, correct and prevent fraud, waste and abuse. This plan consists of written policies,
procedures, and standards that articulate the organization’s commitment to comply with all
applicable federal and state standards related to fraud and abuse. Sponsors must have a properly
trained, effective compliance officer, and provisions for internal monitoring and auditing, as well
as other requirements. These requirements help ensure that sponsors track and identify potential
beneficiary or provider abuse. CMS issued Compliance Program Guidelines in Chapter 9 of the
“Prescription Drug Benefit Manual” (PDBM) and Chapter 21 of the “Medicare Managed Care
Manual” Both Chapters are identical, and apply equally to Medicare Advantage Plans and
Prescription Drug Plans.

To combat fraud, waste and abuse more effectively, CMS evaluates sponsors operations to ensure
that they are compliant with the regulations and guidance. CMS also contracts with a private
organization, called the Medicare Drug Integrity Contractor (MEDIC), to assist CMS in managing
audit, oversight and anti-fraud efforts. The MEDIC’s main functions include identifying and
investigating potential fraud, and abuse, developing cases for referral to law enforcement
agencies, acting as a liaison to law enforcement and collaborating with sponsors on the
identification of potentially fraudulent schemes.

In FY 2013, CMS continued to invest HCFAC discretionary funds to strengthen Medicare
Advantage (Part C) and Part D oversight, including:

     •   Managing all incoming complaints about Part C and Part D fraud, waste, and abuse;
     •   Utilizing new and innovative techniques to monitor and analyze information to help
         identify potential fraud;

                                                65
   •   Working with law enforcement, MA, and prescription drug plans, consumer groups, and
       other key partners to protect beneficiaries and enforce Medicare’s rules;
   •   Providing basic tips for beneficiaries on how to protect themselves from potential scams;
   •   Identifying program vulnerabilities; and
   •   Performing proactive research utilizing all available data to find trends in order to ferret
       out fraud, waste, and abuse activities.

As of June 2013, the national benefit integrity MEDIC received on average approximately 532
actionable complaints per month; processed 35 requests for information from law enforcement
per month; and referred an average of 34 cases to law enforcement per month. CMS also hosted
quarterly workgroup meetings to promote information sharing on the latest fraud schemes.
Representatives from sponsoring organizations, Pharmacy Benefit Managers, CMS, law
enforcement, and CMS Program Integrity Contractors gather to share information and discuss
current fraud trends and anti-fraud efforts.

In FY 2011, CMS established a contract for Medicare Part C and Part D outreach and education.
This contractor is responsible for providing support in designing, developing and implementing
compliance training, education and outreach for internal and external stakeholders, including plan
sponsors. In addition, this contractor supports the development of tools, models and program best
practices to share and communicate goals and expectations in order to reinforce CMS’ approach
to compliance and enforcement. CMS continued efforts to do this by successfully broadcasting
the 2013 Medicare Advantage & Prescription Drug Plan Spring Conference using webcast
technology. This conference provided guidance and real time information on significant topics
such as benefits and formulary updates for 2014; Part C and Part D monitoring, as well as
marketing, surveillance and compliance updates.

Since 2011, CMS has been taking steps to ensure that valid prescriber identifiers accompany Part
D claims, and that the MEDIC and plan sponsors are monitoring pharmacy billing patterns. In
2011, to enhance then existing practice and in collaboration with the Drug Enforcement
Administration (DEA), we directed Part D sponsors to ensure that the prescriber identifier
submitted on a Prescription Drug Event (PDE) record was active and valid starting in the 2012
coverage year, whether it was a National Provider Identifier (NPI), DEA number, unique
physician identifier number, or state license number. Additionally, we began validating the
format of all prescriber identifiers on PDEs that were coded as an NPI and excluded from
payment reconciliation PDEs with invalid NPIs. We began assessing each sponsor’s performance
regarding NPI use and validity and notified them of their performance. We also directed Part D
sponsors to check that all prescriptions for controlled substances under Part D were associated
with DEA numbers that indicated there was appropriate authority to prescribe the controlled
substance.

Through rulemaking finalized in 2012, CMS required Part D sponsors to submit PDEs with active
and valid individual prescriber NPIs, beginning January 1, 2013. CMS, through the annual
Medicare “Dear Doctor” letter, explained the NPI requirement to prescribers. CMS began to deny
any PDE without an active and valid NPI beginning on May 6, 2013. We have continued to
assess each sponsor’s performance regarding NPI use and validity of submitted NPIs and notified
                                                66
sponsors of their performance in preparation for this deadline. Based on this assessment, we
found that 99.6 percent of the 2013 PDEs received during the first quarter of the coverage year
reported the prescriber’s NPI; all but 0.002 percent of the reported NPIs were valid and currently
active, or active within a year of the date of service. We also examined the taxonomy codes,
which are self-reported by the providers to identify their specialty. We found 0.5 percent of these
codes would be unreasonable for a prescriber. Based on a review of the PDEs reporting these
unreasonable taxonomy codes, CMS determined that about 10.6 percent were for controlled
substances. We further determined that all but 16.5 percent of these PDEs for controlled
substance the prescriber in fact did have a valid DEA number.

These actions ensure improved sponsor compliance with PDE reporting requirements, enhance
CMS’s ability to review claims data to identify possible fraud and abuse, and help determine
whether prescribers of controlled substances are writing prescriptions in accordance with their
DEA registration.

Additionally, CMS is working to improve the data available for MA oversight. In January 2012,
CMS required MA plan sponsors to begin submitting Part C data to its new Encounter Data
System. This new requirement will enable the MEDIC to undertake future Part C projects once
the Part C data is located in a central repository.

In addition to the work of the MEDICs, CMS enhanced other Part C and Part D oversight
functions in FY 2013 to address new complexities facing law enforcement, contract and plan
oversight functions, monitor plan performance assessment and surveillance/secret shopper
activities, audit programs, and conduct routine compliance and enforcement tracking. Also in FY
2013, CMS conducted 30 program audits of sponsoring organizations and tested plan policies and
procedures for compliance with program requirements in the following areas: Part D formulary
and benefit administration, Part C and D organizational/coverage determinations, appeals, and
grievances; outbound enrollment verification, special needs plans’ models of care, and
compliance program effectiveness. The organizations audited provide MA and Part D services to
21 percent of the beneficiaries enrolled in MA and Part D as of April 2013.

Marketing Surveillance Activities

CMS also strengthened program integrity in MA and Part D through marketing surveillance
activities and compliance actions based on surveillance activities. In FY 2013, CMS conducted
marketing surveillance activities, such as secret shopping and examining newspaper ads for
unreported marketing events and content. These activities have improved plan sponsor oversight
of marketing and lessened incidents of agent/broker misconduct.

Secret Shopping
Secret shopping provides undercover surveillance of formal MA, MA-PD, and PDP marketing
events. Plan sponsors report formal sales/marketing events to CMS from which contractors and
CMS identify a sampling of events to secret shop. Shoppers use a CMS developed tool to
facilitate and electronically record their evaluations of marketing events’ compliance with CMS
requirements. The tool is designed to capture various compliance aspects of the representatives’
or agents’ presentations, actions and provided materials. Additionally, it collects general
                                                   67
information about the event, such as the number of people in attendance, the type of venue where
the event was held, and the language in which the agent presented the event.

For the 2013 Annual Enrollment Period (AEP), CMS conducted 1,781 secret shopping events Of
the events shopped, 1,176 (65.7%) had no validated deficiencies and were considered entirely
compliant with Medicare regulations.

Of the 114 parent organizations shopped, 23 (or 20.2%) had no validated deficiencies noted.
These 23 parent organizations represented 605 shops or approximately 33% of the total completed
shops. Forty-five (2.4%) of the completed shops were presented in a language other than English,
including:

   •    24 events presented in Spanish;
   •    15 events presented in Cantonese or Mandarin;
   •    2 events presented in Armenian;
   •    1 events presented in Korean;
   •    1 event presented in Russian; and,
   •    1 event presented in Vietnamese.

Compliance Actions Based on Surveillance Activities

CMS issues the following types of letters to sponsors who have had deficiencies related to our
surveillance:

    •   Technical Assistance Letters (TAL) (not formal compliance notices);
    •   Notices of Non Compliance (NONC);
    •   Warning Letters with a Request for Business Plan; and,
    •   Ad-hoc Corrective Action Plans (CAPs).

To determine the appropriate action for deficiencies identified by secret shopping, CMS
developed an objective, data-driven, and performance-based model. This model not only
automated the review process, but also accounted for the seriousness of each deficiency to
develop proper compliance action for identified deficiencies. Within this model, CMS
categorized each deficiency and assigned a weighted value: administrative errors (1 point), errors
of omission (2 points), undue beneficiary influence or harm (4 points), and marketing
misrepresentations (6 points). To determine a plan sponsor’s overall performance score (OPS),
CMS added the total number of points for all shops for each plan sponsor and divided by the total
number of shops conducted for that plan sponsor.

The following three tables provide additional information on our process and findings. The first
table shows how the OPS score is determined, while the second table is CMS’ tool to determine
what type of compliance action should be issued based on the OPS score. Finally, the Compliance
Action table provides a break out, by risk, of the types of compliance actions taken and how many
of each action were taken.

                                                68
                        OPS Ranges and Corresponding Compliance Actions


                       Overall Shopping         Compliance Action Taken
                       Performance Score
                       Range
                       0.01 – 1.49              Technical Assistance Letter
                       1.50 – 3.49              Notice of Non-Compliance
                       3.50 – 6.99              Warning Letter with
                                                Business Plan
                       7.00+                    Ad–hoc CAP

                   Compliance Actions Taken by Risk Level for Secret Shopping

                         Action b             High   Medium       Low         Total
                Technical Assistance Letter   105      72          13          183
                Notice of Non-Compliance       2        1           1           4
                     Warning Letter            2        0           0           2
                   Total Letters Issued       109      73          14          189

The unreported marketing events initiative is an attempt to determine if plan sponsors
appropriately reports and represented their sales events activity to CMS. Daily and weekly print
publications in U.S. domestic markets nationwide, including advertisements in several non-
English languages are reviewed. CMS conducted reviews of 4,846 Medicare advertisements
representing 8,699 total advertised events. These advertisements represented events hosted by 36
plan sponsors.

Of those advertisements reviewed, CMS identified 406 marketing events that were unreported,
indicating a deficiency for each plan sponsor that had failed to submit a marketing event. Based
on the results, CMS issued 18 TALs and 4 NONCs to plan sponsors related to unreported
marketing events. NONCs were issued to plan sponsors that incurred deficiency rates of 5% or
higher.

Medicare Advantage Encounter Data Processing System Contract

The Medicare Advantage (MA) Encounter Data Processing System (EDPS) is currently being
maintained and modified out of guidance published in the final FY 2009 inpatient prospective
payment system (IPPS) rule. In that rule, CMS revised regulations to clarify that CMS has the
                                                69
authority to require MA organizations to submit encounter data for each item and service
provided to MA plan enrollees. Consistent with this authority, CMS is requiring MA
organizations to submit encounter data for dates of service January 3, 2012 and later. MA plans
are required to submit data for all institutional, professional and DME services provided to MA
plan enrollees on or after that date.

What program needs will EDPS be addressing? Over the past several years there has been
dramatic growth in the Medicare Advantage program. Today, one-fourth of Medicare
beneficiaries are enrolled in Medicare Advantage plans. CMS pays Medicare Advantage
organizations approximately $145 billion per year for the care provided to these 15 million
beneficiaries. Previously, CMS had not collected encounter data, which will provide CMS with
information that is equivalent to the information provided on a FFS claim record. The diagnosis
data provided on these claims will be used to risk adjust payments and, as a result, CMS will need
complete encounter data records for the MA population being served. Sampling is not an option
for processing the approximately 500 million encounter data claims any more than it would be for
processing Medicare FFS claims.

To better ensure that CMS is a more prudent purchaser, in January 2012 agency launched an
initiative to collect encounter data from Medicare Advantage organizations. The encounter data
detail each item and service provided to enrollees of Medicare Advantage organizations. These
records are comparable in format and detail to claims submitted to the MACs by FFS providers.

How will CMS use the data collected by EDPS? CMS will use encounter data to determine the
risk adjustment factors used to adjust payments, as required under CMS regulations at 42 CFR
§422.304, to update risk adjustment models, to calculate Medicare Disproportionate Share
Hospital percentages, for Medicare coverage purpose and to conduct quality review and
improvement activities. The collection of MA encounter data is expected to provide CMS with a
more complete picture of MA member utilization.

Medicaid/CHIP Financial Management Project

Under this project, funding specialists, including accountants and financial analysts, worked to
improve CMS’s financial oversight of the Medicaid program and CHIP. In FY 2013 through the
continued efforts of these specialists, CMS removed an estimated $2.7 billion (with
approximately $375 million recovered and $2.4 billion resolved) of approximately $9.7 billion
identified in questionable Medicaid costs.

Furthermore, an estimated $188 million in questionable reimbursement was actually averted due
to the funding specialists’ preventive work with states to promote proper state Medicaid
financing. The funding specialists’ activities included reviews of proposed Medicaid state plan
amendments that related to reimbursement; development of financial management reviews;
research regarding state Medicaid financing policy and practices; collaboration with states to
resolve the Medicaid and CHIP portions of the A-133 “Single State” audits; and identification of
sources of the non-Federal share of Medicaid program payments to ensure proper financing of
Medicaid program costs.

                                               70
HHS-OIG Hotline Database

CMS and its contractor use the OIG Hotline database to perform program integrity activities.
Specifically, the contractor currently receives and processes the complaints OIG refers to CMS.
OIG receives complaints through its TIPS Hotline and uploads certain complaints to the OIG
Hotline database for review by CMS. The complaints from both the OIG Hotline and 1-800-
Medicare have been in two separate databases and followed two distinct processes for resolution.
These processes will improve as we consolidate and integrate all the complaints received from
OIG and 1-800-MEDICARE. The CMS contractor is coordinating this effort with the OIG, ECM
and NGD. CMS and the OIG anticipate implementing the new process by September, 2014.

3.   Transparency and Accountability
Healthcare Fraud Prevention Partnership

One of the Secretary’s key health care fraud prevention initiatives is to establish an ongoing
partnership with the private sector to fight fraud across the health care system. Data collected and
shared across payers can assist payers in evaluating trends, recognizing patterns consistent with
potential fraud, and potentially uncover schemes or bad actors they could not otherwise identify
using only their own information. Such collaboration is the purpose of the Healthcare Fraud
Prevention Partnership (HFPP) which brings together both public and private, federal and state-
level individuals and organizations combatting health care fraud across all payers.

The legal authority for the Partnership is 42 U.S.C. § 1320a-7c. The delegated authority allows
for the Partnership to consult with, and arrange for the collection of data from, and sharing of data
with representatives of health plans under the HCFAC program.

Several key milestones occurred in FY2013FY 2013 including the signing of the official
Healthcare Fraud Prevention Partnership Charter by Secretary Sebelius and US Attorney General
Holder and the second Executive Board meeting of the Healthcare Fraud Prevention Partnership
which took place on April 1, 2013. The Board Meeting was followed immediately by two days of
working sessions with committees at the CMS Program Integrity Command Center. Over 60
participants representing over 20 partnership organizations attended the two days of working
sessions. In total, over a dozen meetings were held within the partnership including four in-person
meetings which proved highly effective in distilling the critical spirit of collaboration and
partnership.

The HFPP has successfully completed a significant pilot information exchange, in which 11
entities, including CMS, contributed fraud related data for aggregation and analysis, realizing in
immediate cost savings and additional administrative actions for many of the participants. Future
data exchanges, both non-identifiable and identifiable, will significantly expand in complexity
and require substantial technologies and infrastructure including relevant contactors and a data
exchange partner to serve as a Trusted Third Party. To plan for this function, CMS has invested in
a strategic contractor with the objective of defining the requirements for a Trusted Third Party
contract, to be procured in FY 2014.

                                                 71
CMS added additional partners to the HFPP and is targeting further expansion of the partnership
to include additional willing public and private payers once the technical and legal components of
the program are in place. The increase in members providing data will increase the resources
necessary for the trusted third party contractor to process and store the increased number of
claims data from the new members.
Measured Error Rate - Payment Error Rate Measurement (PERM)

The Improper Payments Information Act (IPIA) of 2002, amended by the Improper Payments
Elimination and Recovery Act of 2010 (IPERA), amended by the Improper Payments Elimination
and Recovery Improvement Act of 2012 (IPERIA) requires each agency to periodically review
programs it administers, identify programs that may be susceptible to significant improper
payments, estimate the amount of improper payments, submit those estimates to Congress, and
report on actions the Agency is taking to reduce improper payments.

The Medicaid program and CHIP have been identified as at risk for significant improper
payments. To comply with the IPIA, IPERA and IPERIA, CMS established the Payment Error
Rate Measurement program (PERM) to estimate improper payment error rates in Medicaid and
CHIP. The error rates are based on reviews of the fee-for-service (FFS), managed care, and
eligibility components of Medicaid and CHIP in the fiscal year under review. CMS measures
Medicaid and CHIP error rates using a 17-state rotation so that each state is reviewed once every
three years. After several years of development, the PERM error rate was published for the first
time in FY 2008.

In FY 2013, after consultation with OMB, CMS made two improper payment rate calculation
methodology enhancements to improve the accuracy of the Medicaid improper payment rate
estimate. These two enhancements include: (1) replacing the three-year weighted average
national Medicaid improper payment rate with a single-year rolling national Medicaid improper
payment rate, and (2) incorporating prior year state-level improper payment rate recalculations.

In past AFRs, CMS reported a three-year weighted average national Medicaid improper payment
rate representing the percentage of expenditures improperly paid over the past three years. The
three-year rate was calculated by utilizing a weighted average of the PERM cycle error rates from
the three most recent years. This methodology was implemented to ensure Medicaid improper
payment rate reporting included findings from all states.

In response to an OIG report (OIG Report A-06-08-00078, “Oversight and Evaluation of the
FY 2007 PERM Measurement Program”), CMS is now reporting a single-year rolling national
Medicaid improper payment rate, a more precise estimate that represents the percentage of
expenditures improperly paid during one fiscal year. The single-year rolling rate is calculated by
multiplying each state’s most recently observed error rate by that state’s expenditures from the
fiscal year being reported and dividing by the expenditures for that fiscal year. The single-year
rolling rate treats the three most recent PERM cycles as a contiguous sample (as if all states were
observed in the fiscal year being reported) which allows CMS to report on findings from all states
with improved precision.

                                                72
Additionally, past AFRs did not incorporate State-level error rate recalculations that occur after
the cycle cut-off date. For the most recent cycle of States measured, these recalculations occur
after AFR publication. In response to a Government Accountability Office report (GAO-13-229,
Enhancements Needed for Improper Payments Reporting and Related Corrective Action
Monitoring), State-level error rate recalculations for the previous two cycles measured are now
incorporated into the national Medicaid improper payment rate, and will be incorporated in future
calculations.

CMS is reporting in the FY 2013 Agency Financial Report the national Medicaid error rate that is
based on measurements that were conducted in fiscal years 2011, 2012, and 2013. The national
Medicaid error rate is 5.8 percent or $14.4 billion in estimated improper payments and has
decreased from FY 2012 (7.1 percent or $19.2 billion). The national component error rates are as
follows: Medicaid FFS – 3.6 percent, Medicaid managed care – 0.3 percent, and Medicaid
eligibility – 3.3 percent. The major cause of error in fee-for-service claims is lack of sufficient
documentation to support the payment. The vast majority of the eligibility errors were due to
beneficiaries found to be ineligible or whose eligibility status could not be determined.

Section 601 of the Children’s Health Insurance Program Reauthorization Act of 2009 (CHIPRA)
prohibited HHS from calculating or publishing any national or state-specific error rates for CHIP
until six months after a new PERM final rule was effective. In addition, Section 205(c) of the
Medicare and Medicaid Extenders Act of 2010 exempted HHS from reporting a 2011 CHIP
improper payment rate. On August 11, 2010, as part of enhanced efforts to reduce improper
payments in federal programs, HHS issued the final regulations that fully implemented
improvements to the PERM program. HHS commenced CHIP error rate reporting in FY 2012
and, therefore, only two CHIP cycles of states have been measured for reporting in the FY 2013
Agency Financial Report.

The two Medicaid improper payment rate calculation methodology enhancements described
above also apply to the CHIP improper payment rate estimate with one difference since only two
cycles of states have been measured. For FY 2013, the 34 measured states will be treated as a
contiguous sample and projected to the 17 states that have not yet been measured.

CMS is reporting in the FY 2013 Agency Financial Report the national CHIP error rate that is
based on measurements that were conducted in fiscal years 2012 and 2013. The FY 2013 national
CHIP error rate is 7.1 percent or $0.6 billion in estimated improper payments. The national
component error rates are as follows: CHIP FFS – 5.7 percent, CHIP managed care – 0.2 percent,
and CHIP eligibility – 5.1 percent. The main source of error is beneficiaries found to be ineligible
for CHIP. Other errors are due to policy violations, payments made for non-covered services, and
insufficient documentation.

CMS is currently measuring cycles that will be reported in 2014 and 2015. CMS expects the
error rates to decline in future years through program maturation and corrective action initiatives
implemented at the state and Federal levels.

As a result of Executive Order 13520—Reducing Improper Payments and Eliminating Waste in

                                                 73
Federal Programs, the PERM program also reports error rate information on the Treasury
improper payment dashboard at PaymentAccuracy.gov, and annually reports comprehensive
improper payment measurement and reduction activities to HHS/OIG.

Error Rate Measurement and Increased Accountability in Medicare Advantage (Part C) and
Medicare Prescription Drug Benefit Program (Part D)

In compliance with IPERA, CMS has implemented a systematic plan regarding improper
payments for Part C and D programs. Unlike Medicare fee-for-service, CMS makes prospective,
monthly per-capita payments to Part C organizations and Part D plan sponsors. Each per-person
payment is based on a bid amount, approved by CMS, that reflects the plan's estimate of average
costs to provide benefit coverage to enrollees. CMS risk-adjusts these payments to take into
account the cost associated with treating individual beneficiaries based on health status. In
addition, certain Part D prospective payments are reconciled against actual costs, and risk-sharing
rules set in law are applied to further mitigate plan risk.

The Part C payment error estimate reported for FY 2013 (based on calendar year CY 2011) is 9.5
percent, or $11.8 billion. The Part C payment error estimate has decreased from the FY 2012
estimate of 11.4 percent or $13.1 billion. The Part C payment error is driven by errors in risk
adjustment data (clinical diagnosis data) submitted by Part C plans to CMS for payment purposes.
Specifically, the Part C payment error estimate reflects the extent to which diagnoses that plans
report to CMS are not supported by medical record documentation.

In an effort to improve the Part C error rate, CMS has implemented three specific actions
described below: contract level audits, Medicare Advantage Organization guidance, and physician
outreach.

   •   Contract-level audits: The contract-specific Risk Adjustment Data Validation (RADV)
       audits are designed to recover overpayments to Part C plans. CMS will conduct payment
       recovery based on extrapolated estimated beginning with audits based on calendar year
       2011 payments. CMS expects to audit about 30 MA contracts a year. Additionally, the
       CY 2007 contract-level RADV audits are in the final stages. In FY 2013, CMS recovered
       a total of$5.0 million from contracts involved in the CY 2007 RADV Targeted audits.
       CMS plans to conduct further recovery on the CY 2007 audits in FY 2014.

   •   Medicare Advantage Organization Guidance: CMS has also implemented a process to
       assist MA plans while they are submitting medical record documentation for review under
       the Part C error estimate.

   •   Physician Outreach: CMS has begun a program that enhances physician understanding of
       the way HHS pays MA organizations and the payment methodology impact on physicians.
       The focus of this effort is to improve medical record documentation prepared by
       physicians to support risk adjustment diagnoses.



                                                74
The Part D payment error estimate reported for FY 2013 (based on CY 201) is 3.7 percent, or
$2.1 billion. The FY 2013 Part D error estimate represents the combined impact on Part D
payments of four sources of error: Payment error related to low income subsidy status; payment
error related to Medicaid status; payment error related to prescription drug event data validation;
and payment error related to direct and indirect remuneration.
Probable Fraud Measurement Pilot

There is no reliable estimate of the amount of fraud in the Medicare program. Documenting the
baseline amount of fraud in Medicare is of critical importance, as it allows officials to better
evaluate the success of ongoing fraud prevention activities. In collaboration with the HHS Office
of the Assistant Secretary for Planning and Evaluation (ASPE), CMS developed the methodology
for the first nationally representative estimate of the extent of probable fraud in the Medicare fee-
for-service program in FY 2011. In FY 2012, CMS developed the measurement tools for the
pilot, and collaborated with government partners, including ASPE, on the strategy for
implementation. CMS received OMB approval in May 2013.

This project will estimate probable fraud in the Home Health benefit to pilot test the measurement
approach and calculate a service-specific estimate. This pilot is measuring “probable fraud”
rather than “fraud” because “fraud” is a legal determination that involves establishing intent – a
determination that is made through the judicial system. A review panel of experienced health care
analysts, clinicians, policy experts, and fraud investigators will review all collected data and
determine if there is sufficient evidence to warrant a referral to law enforcement. After the
completion of this pilot, CMS will assess the value of expanding the measurement to other areas
of Medicare. CMS will begin collecting data on probable fraud and have an estimate of probable
fraud within HHAs in 2015.

4.   Recovery
Suspension

CMS in FY 2013 continued its use of the new Affordable Care Act authority to suspend payments
to providers during an investigation of a credible allegation of fraud. CMS also has authority to
suspend payment if reliable information of an overpayment is brought to light. As of September
2013, CMS had 297 providers under active payment suspension, with 105 of those suspensions
having been approved in FY 2013.
Field Offices

CMS has designated program integrity field offices located in or near the HEAT cities of Miami,
Los Angeles, and Brooklyn that provide a CMS presence in high risk fraud areas of the country.
All three field offices have staff that are designated CMS Strike Force Liaisons, who coordinate
with law enforcement, facilitate data analysis, and expedite suspension requests. The field offices
also work with CMS central office and the ZPICs to conduct data analysis to proactively identify
targets and to coordinate efforts among various contractors and agencies to identify local issues
and vulnerabilities with national or regional impact.

                                                 75
The field office staff performs outreach and education to partners in their areas, including law
enforcement, Senior Medicare Patrol and state Medicaid agencies. The field offices train US
Attorneys, OIG and FBI agents, analysts and forensic accountants on Medicare policy and coding
clarification, as well as provide data and billing analysis for specific cases. These staff also
provides significant support during the prosecution of health care fraud cases through testimony,
depositions and victim impact statements.

The field offices develop solutions to the most challenging program integrity issues in their
region. In Miami, for example, the field office has boots on the ground working to root out fraud
in home health by performing provider and beneficiary interviews. The Los Angeles staff is
working with county Emergency Medical Service licensing authorities, CMS contractors and
local law enforcement to address emerging schemes in ambulance providers. These efforts have
resulted in nearly 100 revocations of Medicare billing privileges in FY 2013. Additionally, the
trial support provided by the Brooklyn field office has helped result in three convictions in FY
2013.

In FY 2013, the field offices also expanded their collaboration with Medicaid program integrity
staff, including the CMS Medicaid Integrity Contractor (MIC) and the state Medicaid agency. The
Los Angeles field office began two projects around the hospice benefit which is anticipated to
result in administrative actions against providers.

Enrollment Special Study

The Enrollment Special Study is a project designed to stop fraudulent providers from obtaining
new Medicare provider numbers, reduce the number of habitual “bad providers” from re-entering
the Medicare system after they have been kicked out, and shift from the pay and chase approach
that has existed in years past. In this project, site visits are conducted prior to enrollment, and
providers are targeted for a closer review. The project is limited to Community Mental Health
Centers (CMHCs), Comprehensive Outpatient Rehabilitation Facilities, and Independent
Diagnostic Testing Facilities in South Florida. Once the MAC conducts a site visit, it assesses the
provider’s individual risk. If the provider appears to be suspect or pose an elevated risk of fraud,
the provider is referred to the ZPIC for investigation and administrative action, as appropriate.
This project began as a one year project in July 2009 and has been extended due to its success.

As of June 30, 2013, First Coast Service Operations, Inc. (FCSO), the MAC conducted 5,492 site
verifications to verify providers and suppliers’ operational status, deactivated 77 practice
locations, and revoked or denied 486 providers. FCSO saved $10,834,126 from prepayment
review. Safeguard Services, Services (SGS), the ZPIC conducted over 296 on-site investigations
resulting in 102 requests for provider revocation or deactivation. SGS placed 48 providers on
prepayment review saving $3,766,349.36 and requested $133,232,024 in overpayments.
South Florida Fraud Hot Line

CMS also continued a successful initiative aimed at increasing fraud reporting in South Florida.
As part of a two-year infusion therapy demonstration, CMS established a special fraud hotline in
                                               76
2007 to protect Medicare beneficiaries in South Florida from fraudulent providers of infusion
therapy. As a result of the hotline’s success in FY 2009, CMS expanded the scope of this
infusion therapy fraud hotline to handle all Medicare fraud-related calls in South Florida. The
fraud hotline number is included on monthly Medicare Summary Notices (MSNs) sent to
beneficiaries in Miami-Dade, Broward and Palm Beach counties.

Trained, bilingual, or trilingual staff fielded and routed calls, and acknowledged receipt of
complaints in writing. A rapid response team at the ZPIC investigated the highest priority leads
received from the fraud hotline within 48 hours of receipt of the call and then collaborated with
CMS and law enforcement to pursue appropriate follow up action(s). CMS worked with its
partners to conduct beneficiary outreach and education to ensure beneficiaries understood the
types of fraud that may occur and how to read their MSNs to detect potential fraudulent billings.

As of August 31, 2013, the hotline has received more than 107,938 calls leading to 1,057 new
fraud investigations. In addition, the ZPIC has placed 223 providers on prepayment review
saving over $16 million, revoked or deactivated 192 provider numbers, referred 52 cases to law
enforcement, and sent 160 Immediate Advisements to the HHS-OIG. Additionally, law
enforcement has seized $3 million in provider bank accounts.

                          Administration for Community Living

The mission of the Senior Medicare Patrol (SMP) program is to empower and assist Medicare
beneficiaries, their families, and caregivers to prevent, detect, and report health care fraud, errors,
and abuse through outreach, counseling, and education. In FY 2013, the Administration for
Community Living (ACL) was allocated $3.378 million in HCFAC funding by HHS to support
infrastructure, technical assistance, and other SMP program support. In addition to this funding,
ACL was initially allocated $7.331 million for capacity-building activities designed to enhance
the effectiveness of state-wide SMP programs. This funding was reduced to $7.170 million later
due to the funds requested by the SMP grantees. During FY 2010 and FY 2011, CMS had
provided this capacity funding to ACL for the SMP projects. In FY 2012 and FY 2013 the
funding came directly to ACL. The base SMP project grant is funded from a separate
Congressional appropriation.

SMP Project Activities and Outcomes

ACL funds 54 SMP statewide projects (each state, Guam, Puerto Rico, US Virgin Islands and
D.C.) with funds authorized in the Older American Act and the HCFAC Wedge. In addition to the
projects’ base grants, funded from the Older American Act, the SMP program offers HCFAC
funds to each grantee so that they can expand their program. Prior to FY 2013, the additional
funding was based largely on the known fraud prevalence within each state. However, in
FY 2013, the program moved to a formula-driven allocation taking into account the number of
Medicare beneficiaries living in each state and the ruralness of the state. The new formula is
intended to provide a more equitable allocation of funds and reflects the reality that the
prevalence of fraud is much broader than a few selected states.

                                                  77
According to the most recent annual performance report from HHS-OIG’s Deputy Inspector
General for Evaluation and Inspections, issued July 2013, 5,137 active volunteers served SMP
projects during 2012. These volunteers performed an essential function of this program,
contributing 120,953 hours and conducting over 113,000 one-on-one counseling sessions in
efforts to educate beneficiaries about how to prevent and detect Medicare fraud within local
communities.

Outreach to Medicare beneficiaries is a key element of the SMP program. During 2012, SMP
projects held 10,032 community outreach education events reaching more than 996,000 people,
and were responsible for over 188,199 media airings to increase beneficiary awareness about
issues related to Medicare fraud. In addition, over 449,500 beneficiaries were educated through
14,748 group educational sessions conducted by SMP programs in local communities.

SMP projects nationwide received 86,331 inquiries for information or assistance in 2012 from or
on behalf of beneficiaries. This included receipt of 2,270 complex issues—i.e., beneficiary
complaints requiring further research, assistance, case development, and/or referral. SMP
projects reported that 1,748 complex issues were resolved for beneficiaries during 2012, while
908 complex issues with an estimated dollar value of over $27.5 million, were referred to law
enforcement, CMS integrity contractors, state Medicaid Fraud Control Units, or other entities for
further action. During this period, HHS-OIG documented that $133,971 in health care
expenditures were avoided and nearly $6.2 million in Medicare, Medicaid and other savings
resulted from actions taken by the SMP program.

Since the program’s inception, the program has educated over 5.2 million beneficiaries in group
or one-on-one counseling sessions and has reached nearly 28 million people through community
education outreach events. While SMPs make numerous referrals of potential fraud to
investigators, it is still difficult to measure the outcome of these cases without a tracking
mechanism. Therefore, we have no measure of these outcomes, though we anticipate that they
would demonstrate an additional benefit of the SMP program’s ability to detect and prevent fraud
and abuse in the Medicare program. In addition, the impact of the SMP program’s primary
activities—education of beneficiaries to prevent health care fraud—is difficult to measure and
impossible to quantify in dollars and cents. As HHS-OIG indicated in the July 2013 report:

        “We continue to emphasize that it is not always possible to track referrals to Medicare
       contractors or law enforcement from beneficiaries who have learned to detect fraud, waste,
       and abuse from the projects. Therefore, the projects may not be receiving full credit for
       savings attributable to their work. In addition, the projects are unable to track the substantial
       savings derived from a sentinel effect whereby fraud and errors are reduced by Medicare
       beneficiaries’ scrutiny of their bills.”

ACL recognizes the importance of measuring the value of the SMP program impact to the fullest
degree possible. Toward that end, in 2012, ACL contracted for the first-ever SMP program
evaluation that will assess the national design and implementation of the SMP program, the
adequacy of current SMP performance measures, and seek to determine the most appropriate
measures of SMP program value (benefits, results and impact). The contract will conclude in
December 2013. In addition, in FY 2013, the SMP program issued a research grant designed to
                                                  78
measure the value of prevention activities. As the SMP program is focused on education and
prevention, the true value of the program comes from beneficiaries avoiding fraud in the first
place. This new grant is intended help the program identify a way to measure that effect.

Despite the factors that have limited ACL’s ability to quantify the value of the SMP program in
preventing, identifying, and reporting health care fraud, the OIG has documented over
$112 million in savings attributable to the program as a result of beneficiary complaints since its
inception in 1997.

SMP Infrastructure and Program Support

National Consumer Protection Technical Resource Center

The Center, established October 1, 2003, provides technical assistance, support and training to the
SMP projects, ensuring a fully consolidated national approach to reaching Medicare and Medicaid
beneficiaries. The goal of the Center is to provide professional expertise and technical support,
serve as an accessible and responsive central source of information, and maximize the
effectiveness of the SMP projects in healthcare integrity outreach and education. The Center has
been instrumental in supporting ACL efforts to forge national visibility for the SMP program.

National Hispanic SMP Project Grant

In September 2008, AoA awarded an initial three-year grant to the National Hispanic Council on
Aging for the development and implementation of a National Hispanic SMP (NHSMP) Program.
The problem of health care fraud and abuse becomes even more challenging to address with hard-
to-reach populations, particularly those with cultural and language barriers. The NHSMP project
also promotes collaborations among key community players in order to promote the prevention,
detection and reporting of fraud within the Hispanic community. The NHSMP program is
working to create a model to provide technical assistance to SMP projects who work with
Hispanic populations so that they can expand their reach to Hispanic older adults.

Integration Project Grant

The goal of the SMP program is to provide education to all Medicare beneficiaries. However,
there are specific populations that are historically hard-to-reach. Three of these populations:
Medicare beneficiaries under age 65; Lesbian, Gay, Bisexual and Transgender (LGBT) Medicare
beneficiaries; and American Indian/Alaska Native (AI/AN) Medicare beneficiaries, were
specifically identified as target populations. In FY 2013, ACL awarded five grants to
organizations who have initiated 17 month projects which seek to increase awareness,
empowerment, and actions to prevent healthcare fraud amongst these generally underserved
populations. The goal of these grants will be to develop new, efficient, and sustainable approaches
for ensuring high quality and culturally competent service delivery and help educate consumers to
prevent health care fraud.



                                                 79
Prevention Research Grant

As mentioned above, in FY 2013, the SMP program has issued a three-year research grant to
identify a way to measure the overall impact of the SMP program. Specifically, the grantee will
develop and test an evaluation method to determine how to best measure the effects of the SMP
program’s community education techniques on health care fraud prevention.

                              Office of the General Counsel
In FY 2013, the Office of the General Counsel (OGC) was allocated approximately $8.88 million
in HCFAC funding by HHS to supplement OGC’s efforts to support program integrity activities.
OGC’s efforts in FY 2013 focused heavily on program integrity review, in which OGC reviews
CMS’ programs and HCFAC activities in order to strengthen them against potential fraud, waste,
and abuse. OGC also continued its active litigation role in order to assist in the recovery of
program funds. During FY 2013, OGC was involved in a wide range of HCFAC efforts that
resulted in Government recoveries of over $1.57 billion in judgments, settlements, or other types
of recoveries, savings, or receivables as described elsewhere in this report.

The Affordable Care Act

The ACA significantly amended existing anti-fraud statutes. These provisions established
fundamental expectations for compliance, disclosure, transparency, and quality of care, and are
matched by corresponding enforcement provisions. Some specific provisions of the ACA that
particularly support HCFAC priorities include amending Medicare and Medicaid
provider/supplier enrollment requirements, overpayment provisions to specifically invoke the
FCA, strengthening the anti-kickback statute, and creating a statutory disclosure protocol for
violations of the physician self-referral prohibition known as the “Stark law.” During FY 2013,
as new ACA programs were implemented, OGC spent significant time and resources working
with the relevant agencies to ensure that program integrity issues were reviewed and resolved, and
assisted the agencies in addressing program integrity and compliance problems as they occurred.

HEAT

During FY 2013, OGC was involved in HEAT initiatives and worked closely with other HEAT
members to combat fraud, waste, and abuse in the Medicare and Medicaid programs by providing
advice on the myriad legal issues presented as the government works to initiate innovative anti-
fraud programs in various hotspots throughout the country. OGC continued to assist DOJ in
pursuing both criminal and civil cases involving individuals and entities seeking to defraud the
Medicare and Medicaid programs and to defend any Federal court challenges that are brought as a
result of HEAT initiatives. OGC’s involvement in HEAT also included advising CMS on
provider and supplier revocations, payment suspensions, recoupments, and defending the
administrative appeals that resulted.




                                               80
FCA and Qui Tam Actions

OGC assisted DOJ in assessing qui tam actions filed under the FCA by interpreting complex
Medicare and Medicaid rules and policies in order to assist DOJ in discerning which allegations
were program violations and should be pursued and to help DOJ focus on those matters which
were most likely to result in a recovery of money for the government. When DOJ filed or
intervened in a FCA matter, OGC provided litigation support, including interviewing and
preparing witnesses and responding to requests for documents and information. In FY 2013, OGC
participated in FCA and related matters that recovered over $1 billion for the government. The
types of FCA cases that OGC participated included: drug pricing manipulation; illegal marketing
activity by pharmaceutical manufacturers that resulted in Medicare and Medicaid paying for drugs
for indications not covered; underpayment of rebates to state Medicaid programs; physician self-
referral violations; and provider up coding cases.

Provider/Supplier Suspensions and Enrollment Revocations or Denials

Suspensions play a critical role in protecting against the abuse of program funds. OGC advised
CMS on whether to suspend payments to Medicare providers and suppliers and defended the
suspensions when challenged. In FY 2013, OGC attorneys were involved in a myriad of
suspension and recoupment actions, which involved fraudulent billings and different segments of
the health care industry: DME suppliers, ambulance companies, physicians, infusion clinics,
therapists, home health agencies, and diagnostic testing facilities. OGC also represented CMS
when a provider or supplier appealed a denial of enrollment or revocation. In FY 2013, OGC
represented CMS in appeals before the Departmental Appeals Board (DAB) and often resolved
these cases without formal hearings. OGC also continued to advise CMS on the interpretation of
enrollment regulations and reviewed proposed enrollment rules and manual changes.

Medicare Prescription Drug Program (Part D) & Medicare Advantage (Part C) Compliance

During FY 2013, OGC continued to provide extensive advice to CMS on a variety of Part D and
Medicare Advantage (MA)-related contract compliance issues, including identifying enforcement
options against sponsors that are noncompliant or violate program rules, such as the Marketing
Guidelines. OGC reviewed compliance-related correspondence that CMS issued to Part D
sponsors and MA plans in the form of warning letters, corrective action plan letters, intermediate
sanctions, CMP notices, and non-renewal or termination notices.

Civil Monetary Penalties

CMS has the responsibility for administering numerous CMP provisions enacted by Congress to
combat fraud, waste, and abuse by enforcing program compliance and payment integrity. In FY
2013, OGC provided legal advice to CMS regarding the development and imposition of CMPs
and defended CMS in many administrative appeals and judicial litigation resulting from these
cases.



                                                81
Petitions for Remission

OGC collaborated with Federal law enforcement, including the FBI, the USAOs, the Secret
Service, U.S. Postal Service, and the U.S. Marshal’s Service in filing petitions for remission
directed to recover assets subject either to administrative forfeiture by Federal law enforcement or
civil judicial forfeiture by DOJ. Each petition set forth the background of the fraudulent scheme,
the history of Medicare’s payments, and how the fraudulently induced payments could be traced
to the seized assets. During FY 2013, OGC petitioned these agencies to recover funds in both
criminal and civil litigation matters in which Medicare was a victim of fraud.

Regulatory Review and Programmatic Advice

In FY 2013, OGC advised CMS on a variety of regulatory and program issues, all to assist CMS
in strengthening its programs and activities against fraud and to prevent the wrongful
disbursement of program funds in the first instance. Some highlights of OGC efforts include its
work to develop and implement the Physician Payment Sunshine Rule, the Durable Medical
Equipment (DME) Face-to-Face Rule, and the Provider Enrollment and Incentive Reward
Program Proposed Rule. Further, OGC provided extensive counsel regarding the CMS final rule
on new survey procedures and alternative sanctions available for Home Health Agencies (HHAs)
that are not meeting program participation requirements.

Medicaid Integrity

Continuing recent trends, OGC saw continued increasing involvement in FY 2013 in Medicaid
integrity issues as CMS devoted more resources to financial reviews and oversight and as states
continued to present innovative proposals to reconfigure their programs.

Physician Self-Referral

OGC provided valuable assistance to CMS in navigating the complexities of the Stark physician
self-referral law. In FY 2013, OGC reviewed and offered extensive comments on participation
agreements or amendments to such agreements governing various initiatives of the Center for
Medicare & Medicaid Innovation, including the Pioneer Accountable Care Organization Model,
Bundled Payment for Care Improvement (“BPCI”) Models 2-4, and the Comprehensive ESRD
Care Initiative. In addition, OGC worked closely with OIG and CMS in devising new waivers of
the fraud and abuse laws for the BPCI models. OGC also advised CMS regarding matters
disclosed under the new Stark self-disclosure protocol, now numbering over 200.

Medicare Secondary Payer (MSP) Workload

OGC’s efforts to recover conditional payments by Medicare that are the primary responsibility of
other payers directly supports the HCFAC statutory goal of facilitating the enforcement of all
applicable legal remedies for program fraud and abuse. During FY 2013, OGC has been
successful in establishing the right to recover over $7.7 million for Medicare under the MSP
program. Recent statutory changes implementing mandatory insurance reporting requirements to

                                                82
the MSP law have strengthened and expanded OGC’s efforts in this area – to the benefit of the
Medicare Trust Funds – including substantial CMPs for failure to report.

Bankruptcy Litigation

OGC protects Medicare funds from waste in bankruptcy cases by asserting CMS’s recoupment
rights to collect overpayments, arguing to continue suspension or termination actions against
debtors, seeking adequate assurances from the bankruptcy court that CMS interests in the debtor’s
estate will be protected, arguing for the assumption of the Medicare provider agreement as an
executory contract, and petitioning for administrative costs where appropriate. In FY 2013, OGC
asserted CMS’ interests in numerous bankruptcy and receivership actions involving physicians,
hospitals, independent diagnostic test facilities, DME suppliers, nursing homes, and nursing home
chains, collecting or establishing the right to collect over $2.4 million in recoveries involving
bankrupt providers.

Denial of Claims and Payments

CMS and its contractors engaged in various activities and initiatives to detect and prevent abusive
and fraudulent billing practices. These measures included provider and beneficiary education, use
of claim sampling techniques, and a more rigorous scrutiny of claims with increased medical
review. In FY 2013, OGC played a major role in advising CMS regarding the development and
implementation of these types of program integrity measures and defended CMS in litigation
brought by providers and suppliers who challenged these efforts. OGC continued to aggressively
defend CMS and its contractors in cases seeking damages for the alleged wrongful denial of
claims, for being placed on payment suspension, and for not being granted extended repayment
plans.

                    Food and Drug Administration Pharmaceutical
                                  Fraud Program
In FY 2013, FDA was allocated $3.37 million in HCFAC funding by HHS for the FDA
Pharmaceutical Fraud Program (PFP). The PFP was instituted to enhance the health care
fraud- related activities of FDA's Office of Criminal Investigations (OCI) and the Office of the
General Counsel (OGC) Food and Drug Division. OCI, with the support of OGC, investigates
criminal violations of the Federal Food, Drug, and Cosmetic Act (FFDCA), the Prescription
Drug Marketing Act, the Federal Anti-Tampering Act, and related Federal statutes.

The PFP is designed to detect, prosecute, and prevent pharmaceutical, biologic, and medical
device fraud. The PFP gathers information from sources inside and outside FDA and focuses on
fraudulent marketing schemes, application fraud, clinical trial fraud, and flagrant manufacturing-
related violations concerning biologics, drugs, and medical devices. The goal of the program is
the early detection and prosecution of such fraudulent conduct and furthers FDA’s public health
mission by helping to reduce health care costs, in most cases before they are incurred, and deter
future violators. As described below, the PFP has identified multiple alleged medical product
fraud schemes through various avenues.
                                                83
Since the inception of the PFP, OCI has opened a total of sixty-four criminal investigations. In
FY 2013, FDA’s third full fiscal year of HCFAC Program activity, OCI, through its PFP, opened
twenty-three criminal investigations, described below:

   •   One investigation involving misbranding allegations, including minimization of risk
       and marketing two drugs by a single manufacturer for unapproved uses. The
       investigation involves marketing of the drugs for conditions not indicated in the
       approved labeling and for deceptive marketing practices regarding the safety of the
       drug products.

   •   Three investigations involving allegations of misbranding by medical device
       manufacturers for selling and/or distributing devices for conditions which are not FDA
       cleared and/or for making misleading representations about the device benefits and
       efficacy.

   •   Seven investigations involving allegations of flagrant manufacturing practices
       concerning both drugs and devices causing those products to be misbranded and/or
       adulterated and resulting in a safety risk to the public.

   •   Twelve investigations involving allegations of clinical trial and/or application
       fraud. These investigations consist in part of individuals suspected of improperly
       commencing and conducting clinical trials, falsifying clinical trial data, forging
       signatures of clinical investigators, and enrolling ineligible or non-existent subjects in
       clinical trials, as well as falsifying approval and/or clearance applications made to the
       FDA.

In regards to judicial action, the types of criminal investigations conducted through the PFP tend to
be complex in nature requiring extensive document review and coordination with the affected FDA
Center. It is not unusual for these complex fraud investigations to last five years or more from
initiation to conclusion. Nevertheless in March 2013, an application fraud investigation, opened in
FY 2011, obtained an individual guilty plea for submitting a report to the FDA which was
materially false or misleading during the device approval process. The individual has agreed to
assist in the prosecution of additional subjects related to this investigation and will be sentenced
after this cooperation obligation is completed. Additionally in August 2013, an indictment was
secured against the main target in a clinical trial fraud case, also opened in FY 2011, charging
false statements in a matter within the jurisdiction of the FDA.

Furthermore, FDA believes that various investigations already initiated under the PFP show
promise of future judicial action that may include criminal prosecution and monetary
recoveries. These cases include an investigation of a large drug manufacturer for serious and
pervasive manufacturing violations, as well as several investigations of clinical trial principal
investigators who have allegedly fabricated study subjects, omitted exclusion/inclusion
criteria and provided false data to drug and device sponsors representing these investigational
products as safe and effective when, in fact, they are not.
                                                 84
In addition to these investigative activities, FDA conducted a three day training session in late
June 2013 for criminal investigators and supervisors covering PFP related topics. The instruction
consisted of legal training provided by OGC on the FFDCA in areas relevant to PFP cases,
investigative scenario training on clinical trial fraud investigations and case presentations on
successful prosecutions involving misbranding and other fraud schemes encompassing both drugs
and medical devices. The training also provided background on FDA’s participation in the
HCFAC Program and resources available to assist in investigations being conducted under the
PFP.




                                               85
                    THE DEPARTMENT OF JUSTICE

                                   United States Attorneys

In FY 2013, the United States Attorney’s Offices (USAOs) were allocated approximately
$42.0 million in FY 2013 HCFAC funding to support civil and criminal health care fraud and
abuse litigation, as exemplified in the Program Accomplishments section. The USAOs dedicated
substantial district resources to combating health care fraud and abuse in 2012, and HCFAC
allocations have supplemented those resources by providing funding for attorneys, paralegals,
auditors and investigators, as well as funds for litigation of resource-intensive health care fraud
cases.

The 93 United States Attorneys and their assistants, or AUSAs, are the nation’s principal
prosecutors of Federal crimes, including health care fraud. Each district has a designated
Criminal Health Care Fraud Coordinator and a Civil Health Care Fraud Coordinator. Civil and
criminal health care fraud referrals are often made to USAOs through the law enforcement
network described herein, and these cases are usually handled primarily by the USAOs, although
the civil referrals are sometimes handled jointly with the Civil Division’s Commercial Litigation
Branch (Fraud Section). The other principal source of referrals of civil cases for USAOs is
through the filing of qui tam (or whistleblower) complaints. These cases are often handled jointly
with trial attorneys in the Frauds Section. USAOs also handle most criminal and civil appeals at
the Federal appellate level.

USAOs play a major role in health care fraud enforcement by bringing criminal and affirmative
civil cases to recover funds wrongfully taken from the Medicare Trust Funds and other taxpayer-
funded health care systems as a result of fraud, waste, and abuse. Civil and criminal AUSAs
litigate a wide variety of health care fraud matters, including false billings by physicians and other
providers of medical services, overcharges by hospitals, Medicaid fraud, kickbacks to induce
referrals of Medicare or Medicaid patients, fraud by pharmaceutical and medical device
companies, home health and hospice fraud, and failure of care allegations against nursing home
owners. Working closely with their partners in the Civil Division, several civil health care fraud
AUSAs have focused their efforts on pharmaceutical fraud, resulting in significant recoveries
including: $1.5 billion from Abbott Laboratories and $500 million from Ranbaxy Laboratories
Limited and its subsidiary, Ranbaxy USA, Inc.. Most of the civil settlements, including these
settlements were part of a global resolution, which also addressed the criminal liabilities, resulting
in criminal pleas, as well as significant fines and forfeitures. The criminal portion of these
investigations and resolutions was handled by criminal health care fraud AUSAs, often working
with their counterparts at the Consumer Protection Branch of the Civil Division. These global
settlements resolved allegations including, reporting of false and inflated drug prices,
manufacturing and distributing adulterated drugs, off-label marketing and kick-backs. These
cases are detailed earlier in this report.




                                                 86
Several of the USAOs have dedicated significant resources to investigate fraud perpetrated on our
most vulnerable citizens. To this end, the USAOs have partnered with Civil Frauds in the Elder
Justice and Nursing Home Initiative to address elder abuse and neglect. As a result of USAO
efforts, the owner and operator of three nursing homes was sentenced to serve 20 years in Federal
prison on charges of conspiring with his wife to defraud the Medicare and Georgia Medicaid
programs by billing them for “worthless services” in the operation of three nursing homes. This is
the first time that a defendant has been convicted after a trial in Federal court for submitting
claims for payment for worthless services. The defendant was also ordered to pay $6.7 million in
restitution to Medicaid and Medicare

The USAOs partner with the Criminal Division in the Strike Forces, which are currently operating
in nine USAOs across the country. Each USAO has dedicated several AUSAs and support
personnel to work with Criminal Division attorneys in this important initiative. The Strike Forces
use data analysis to identify high-billing levels in health care hot spots so that emerging or
migrating schemes can be targeted. The significant successes of the Strike Forces have been
detailed earlier in this report.

Special Focus Teams, consisting of criminal and civil AUSAs, paralegals, and auditors, are
operational in three districts and focus on pharmaceutical, biologics, and medical device fraud.
The teams have contributed significantly to the success of the pharmaceutical investigations and
recoveries this year. To increase the capacity of other districts to successfully litigate these
complex health care fraud cases, the Special Focus Teams have organized monthly training
Webinars and serve as advisors for the USAO community in the various complex areas of health
care fraud.

Criminal Prosecutions

In FY 2013, the USAOs received 1,013 new criminal matters involving 1,910 defendants, and had
2,041 health care fraud criminal matters pending, 17 involving 3,535 defendants. The USAOs filed
criminal charges in 480 cases involving 843 defendants, and obtained 718 Federal health care
fraud related convictions.

Civil Matters and Cases

In FY 2012, the USAOs had opened 1,083 new civil health care fraud investigations. At the end
of FY 2012, the USAOs had 1,079 civil health care fraud investigations pending. 18




 17
   When a USAO accepts a criminal referral for consideration, the office opens it as a matter pending in the district.
 A referral remains a pending matter until an indictment or information is filed or it is declined for prosecution.
18
  The accomplishments figures presented in this paragraph include all reported Strike Force cases handled by DOJ
Criminal Division attorneys and AUSAs in the respective USAOs during FY 2013.
                                                          87
                                         Civil Division
In FY 2013, the Civil Division received approximately $28.0 million in FY 2013 HCFAC funding
to support the health care fraud activities of the Commercial Litigation Branch’s Fraud Section
and the Consumer Protection Branch. This amount also included funding to support the
Department of Justice’s Elder Justice and Nursing Home Initiative.

The Commercial Litigation Branch’s Fraud Section

The Civil Division’s Commercial Litigation Branch (Fraud Section) investigates complex health
care fraud allegations and files suit under the FCA to recover money on behalf of defrauded
federal health care programs including Medicare, Medicaid, TRICARE, and the FEHBP. The
Fraud Section works closely with the Consumer Protection Branch, United States Attorneys’
Offices, HHS-OIG, state Medicaid Fraud Control Units and other law enforcement agencies. As
a result of these efforts, the Fraud Section has obtained settlements and judgments in health care
cases of over $1 billion almost every year since 2000 and over $2.3 billion in FY 2013 alone.

The Fraud Section investigates and resolves matters against a wide array of health care providers
and suppliers. Matters involving pharmaceutical and device manufacturers continue to constitute
some of the most complex and resource intensive cases handled by the Fraud Section. These
matters commonly involve nationwide conduct, raise legally and factually complicated issues, and
demand significant resources to investigate, resolve, and litigate, if necessary. Many of these
cases-- including the Abbott, Amgen, AstraZeneca and Wyeth matters discussed above-- involved
allegations that the pharmaceutical manufacturer improperly promoted its drug for uses not
approved by the FDA. Other cases, like the Ranbaxy matter, involved allegations relating to the
manufacture and distribution of adulterated drugs. Lastly, many pharmaceutical fraud cases
involve allegations that the drug or device manufacturer paid kickbacks to physicians to prescribe
its products. These cases are significant not only because of the significant dollars involved, but
because they protect Medicare and Medicaid beneficiaries by preserving the integrity of the
FDA’s approval process as well as the doctor-patient relationship.

In addition to pharmaceutical fraud, the Fraud Section also investigated and resolved several
matters involving hospitals and physicians. For example, the Fraud Section resolved several
hospital matters involving allegations that the hospitals overbilled Medicare by treating patients
on an inpatient basis when they should have been treated as observation patients or treated on an
outpatient basis. Likewise, the Fraud Section successfully resolved its investigation against a
Florida doctor for violating the Anti-Kickback Statute by accepting free pathology services and
billing Medicare as if he had personally performed those services. As a result of its investigation,
the government recovered over $26 million, and the doctor agreed to be voluntarily excluded for
five years from participating in any federal health care program.

Because the Fraud Section receives every FCA complaint filed across the country by
whistleblowers (otherwise known as “relators”), it has a unique vantage point over health care
fraud trends and developments nationwide and therefore regularly takes the lead on coordinating
national investigations with its law enforcement partners. Likewise, given the diversity of health
                                                 88
care fraud cases pursued by the Fraud Section, it frequently provides training and guidance to
AUSAs and agents on the FCA and health care fraud issues. The Section works closely with
HHS-OIG, Office of General Counsel, in all settlements of health care fraud allegations in order
to ensure that the administrative remedies possessed by HHS are appropriately considered and to
enable the negotiation of compliance terms that diminish the risk that the offending conduct will
be repeated. The Section also collaborates with and counsels CMS and HHS-OIG on interagency
initiatives and proposed rules and regulations.

The Elder Justice and Nursing Home Initiative, which is housed in the Civil Division, coordinates
and supports law enforcement efforts to combat elder abuse, neglect, and financial exploitation.
The Initiative supports law enforcement efforts by maintaining an information bank of Elder
Justice related materials (including briefs, opinions, indictments, plea agreements, subpoenas
templates); funding medical reviewers, auditors, and other consultants to assist DOJ attorneys and
AUSAs in their nursing home and/or long term care facility cases; hosting quarterly
teleconferences with DOJ attorneys and AUSAs across the country to discuss issues or
developments in connection with our nursing home and failure of care cases; and coordinating
nationwide investigations of skilled nursing facilities. In addition to supporting law enforcement
efforts, the Initiative continues to fund research projects awarded by the Office of Justice
Programs, National Institute of Justice, to study the abuse, neglect, and exploitation of elderly
individuals and residents of residential care facilities.

The Consumer Protection Branch

The Consumer Protection Branch (CPB) investigates and prosecutes manufacturers and
individuals who are illegally promoting and distributing unapproved, misbranded, and adulterated
drugs and devices in violation of the Food, Drug, and Cosmetic Act (FDCA). CPB works closely
with the Commercial Litigation Branch’s Fraud Section, the USAOs, and the FDA on a wide
variety of health care fraud matters. In recent years, CPB has convicted dozens of companies and
individuals. The prosecutions resulted in significant jail terms and fines, penalties, and
forfeitures; since 2009, these fines, penalties, and forfeitures have totaled more than $6 billion.

In the area of pharmaceutical and medical device fraud, CPB coordinates complex investigations
with districts nationwide, staffing the cases directly as well as providing assistance to USAOs.
Because these investigations are complicated, both legally and factually, they demand significant
resources. These cases, such as the Amgen, Ranbaxy, and Wyeth cases mentioned above, which
involve allegations of misbranding or adulteration of pharmaceuticals, often require in-depth
analyses of pharmaceutical and medical device manufacturers’ clinical studies, manufacturing
practices, or commercial activities. Typically, they involve the review of hundreds of thousands
or even millions of company and third party documents, as well as dozens of witness interviews
or testimony. These cases are significant not only because of the monetary fines and non-
monetary remedies that are imposed for criminal violations of the FDCA, but because of the
public health and safety issues that they implicate. In the Abbott case discussed above, for
instance, not only did the company misbrand Depakote through its unlawful promotion and
targeting of vulnerable elderly dementia patients, but it downplayed safety risks apparent from its
own clinical studies and encouraged nursing homes to use Depakote to avoid reporting

                                                89
requirements designed to prevent the use of unnecessary drugs.

In addition to prosecuting major pharmaceutical and medical device companies for health care
offenses, CPB prosecutes smaller-scale, yet equally dangerous schemes involving online sale of
pharmaceuticals and drug diversion. For example, in FY 2013, together with the U.S. Attorney’s
Office in the Southern District of Florida, CPB prosecuted a Canadian citizen, Andrew J.
Strempler, for his role in a scheme to defraud consumers purchasing pharmaceuticals online.
Strempler pled guilty to conspiracy to commit mail fraud in connection with his role as owner and
president of Mediplan Health Consulting Inc., a Canadian company that also operated under the
name RxNorth.com. RxNorth was an Internet, mail, and telephone order pharmacy, through
which Strempler and others marketed and sold prescription drugs to residents of the United
States. Strempler and his co-conspirators falsely represented that RxNorth was selling safe
prescription drugs in compliance with regulations in Canada, the United Kingdom and the United
States, when in fact, Strempler obtained the prescription drugs from various other source
countries without properly ensuring the safety or authenticity of the drugs. In fact, some of the
drugs sold by Strempler included counterfeit drugs. In January 2013, Strempler was sentenced to
48 months in prison, and was ordered to pay a fine of $25,000 and restitution in the amount of
$300,000.

In yet another example, in FY 2013, CPB prosecuted Lina Ada Mendoza, a/k/a Nicole Rodriguez
and Michael Jackson in the Southern District of Florida for their role in a conspiracy involving
the operation of an Internet pharmacy business that illegally shipped over $1.5 million of
pharmaceuticals to U.S. and overseas purchasers. Rodriguez owned an Internet-pharmacy
business used to advertise, sell and distribute a wide variety of controlled substances and
prescription drugs in the United States and abroad. Rodriguez and Jackson conspired to sell the
prescription drug known as Adderall, which contains amphetamine, a Schedule II controlled
substance. Rodriquez was sentenced to 72 months’ imprisonment, and ordered to forfeit
$36,112. Jackson was also sentenced to 72 months’ imprisonment and ordered to forfeit $18,862.

                                       Criminal Division

In FY 2013, the Criminal Division was allocated $8.1 million in FY 2013 HCFAC funding to
support criminal health care fraud litigation and interagency coordination, which is carried out
primarily by the Fraud Section and, to a lesser extent, the Organized Crime and Gang Section
(OCGS).

The Fraud Section

The Fraud Section initiates and coordinates complex health care fraud prosecutions and supports
the USAOs with legal and investigative guidance and training and trial attorneys to prosecute
health care fraud cases. Beginning in March 2007, the Fraud Section, working with the local
USAOs, the FBI and law enforcement partners in HHS-OIG, and state and local law enforcement
agencies, launched the Medicare Fraud Strike Force in Miami-Dade County, Florida, to prosecute
individuals and entities that do not provide legitimate health care services but exist solely for the
purpose of defrauding Medicare and other government health care programs. Since 2007, DOJ
                                                 90
and HHS have expanded the Strike Force to nine cities. In FY 2013, the Fraud Section continued
to provide attorney staffing, litigation support, and leadership and management oversight for
numerous Strike Force prosecutions in eight of the nine cities. A summary of the Fraud Section’s
key litigation accomplishments in FY 2013 follows:

     •   Filed 60 new health care fraud cases involving charges against 159 defendants who
         collectively billed the Medicare and Medicaid programs more than $1 billion;
     •   Obtained 93 guilty pleas and litigated 18 jury trials, winning guilty verdicts against 29
         defendants; 196
     •   Secured prison sentences in health care fraud cases averaging more than 62 months; and
     •   Secured court-ordered restitution, forfeiture and fines exceeding $1.1 billion.

Fraud Section attorneys staffed and coordinated the Division’s health care fraud litigation through
the existing Medicare Fraud Strike Force teams in Miami, Los Angeles, Detroit, Houston,
Brooklyn, South Louisiana, Tampa, Dallas, and Chicago.

Section attorneys coordinated two major multi-district Strike Force arrest takedowns during the
fiscal year and handled many of the investigations and indictments that were filed in these
operations.

On May 14, 2013, Fraud Section and USAO Strike Force prosecutors in eight cities executed a
nationwide operation that resulted in charges against 89 individuals, including doctors, nurses,
and other medical professionals, for their alleged participation in Medicare fraud schemes
involving approximately $223 million in false billing. Earlier in the fiscal year, on October 4,
2012, Fraud Section and USAO Strike Force prosecutors in seven cities executed a nationwide
operation that resulted in charges against 91 individuals, including doctors, nurses, and other
medical professionals, for their alleged participation in Medicare fraud schemes involving
approximately $492.2 million in false billing.

Of particular note during the FY2013, the Fraud Section charged a Michigan
oncologist/hematologist in August 2013 with health care fraud in wide-ranging and dangerous
fraudulent billing scheme. According to the original complaint and subsequent indictment, the
doctor allegedly provided chemotherapy and other medical treatments to patients who did not
need the treatments, including patients who were in remission and did not need chemotherapy; the
defendant also supposedly directed his staff to falsify medical documents to justify the treatments.
The allegations against the defendant raised serious health concerns, particularly given the
physical effect of chemotherapy and some of the other treatments administered to patients. At the
time of arrest, the defendant was treating 1200 patients. The Fraud Section, working with the
U.S. Attorney’s Office for the Eastern District of Michigan, undertook a massive and aggressive
effort to make insure that victim witnesses received all necessary support in finding new medical
care. Between August 2010 and August 2013, the defendant’s business, Michigan Hematology
Oncology, Inc. (MHO), billed Medicare $150 million and was paid $62 million. In addition,

19
  Fraud Section attorneys were responsible for many of the cases summarized in the “Medicare Fraud Strike Force”
section of this report.
                                                       91
private insurer Blue Cross/Blue Shield also paid the doctor $78 million on claims submitted by
MHO.

In addition to Medicare Fraud Strike Force cases, the Fraud Section handles other types of
complex criminal health care fraud litigation. Often, such cases are handled in a parallel manner
by Fraud Section prosecutors along with DOJ Civil Division attorneys and/or AUSAs from the
USAOs.

In addition to health care fraud litigation, the Fraud Section also provided legal guidance to FBI
and HHS-OIG agents, health program agency staff, AUSAs, and other Criminal Division
attorneys on criminal, civil, and administrative tools to combat health care fraud. Throughout
FY2013, Fraud Section prosecutors met with federal prosecutors and agents across the United
States to provide training, investigative leads based on data analysis, and related support. The
Fraud Section also provided advice and written materials on patient medical record confidentiality
and disclosure issues, and coordinated referrals of possible criminal HIPAA privacy violations
from the HHS Office for Civil Rights; monitored and coordinated DOJ responses to legislative
proposals, major regulatory initiatives, and enforcement policy matters; reviewed and commented
on health care provider requests to the HHS-OIG for advisory opinions, and consulted with the
HHS-OIG on draft advisory opinions; worked with CMS to improve Medicare contractors= fraud
detection, referrals to law enforcement for investigation, and case development work; and
prepared and distributed to all USAOs and FBI field offices periodic summaries of recent and
significant health care fraud cases.

The Organized Crime and Gang Section (OCGS)

The Criminal Division’s Organized Crime and Gang Section (OCGS) supports investigations and
prosecutions of fraud and abuse targeting the 2.5 million private sector health plans sponsored by
employers and/or unions, as well as investigations and prosecutions of health care frauds
perpetrated by domestic and international organized crime groups. OCGS is also working to
improve strategic coordination in the identification and prosecution of domestic and international
organized crime groups engaged in sophisticated frauds posing a threat to the health care industry.

In FY 2013, four OCGS attorneys and one paralegal were assigned to health care fraud
prosecutions, although the section has remained under severe budget restrictions. Three OCGS
attorneys worked with AUSAs in the Organized Crime Strike Force in Philadelphia on
prosecutions involving Medicare fraud in the operation of hospice facilities and ambulance
companies. A fourth OCGS attorney worked on an investigation of health care fraud involving a
private sector employment based health care plan.

In Philadelphia, an OCGS attorney partnered with an AUSA in the prosecution of four cases
involving seven defendants for criminal charges in connection with the operation of a hospice
facility. In June 2013, a doctor who served as the medical director of the hospice was convicted
after trial of receiving more than $300,000 in illegal payments for regularly referring Medicare
and Medicaid patients to the hospice. Sentencing was pending at the end of the fiscal year. The
conviction will result in the doctor’s mandatory exclusion from participation in any federal health
                                                92
care program and the possible loss of his medical license. A second doctor remains under
indictment for receiving illegal referral payments from the hospice. In September 2013, the trial
of a hospice co-owner commenced on charges of conspiring to defraud Medicare by submitting
$14.3 million in fraudulent medical claims for hospice services provided to patients who did not
receive services or were ineligible for the benefits claimed. His trial was ongoing at the close of
the fiscal year. Four nurses who worked at the hospice are scheduled for trial in late 2013 and
early 2014 on charges that they fabricated and falsified documents in support of hospice care for
patients who were not eligible for hospice care, or for a higher, more costly level of care than was
actually provided to the patients. The nurse defendants are alleged to have submitted
approximately $9,328,000 in fraudulent claims to Medicare and created fraudulent nursing notes
for approximately 150 patients indicating that services were being provided, when, in reality, they
were not.

Two additional OCGS attorneys worked with Philadelphia AUSAs on prosecutions of the 5
defendants involved in the operation of three different ambulance service companies. In May
2013, the operator of one ambulance company was sentenced to 92 months’ imprisonment for
defrauding Medicare of approximately $5.4 million by billing for ambulance services which were
not medically necessary. The operator, who was an émigré from Ukraine, recruited a straw owner,
with the payment of $60,000, to apply for a license to operate after he was denied a license under
his own name due to a prior criminal conviction. Once licensed, the operator recruited patients
who were capable of walking and submitted claim forms to Medicare falsely claiming that
patients were unable to transport themselves. The straw purchaser and wife of the ambulance
company operator have pleaded guilty to charges in connection with the operation of this
ambulance company and await sentencing. Owners of two additional ambulance companies were
indicted in May 2013 for health care fraud and conspiracy to pay kickbacks to patients in an
alleged scheme to recruit ambulatory dialysis patients for whom they billed Medicare for
medically unnecessary ambulance services.

In addition to conducting health care fraud investigations and prosecutions, OCGS attorneys
routinely provide litigation support and advice to AUSAs and criminal investigative agencies in
the investigation and prosecution of corruption and abuse of private employment-based group
health plans covered by the Employee Retirement Income Security Act (ERISA). Such private
sector employment-based group health plans are the leading source of health care coverage for
individuals not covered by Medicare or Medicaid. OCGS attorneys also provide support to
investigations of fraud schemes by corrupt entities that sell unlicensed health insurance products
as well as fraud schemes by corrupt employers that cheat workers out of health benefits required
by the prevailing wage laws and regulations.

OCGS attorneys regularly provide health care fraud and abuse training and legal guidance to
AUSAs and to criminal investigators and agents of the Department of Labor’s Employee Benefits
Security Administration and Office of Inspector General. Such guidance and training covers
prosecutions involving abuse of private sector employee health plans subject to ERISA and health
plans sponsored by labor organizations as well as fraud and abuse committed in connection with
the operation of multiple employer welfare arrangements. OCGS also drafts and reviews criminal
legislative proposals affecting employee health benefit plans. In addition, OCGS provides legal

                                                93
guidance to prosecutors and required approvals in the use of the Racketeer Influenced and Corrupt
Organizations (RICO) statute in prosecutions of Medicare or Medicaid fraud and private sector
health care frauds.

                                      Civil Rights Division

In FY 2013, the Civil Rights Division was allocated approximately $4.1 million in FY 2013
HCFAC funding to support Civil Rights Division litigation activities related to health care fraud
and abuse. The Civil Rights Division pursues relief affecting public, residential health care
facilities and service systems. The Division conducts investigations to eliminate abuse and
grossly substandard care in public, Medicare and Medicaid funded long-term care facilities.
Consistent with the Supreme Court’s decision in Olmstead v. L.C., 527 U.S. 581 (1999), the
Division has also undertaken initiatives to eliminate the needless institutionalization of
individuals who require health care supports and services.

The Division plays a critical role in the HCFAC Program. The Special Litigation Section of the
Civil Rights Division is the sole DOJ component responsible for the Civil Rights of
Institutionalized Persons Act, 42 U.S.C. ' 1997 (CRIPA). CRIPA authorizes the investigation of
conditions of confinement at state and local residential institutions (including facilities for persons
with developmental disabilities or mental illness, and nursing homes) and initiation of civil action
for injunctive relief to remedy a pattern or practice of violations of the Constitution or Federal
statutory rights. The review of conditions in facilities for persons who have mental illness,
facilities for persons with developmental disabilities, and nursing homes comprises a significant
portion of the program.

The Disability Rights Section of the Civil Rights Division has primary enforcement authority for
the Americans with Disabilities Act (ADA). Title II of the ADA authorizes investigation of
allegations of discrimination by public entities against individuals with disabilities, including
discrimination in the form of needless institutionalization of persons who require health care
supports and services. See Olmstead, 527 U.S. 581. Title II also authorizes the initiation of civil
action to remedy discrimination in violation of the ADA. Both the Special Litigation Section and
the Disability Rights Section have undertaken initiatives to combat the unjustified
institutionalization of persons with disabilities.

The Special Litigation and Disability Rights Sections work collaboratively with the USAOs and
HHS.

Fiscal Year 2013 Accomplishments

Special Litigation Section staff conducted preliminary reviews of conditions and services at 16
health care facilities in 13 states during Fiscal Year 2013. The task in preliminary inquiries is to
determine whether there is sufficient information supporting allegations of unlawful conditions
and needless institutionalization to warrant formal investigation under CRIPA and/or the ADA.
The Section reviews information pertaining to areas such as abuse and neglect, medical and
mental health care, use of restraints, fire and environmental safety, and placement in the most
                                                   94
integrated setting appropriate to individual needs. Separately, in Fiscal Year 2013, the Section
opened or continued formal investigations, entered remedial agreements, or monitored existing
remedial agreements regarding 64 health care facilities in 15 states, the District of Columbia, and
the Commonwealth of Puerto Rico.

The Section found that conditions and practices at 12 state facilities for persons with intellectual
and developmental disabilities and/or mental illness violate the residents' statutory rights. Those
facilities are: Boswell Regional Center, in Magee, Mississippi; Ellisville State School, in
Ellisville, Mississippi; Hudspeth Regional Center, in Pearl, Mississippi; Southern Mississippi
Regional Center, in Long Beach, Mississippi; Mississippi Adolescent Center, in Brookhaven,
Mississippi; North Mississippi Regional Center, in Oxford, Mississippi; Mississippi State
Hospital, in Whitfield, Mississippi; South Mississippi State Hospital, in Purvis, Mississippi;
Central Mississippi Residential Center, in Newton, Mississippi; East Mississippi State Hospital,
in Meridian, Mississippi; North Mississippi State Hospital, in Tupelo, Mississippi; and the
Specialized Treatment Center, in Gulfport, Mississippi.

In Fiscal Year 2013, the Section entered into a letter agreement to resolve its investigation of
Oregon State Hospital and the State of Oregon’s state-wide system for serving individuals with
mental illness. The Agreement will be effective for four years. Pursuant to the Agreement,
Oregon will collect and furnish state-wide system data to the Section. Throughout the Agreement
period, Oregon and the Section will continue discussions on identifying gaps in the community
service system, development of outcome measures, and whether positive outcomes are being
achieved in the process.

The Section entered into a settlement agreement to resolve its investigation of Maple Lawn
Nursing Home in Palmyra, Missouri. Pursuant to the Agreement, the facility will implement pre-
admission measures to ensure that individuals who are inappropriate for admission to this facility
are not housed there. The Agreement also requires discharge and transition planning, provision of
adequate care and protections from harm for individuals, and quality outcome measures.

The Section filed a memorandum in support of class certification in Amanda D. v. Hassan, (D.
N.H.), a proposed class action involving claims under the ADA that the State of New Hampshire
failed to provide adequate community-based services to persons with mental illness,
unnecessarily segregating them in institutions and placing them at risk of unnecessary and more
costly institutionalization. The case is scheduled to go to trial in 2014.

The Section entered into an interim settlement agreement in Steward v. Perry, (W.D. TX.), to
resolve a suit against the State of Texas for its failure to provide adequate community-based
services to persons with intellectual disabilities residing in nursing homes. Negotiations are
continuing to resolve all issues pursuant to a comprehensive agreement.

The Section filed four statements of interest in ongoing litigation: ILADD v. Quinn, (N.D. Ill.);
Hunter v. Cooke, (N.D. Ga.); J.B. v. Bryant, (S.D. Miss.); and Sciarrillo v. Christie, (D.N.J). The
Section filed the statements of interest to clarify and articulate the views of the United States
pertaining to the Title II of the ADA and Olmstead and remedies therein, in matters where the

                                                 95
United States is not a formal party.

The Section continued its investigations of 12 residential facilities for persons with intellectual
and developmental disabilities, including: Northwest Habilitation Center, in St. Louis, Missouri;
Bellefontaine Habilitation Center, in St. Louis, Missouri; Sonoma Developmental Center, in
Eldridge, California; Lanterman Developmental Center, in Pomona, California; Utah State
Hospital, in Provo, Utah; Clyde L. Choate Developmental Center, in Anna, Illinois; and, five
Arkansas facilities, including: Arkadelphia Human Development Center, in Arkadelphia,
Arkansas; Alexander Human Development Center, in Alexander, Arkansas; Booneville Human
Development Center, in Booneville, Arkansas; Jonesboro Human Development Center, in
Jonesboro, Arkansas; and Southeast Arkansas Human Development Center, in Warren, Arkansas.

The Section also continued its investigations of three facilities for persons with mental illness,
including: Ancora Psychiatric Hospital, in Hammonton, New Jersey; Oregon State Hospital, in
Salem and Portland, Oregon; and Kingsboro Psychiatric Center, in Brooklyn, New York.

The Section also continued its investigations of two nursing facilities: Maple Lawn Nursing
Home, in Palmyra, Missouri; and Casa del Veteranos, in Juana Diaz, Puerto Rico.

The Section monitored the implementation of remedial agreements for 22 facilities for persons
with intellectual and developmental disabilities: Beatrice State Developmental Center, in
Beatrice, Nebraska; Woodbridge Developmental Center, in Woodbridge, New Jersey; Clover
Bottom Developmental Center in Nashville, Tennessee; Greene Valley Developmental Center in
Greeneville, Tennessee; Lubbock State Supported Living Center, in Lubbock, Texas; Denton
State Supported Living Center, in Denton, Texas; Abilene State Supported Living Center, in
Abilene, Texas; Austin State Supported Living Center, in Austin, Texas; Brenham State
Supported Living Center, in Brenham, Texas; Corpus Christi State Supported Living Center, in
Corpus Christi, Texas; El Paso State Supported Living Center, in El Paso, Texas; Lufkin State
Supported Living Center, in Lufkin, Texas; Mexia State Supported Living Center, in Mexia,
Texas; Richmond State Supported Living Center, in Richmond, Texas; Rio Grande State
Supported Living Center, in Harlingen, Texas; San Angelo State Supported Living Center, in
Carlsbad, Texas; San Antonio State Supported Living Center, in San Antonio, Texas; Central
Virginia Training Center, in Lynchburg, Virginia; Northern Virginia Training Center, in Fairfax,
Virginia; Southeastern Virginia Training Center, in Chesapeake, Virginia; Southside Virginia
Training Center, in Portsmouth, Virginia; Southwestern Virginia Training Center, in Hillsville,
Virginia. These remedial agreements include the provision of adequate community supports and
services. The Section also litigated the issue of whether the closure of Arlington Developmental
Center in Memphis, Tennessee should result in the dismissal of its case involving the facility and
community services for individuals with intellectual and developmental disabilities in West
Tennessee.

The Section also monitored the implementation of remedial agreements regarding 13 state-
operated residential facilities for persons with mental illness: Napa State Hospital, in Napa,
California; Metropolitan State Hospital, in Norwalk, California; Kings County Hospital Center, in
Brooklyn, New York; Delaware State Psychiatric Center, in New Castle, Delaware; Georgia

                                                 96
Regional Hospital, in Atlanta, Georgia; Georgia Regional Hospital, in Savannah, Georgia;
Central State Hospital, in Milledgeville, Georgia; Southwest State Hospital, in Thomasville,
Georgia; West Central Georgia Hospital, in Columbus, Georgia; East Central Georgia Regional
Hospital, in Augusta, Georgia; St. Elizabeth’s Hospital, in Washington, D.C.; Connecticut Valley
Hospital, in Middletown, Connecticut; and Oregon State Hospital, in Portland, Oregon. These
remedial agreements include the provision of adequate support and services to enable individuals
to live successfully in the community.

In addition, the Section monitored remedial agreements at two nursing facilities: William F.
Green State Veterans’ Nursing Home, in Bay Minette, Alabama; and Maple Lawn Nursing Home,
in Palmyra, Missouri.

In Fiscal Year 2013, the Disability Rights Section monitored the implementation of its eight-year
settlement agreement with the State of North Carolina resolving the Section’s Olmstead
investigation of North Carolina’s mental health service system, which currently serves thousands
of individuals with mental illness in large, costly institutional settings known as adult care
homes. Under the agreement, North Carolina is providing opportunities to individuals with
mental illness in adult care homes to transition to less costly, supported housing settings –
integrated housing that promotes inclusion and independence and enables individuals with mental
illness to participate fully in community life.

The Section intervened in Lane v. Kitzhaber (D. OR.), a class action brought on behalf of persons
with intellectual and developmental disabilities alleging that Oregon is in violation of Title II of
the ADA and Olmstead by unnecessarily segregating individuals with disabilities in sheltered
workshops when such individuals can and want to work in more integrated supported
employment settings. The litigation is ongoing.

The Section also filed suit against the State of Florida, in United States v. Florida, (S.D. Fla.
2013) alleging that it administers its service system for children with significant medical needs in
violation of the ADA and Olmstead by unnecessarily segregating children in nursing facilities,
when they could, and want to, be served at home or in other community-based settings. The
Section’s complaint further alleges that the State violates the ADA by administering its system of
care in a manner that places many other children with complex medical conditions at risk of
unnecessary institutionalization in nursing facilities.

The Section entered into an interim settlement agreement with the State of Rhode Island and the
City of Providence, in United States v. Rhode Island and City of Providence, (D.R.I. 2013),
resolving the Section’s findings that the State and City unnecessarily segregated persons with
intellectual and developmental disabilities (I/DD) in a sheltered workshop and segregated day
activity service program, and placed public school students with I/DD at risk of unnecessary
segregation in that same program. Under the agreement, the State and City will provide
supported employment services to individuals with intellectual and developmental disabilities and
provide integrated day services to enable such individuals to participate in integrated activities
when they are not working.


                                                 97
The Section also entered into a settlement agreement with the State of New York and private
plaintiffs regarding New York’s mental health service system, in United States v. New York
(E.D.N.Y. 2013). The agreement remedies discrimination by the State in the administration of its
mental health service system and ensures that individuals with mental illness who reside in 23
large adult homes in New York City receive services in the most integrated setting appropriate to
their needs consistent with the ADA and Olmstead. Under the agreement, such individuals will
have the opportunity to live and receive services in the community such that they are able to live,
work, and participate fully in community life. The Section also continued its ongoing
investigation of the State of New York regarding the placement of children with disabilities at
certain restrictive out-of-state facilities.

The Division filed six statements of interest or amicus briefs in litigation raising issues of
needless segregation in Illinois, the District of Columbia, Florida, Mississippi, Georgia, and New
Jersey. These briefs have addressed a wide range of issues, including unnecessary
institutionalization of individuals in state-run and private institutions and cuts to community
services placing individuals at risk of unnecessary, and more costly, institutionalization.




                                                98
                              Federal Bureau of Investigation
In FY 2013, the FBI was allocated $128.1 million in funding from HIPAA to support the
facilitation, coordination and accomplishment of the goals of the HCFAC Program. This yearly
appropriation was used to support 801 positions (480 Agent, 321 Support). In FY 2013, the FBI
initiated 674 new health care fraud investigations and had 2,868 pending investigations.
Investigative efforts produced 794 criminal health care fraud convictions and 1,023 indictments
and informations. In addition, investigative efforts resulted in over 425 operational disruptions of
criminal fraud organizations and the dismantlement of the criminal hierarchy of more than 115
HCF criminal enterprises.

The FBI is the primary investigative agency involved in the fight against health care fraud that
has jurisdiction over both the Federal and private insurance programs. Each of the 56 FBI field
offices has personnel assigned specifically to investigate health care fraud matters. With national
health care expenditures projected to exceed $2.9 trillion dollars in FY 2013, it is especially
important to coordinate all investigative efforts to combat the significant fraud and abuse within
the health care system.

The FBI leverages its resources in both the private and public arenas through investigative
partnerships with agencies such as HHS-OIG, the FDA, the DEA, the Defense Criminal
Investigative Service, the Office of Personnel Management-OIG, the Internal Revenue Service-
CI, state Medicaid Fraud Control Units, and other state and local agencies. On the private side,
the FBI is actively involved in the Healthcare Fraud Prevention Partnership, an effort to exchange
facts and information between the public and private sectors in order to reduce the prevalence of
health care fraud. These efforts will enable members to share successful anti-fraud practices and
effective methodologies and strategies for detecting and preventing health care fraud. In addition,
the FBI maintains significant liaison with private insurance national groups, such as the National
Health Care Anti-Fraud Association, the National Insurance Crime Bureau, other professional
associations, and private insurance investigative units.

Health care fraud investigations are considered a high priority within the FBI White Collar Crime
Program. In addition to being a partner in the majority of investigations listed in the body of this
report, FBI field offices throughout the U.S. have pro-actively addressed significant health care
fraud threats through coordinated initiatives, task forces, working groups, and undercover
operations. These activities seek to identify and pursue investigations against the most egregious
offenders involved in health care fraud and abuse, including criminal enterprises and other crime
groups; corporations; companies; and providers whose schemes affect public safety.

In an effort to ensure sufficient FBI HCF resources are dedicated to address priority threats within
the health care system for which the FBI has responsibility, the FBI provides oversight and
guidance to field offices. The guidance has included three initiatives to combat the crime
problem, including the Health Care Fraud Prevention & Enforcement Action Team (HEAT),
Large Scale Conspiracies, and Major Provider Fraud.

A description of, and examples of results obtained by, the HEAT Initiative are contained in the

                                                99
body of this report. Contained within the HEAT section of the report is a description of, and
examples of results obtained by, the Medicare Fraud Strike Forces (MFSFs), a key component of
HEAT. The FBI coordinates with the DOJ and HHS-OIG on all HEAT aspects including
funding, resource allocation, MFSF expansion, target identification, training, and operations. The
FBI has 62 agents assigned to the nine Strike Forces in Miami, New York City, Houston, Tampa,
Detroit, Los Angeles, South Louisiana, Dallas, and Chicago. In addition to funding agent
resources, the FBI funded undercover operations expenses, financial and investigative analysis
support, offsite and evidence storage locations, and other investigative costs. These Strike Forces
have effectively investigated and prosecuted individuals and entities that do not provide
legitimate health care services, but exist solely for the purpose of defrauding Medicare and other
Federal government health care programs. The continued support of Medicare Strike Force
operations is a top priority for the FBI.

The Large Scale Conspiracies Initiative seeks to identify and target criminal enterprises and other
groups whose schemes result in significant losses, or potential losses, to health care benefit
programs. Large Scale Conspiracies include criminal enterprises and other crime groups
collaborating in fraud schemes. Intelligence efforts for this initiative include information sharing
and analysis of billing data with DOJ components, CMS, and HHS-OIG. Additional review of
suspect/abnormal providers is conducted by the FBI’s HCF Fusion Cell. Investigative assistance
provided to field offices as part of the initiative can include support for undercover operations,
source identification and support, and funding of investigative costs. An example of these types
of cases was the Biscayne Milieu Health Center, Inc., investigation involving the submission of
over $50 million in false or fraudulent claims for partial hospitalization program services. Instead
of providing these services, the clinic owners paid recruiters kickbacks to obtain Medicare
beneficiary information and billed Medicare for services which were not rendered or necessary.
Over 35 defendants have been charged and over 30 have either pled guilty or have been convicted
at trial as part of the investigation.

The Major Provider Fraud Initiative seeks to identify and target corporations, companies, and
other groups involved in fraud schemes with significant billing to government and private
healthcare benefit programs. The related schemes are frequently complex, challenging to
identify, and can involve conduct that is nationwide in scope. Extensive resources and
coordination are frequently required due to the complexity and scope of the schemes. Qui Tams
are a significant intelligence source for these types of cases. In addition to the work completed at
the field office level, and in response to this substantial threat, the FBI has established a
centralized support team to provide investigative assistance on these types of cases nationwide.
Examples of significant major provider investigations have included Amgen Inc. and Wyeth
Pharmaceuticals which agreed to pay $762 million and $491 million respectively, to resolve
criminal and civil liability. The FBI coordinates efforts against the crime problem with our law
enforcement partners, such as DOJ components, HHS/OIG, and FDA.
In addition to the FBI’s involvement in the above initiatives, each field office is involved in a
HCF Task Force and/or working group. The groups include US Attorney Office and HHS-OIG
personnel, and in many cases also include state, local, and private insurance personnel. Based on
information sharing, including billing analysis by the group partners, additional cases are vetted
and identified for investigation.

                                                100
The FBI actively provides training and guidance on health care matters. The FBI has teamed with
the DOJ, HHS, and private insurance organizations to provide training in the priority threat areas
of health care fraud. Funded training has included innovative methods of employing advanced
investigative techniques, basic HCF training for FBI special agent and professional staff newly
assigned to HCF, and sessions on new and current HCF trends and issues. FBI personnel training
opportunities included sessions offered by other government agencies and the private sector. In
FY 2013, more than 160 FBI health care fraud investigators and analysts received training. FBI
personnel also conducted a wide range of training for external audiences, including personnel
involved in the investigation of health care fraud matters and industry representatives.

Funding received by the FBI is used to pay direct and indirect personnel-related costs associated
with the 801 funded positions. Funds not used directly for personnel matters, are used to provide
operational support for major health care fraud investigations, national initiatives, training,
specialized equipment, expert witness testimony, and Strike Force operations.




                                              101
                            Return-on-Investment Calculation

•   The Return-on-Investment (ROI) for the HCFAC program is calculated by dividing the total
    monetary results to the Federal government (not including relator payments) by the annual
    appropriation for the HCFAC Account in a given year (not including portions of CMS
    funding dedicated to the Medicare Integrity Program, listed in the table on page 103).

•   The monetary results include deposits and transfers to the Medicare Part A Trust Fund and the
    Treasury, as well as restitution and compensatory damages to Federal agencies.

•   The HCFAC Account is made up of three funding sources: mandatory funding for HHS and
    DOJ, including HHS-OIG, appropriated through Section 1817(k)(3)(A) of the Social Security
    Act; mandatory funding for FBI activities appropriated through Section 1817(k)(3)(B) of the
    Social Security Act; and discretionary funding for the HCFAC Account appropriated through
    the annual Labor-HHS-Education appropriation. FBI mandatory HIPAA funding is included
    in ROI calculations given the important role the FBI plays in achieving the monetary results
    reflected in the HCFAC annual report and because that statute states that the funds are for the
    same purposes as the funds provided for HHS and DOJ under the Social Security Act, even
    though FBI spending and monetary results are not required to be reported, per the statute.

•   While all mandatory HCFAC Account funding is included in the ROI calculation of this
    report, only certain portions of discretionary HCFAC funding is included. All discretionary
    HCFAC funding for HHS-OIG and DOJ are included in the HCFAC report ROI since they
    spend their discretionary funding on the same types of activities that they support with
    mandatory funding. Only the portion of CMS Medicare discretionary HCFAC funding that
    supports law enforcement is included in the HCFAC report ROI. The remainder of CMS’s
    HCFAC Medicare discretionary funding supports activities in the Medicare Integrity Program
    (MIP) that are included in the MIP ROI, which is calculated separately and outside of the
    HCFAC report. All discretionary CMS Medicaid Integrity program funding is included in a
    separate Medicaid Integrity program ROI published in a separate report.




                                               102
                     Total Health Care Fraud and Abuse Control Resources
The table below sets forth HCFAC funding, by agency, for health care fraud and abuse control
activities in FY 2013, including sequester reductions. The FBI also receives a stipulated amount
of HIPAA funding for use in support of the Fraud and Abuse Control Program, which is shown
below. Separately, CMS receives additional Mandatory Resources under the Medicare Integrity
Program (section 1817(k)(4) of the Social Security Act). The inclusion of the activities supported
with these funds is not required in this report, and this information is included for informational
purposes.

Since 2009, Congress has also appropriated annual amounts to help carry out health care fraud
and abuse control activities within DOJ and HHS. Those amounts are set forth as Discretionary
Resources in the table below and the results of the efforts supported with these funds are
contained within this report.
                     Mandatory Resources                                     Fiscal Year 2013
       Office of Inspector General                                             $187,097,926
       Health and Human Services Wedge 1                                        $34,819,122
       Medicare Integrity Program 2                                            $851,509,634
            MIP/Medicare (non-add)                                             $797,581,005
            Medi-Medi (non-add)                                                 $53,928,629
       Department of Justice Wedge1                                             $58,164,042
       Federal Bureau of Investigation 3                                       $128,149,615
       Subtotal, Mandatory HCFAC                                              $1,259,740,339
                    Discretionary Resources
       Office of Inspector General                                               $28,121,691
       CMS Program Integrity                                                    $237,343,109
            Medicare Program Integrity (Non-Add)                                $207,984,175
            Medicaid Program Integrity (Non-Add) 4                               $29,358,934
       Department of Justice                                                     $28,121,691
       Subtotal, Discretionary HCFAC                                            $293,586,491
       Grand Total, HCFAC                                                      $1,553,326,830




1
  The HHS and DOJ Wedge funds are divided among multiple agencies within HHS and DOJ. Page 7 of this report
includes the allocations of the HHS and DOJ Wedge by agency or activity.
2
  Medicare Integrity Program (MIP) and Medi-Medi fund fraud prevention and detection activities within Medicare
and Medicaid, which are not included in this report to Congress. There is another mandatory report due to Congress
in April regarding MIP activities.
3
  The FBI receives funding annually to conduct anti-fraud activities authorized by HIPAA. This funding is included
in the HCFAC ROI calculation for this report.
4
  This is not to be confused with the Medicaid Integrity Program authorized in the Deficit Reduction Act of 2005,
which receives funding separately from the HCFAC account.

                                                       103
                             Glossary of Terms


The Account - The Health Care Fraud and Abuse Control Account

ACA – Affordable Care Act

AoA - Department of Health and Human Services, Administration on Aging

ACL – Department of Health and Human Services, Administration for Community
Living

ASPA – Assistant Secretary for Public Affairs (HHS)

AUSA - Assistant United States Attorney

CHIP - Children’s Health Insurance Program

CIA - Corporate Integrity Agreement

CMP - Civil Monetary Penalty

CMS - Department of Health and Human Services, Centers for Medicare & Medicaid
Services

CNC – Compromised Number Contractors

CPI – Center Program Integrity

CRIPA - Civil Rights of Institutionalized Persons Act

CY – Calendar Year

DME - Durable Medical Equipment

DMEPOS – Durable Medical Equipment Prosthetics, Orthotics, and Supplies

DOJ - The Department of Justice

FEHBP – Federal Employee Health Benefits Program

FBI - Federal Bureau of Investigation

FCA - False Claims Act

                                        104
FDA - Food and Drug Administration

FDCA – Food, Drug, and Cosmetic Act

FY – Fiscal Year

HCFAC - -Health Care Fraud and Abuse Control Program or the Program

HEAT - Health Care Fraud Prevention & Enforcement Action Team

HHA – Home Health Agency

HHS - The Department of Health and Human Services

HHS-OIG - The Department of Health and Human Services - Office of the Inspector
General

HI - Hospital Insurance Trust Fund

HIPAA - The Health Insurance Portability and Accountability Act of 1996, P.L. 104-191

HIV - Human Immunodeficiency Virus

MEDIC - Medicare Drug Integrity Contractors

MFCU – Medicaid Fraud Control Unit

OCGS - Organized Crime and Gang Section

OGC - Office of the General Counsel, Department of Health and Human Services

PERM - Program Error Rate Measurement

PFP – Pharmaceutical Fraud Pilot Program

The Program - The Health Care Fraud and Abuse Control Program

Secretary - The Secretary of the Department of Health and Human Services

SMP - Senior Medicare Patrol

USAO - United States Attorney’s Office

ZPIC - Zone Program Integrity Contractor

                                     105
